<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2014 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 THE PRESIDENT'S FISCAL YEAR 2014 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2013

                               __________

                           Serial No. 113-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

82-585 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                                Witness

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     9

                             For the Record

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Excerpt........................................................    44

                                Appendix

Questions From Honorable Jeff Duncan for Janet Napolitano........    63
Questions From Honorable Susan W. Brooks for Janet Napolitano....    63
Questions From Honorable Scott Perry for Janet Napolitano........    64
Questions From Ranking Member Bennie G. Thompson for Janet 
  Napolitano.....................................................    65
Question From Honorable Loretta Sanchez for Janet Napolitano.....    73
Questions From Honorable Sheila Jackson Lee for Janet Napolitano.    73
Questions From Honorable Yvette D. Clarke for Janet Napolitano...    73
Question From Honorable Brian Higgins for Janet Napolitano.......    73
Question From Honorable Ron Barber for Janet Napolitano..........    73
Questions From Honorable Donald M. Payne, Jr. for Janet 
  Napolitano.....................................................    73
Questions From Honorable Beto O'Rourke for Janet Napolitano......    75

 
 THE PRESIDENT'S FISCAL YEAR 2014 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Thursday, April 18, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:09 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Rogers, 
Miller, Meehan, Duncan, Chaffetz, Barletta, Stewart, Hudson, 
Daines, Brooks, Perry, Thompson, Sanchez, Jackson Lee, Clarke, 
Higgins, Barber, Payne, O'Rourke, Vela, Horsford, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to hear testimony from 
Secretary Janet Napolitano, related to the President's fiscal 
year 2014 budget request for the Department of Homeland 
Security. I now recognize myself for an opening statement.
    Secretary Napolitano, I want to thank you for being here 
today during this difficult time for our country. Events like 
the Boston bombing, transcend politics. Today as we search for 
answers, and we remember those who were lost and injured, we 
are reminded of how vulnerable we are in a free society.
    We also realize the truths about the core of this country. 
That we are strong, resilient, and committed to continuing our 
way of life. In the moments following the explosions, we felt 
tremendous heartbreak, but also witnessed tremendous acts of 
heroism. From the first responders who arrived on the scene and 
saved lives, to the marathoners who ran towards the victims, 
instead of away from the blast.
    The courage of the people in this country in the face of 
great evil inspires us all to not be intimidated, but instead 
carry on, and care for each other. The spirit of the people of 
Boston make us all proud to be Americans. The tragic images of 
that day will stay with us. However, if there is a silver 
lining in times like these, it is that we as a country become 
united. After the explosions ceased, I received a call from the 
White House. It was clear from that conversation that we were 
not Republicans or Democrats, but we are all Americans who 
stand together in this fight against terrorism.
    As our Nation comes together to embrace the families 
affected by the tragedy, we re-commit ourselves to never 
returning to a pre-9/11 mentality. We will never forget this 
heartbreak of losing our own, and we owe them our commitment to 
never become complacent. While our intelligence, military, and 
law enforcement are the best in the world, we as citizens must 
always remain vigilant. For every event like the one in Boston, 
many are thwarted.
    Hearings like this one today, are meant to improve our 
prevention of these attacks, and ensure that if they occur, we 
have the best knowledge, and resources to respond. I want to 
commend the Department for its involvement in trying to find 
the terrorist behind this plot. I appreciate the assurances I 
have received, that we are putting the full weight of the 
Federal Government behind this search. I am confident that we 
will succeed in bringing these terrorists to justice.
    I think I speak for the committee and tell you that, when 
it comes to Boston, we are all in this together. We are all 
equally committed to finding who did this, and to ensuring that 
they will receive swift justice. As we witnessed this week, 
this country is still a target for terrorism. I look forward to 
discussing how we can best use our resources to combat the many 
threats against us. While we may not always agree on the best 
way to ensure homeland security, today we can all agree that 
our highest calling is to serve the people and to ensure their 
safety.
    Today as we examine the fiscal priorities of the 
Department, I hope we can identify ways to improve our National 
security by ensuring DHS agencies are working together and for 
a common purpose. From securing our borders to ensuring 
resources aren't wasted, and all of the decisions at DHS that 
play a critical role in safeguarding the Nation. I hope that 
you, Madam Secretary, can discuss the administration's plans to 
continue to support DHS's counterterrorism and disaster 
preparedness and response efforts in addition to the other many 
issues.
    The Department was created out of the combination of 22 
independent agencies after 9/11. Therefore, it has great 
challenges from its inception. I hope that this hearing 10 
years after the creation can be a constructive forum, and I 
look forward to hearing the Secretary's assessment of the 
proposed budget today. Finally, I want to add my concern about 
what happened in my home State in West, Texas yesterday 
evening. As you know, these types of explosions are extremely 
hard to contain, and we know that there were many injured, and 
our thoughts and prayers go out to them.
    If you have anything you can share with us today, Madam 
Secretary, on those events, and what is being done now, we 
would all appreciate your insight. With that, I now recognize 
the Ranking Member of the committee, Mr. Thompson.
    [The statement of Chairman McCaul follows:]
                  Statement of Chairman Michael McCaul
    Secretary Napolitano, I want to thank you for being here during 
this difficult time for our country.
    Events like the Boston bombing transcend politics. Today, as we 
search for answers and remember those who were lost and injured, we are 
reminded of how vulnerable we are as a free society. We also realize 
the truths about the core of this country--that we are strong, 
resilient, and committed to continuing our way of life.
    In the moments following the explosions, we felt tremendous 
heartbreak, but also witnessed tremendous acts of heroism. From the 
first responders who arrived on the scene and undoubtedly saved lives, 
to the marathoners who ran towards the victims instead of away from the 
blasts. The courage of the people in this country in the face of great 
evil inspires us all to not be intimidated--but to instead carry on and 
to care for each other. The spirit of the people of Boston makes us all 
proud to be Americans.
    The tragic images of that day will stay with us. However, if there 
is a silver lining in times like these, it is that we as a country 
become united. After the explosions ceased, I received a call from the 
White House. It was clear from that conversation that we were not 
Republicans or Democrats, but we are all Americans who stand together 
in the fight against terrorism.
    And as the Nation comes together to embrace the families affected 
by the tragedy, we recommit ourselves to never returning to a pre-9/11 
mentality. We will never forget this heartbreak of losing our own, and 
we owe them our commitment to never become complacent. While our 
intelligence, military, and law enforcement are the best in the world, 
we as citizens must always remain vigilant.
    For every event like the one in Boston, many are thwarted. 
Hearings, like this one today, are meant to improve our prevention of 
these attacks--and ensure that if they occur, we have the best 
knowledge and resources to respond.
    I want to commend the Department for its involvement in trying to 
find the terrorists behind this plot. I appreciate the assurances I've 
received that we are putting the full weight of the Federal Government 
behind this search, and I have confidence that we will succeed.
    I think I can speak for the committee and tell you that when it 
comes to Boston, we are all in this together. We are all equally 
committed to finding who did this and to ensuring they receive swift 
justice.
    As we witnessed this week, this country is still a target for 
terrorism, and I look forward to discussing how we can best use our 
resources to combat the many threats against us.
    While we may not always agree on the best way to ensure homeland 
security, today we can all agree that our highest calling is to serve 
the people, and to ensure their safety.
    Today, as we examine the fiscal priorities of the Department, I 
hope we can identify ways to improve our National security by ensuring 
DHS agencies work together, and for a common purpose. From securing our 
borders to ensuring resources aren't wasted--all of the decisions at 
DHS play a critical role in safeguarding our Nation.
    I hope that you, Madame Secretary, can discuss the administration's 
plans to continue to support DHS's counterterrorism and disaster 
preparedness and response efforts in addition to the many other issues 
facing the Department.
    The Department was created out of the combination of 22 independent 
agencies after 9/11, therefore it has had great challenges from its 
inception. I hope that this hearing, 10 years after the creation of 
DHS, can be a constructive forum, and I look forward to the Secretary's 
assessment of the Department's proposed budget today.
    Finally, I want to add my concern about what happened in West, 
Texas, yesterday evening. As you know--these types of explosions are 
extremely hard to contain--and we know that there were many injured. If 
you have anything you can share with us today on those events and 
what's being done now, we would all appreciate your insight.

    Mr. Thompson. Thank you very much Mr. Chairman for setting 
this hearing to hear from the Secretary on the proposed 2014 
budget. Good morning Madam Secretary. I am appreciative that 
you are here to discuss the budget. However, before I begin I 
would like to take a moment to express my sincere condolences 
to those who have lost loved ones, or were injured in Boston. 
Our thoughts are with them today. As a former volunteer 
firefighter, I want to commend the Boston police, firefighters, 
and medical personnel for their heroic response.
    Also, I would like--be remiss if I didn't acknowledge the 
lives lost, and destruction out in West, Texas. Our prayers 
also go out to that community. As authorizers, we bear special 
responsibility to make sure that the Government is working to 
prevent attacks like the one that happened on Monday. Madam 
Secretary, your job has certainly not been an easy one. When 
you arrived at the Department 4 years ago, it was in bad shape. 
There were problems with acquisitions. There were problems with 
morale. Despite significant investment in preparedness, we had 
no idea if, as a Nation, we were better prepared to respond to 
a natural disaster, or a terrorist attack.
    To add to that, over the past 3 years, the Department's 
budget has been reduced. Meanwhile, the periodic logjams in the 
Congressional budget process have certainly made future budget 
planning much more difficult. So to be clear, I understand that 
you have a very difficult job. That said, I am concerned about 
the lack of progress on many of the fundamental problems that 
have plagued your agency since its inception.
    For example, the Department continues to be on the 
Government Accountability Office's high-risk list, and employee 
morale continues to be among the lowest of all Federal 
agencies. After $430 million of investment in interoperable 
communications, Departmental components are still not 
interoperable. With respect to the fiscal year 2014 budget 
request, I appreciate your efforts to achieve savings through 
efficiencies, but I have some serious reservations about some 
of your proposals. I am concerned that many of the critical new 
investments are dependent upon Congress approving new revenues.
    In the current Congressional environment, that strikes me 
as a very heavy lift. Additionally, I have questions about the 
proposal to let CBP to accept money from outside stakeholders 
to defray costs. In particular, I would like to know how this 
proposal relates to plans to extend the pre-clearance program 
to Abu Dhabi, UAE. With respect to preparedness, I am concerned 
that the Department has yet again proposed to consolidate 16 
targeted Homeland Security grant programs into a single pot.
    It has been over a year since grant consolidation was first 
proposed, and the Department still has not articulated how the 
capabilities gained through existing grant programs will be 
maintained under the new program. With the limited resources 
available to the Department, we must ensure that the Federal, 
State, and local programs are adequately funded. Yet, before I 
close I would note that the administration has two major 
initiatives where the Department is expected to play a central 
role: Immigration reform and cybersecurity.
    I am interested to hear what resources you need in order to 
undertake the anticipated advances in these two key areas. 
Again, I thank you for being here today, and I look forward to 
your testimony, and I yield back my time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Before I begin, I would like to take a moment to express my sincere 
condolences to those who lost loved ones or were injured in Boston. Our 
thoughts are with them today. As a former volunteer firefighter, I want 
to commend the Boston police, firefighters, and medical personnel for 
their heroic response.
    Also, I would be remiss if I didn't also acknowledge the lives lost 
and destruction we are seeing out of West, Texas. Our prayers go out to 
that community.
    As authorizers, we bear a special responsibility to make sure that 
the Government is working to prevent attacks like the one that happened 
on Monday.
    Madame Secretary, your job has certainly not been an easy one. When 
you arrived at the Department 4 years ago, it was in bad shape.
    There were problems with acquisitions. There were problems with 
morale. Despite significant investments in preparedness, we had no idea 
if, as a Nation, we were better prepared to respond to a natural 
disaster or terrorist attack.
    To add to that, over the past 3 years, the Department's budget has 
been reduced; meanwhile, the periodic logjams in the Congressional 
budget process have certainly made future budget planning much more 
difficult. So, to be clear, I understand that you have a very difficult 
job.
    That said, I am concerned about the lack of progress on many of the 
fundamental problems that have plagued your agency.
    For example, the Department continues to be on the Government 
Accountability Office's ``High-Risk List'' and employee morale 
continues to be among the lowest of all Federal agencies.
    After $430 million of investment in interoperable communications, 
Departmental components still are not interoperable.
    With respect to the fiscal year 2014 budget request, I appreciate 
your efforts to achieve savings through efficiencies, but I have some 
serious reservations about some of your proposals.
    I am concerned that many of the critical, new investments are 
dependent upon Congress approving new revenues. In the current 
Congressional environment, that strikes me as a very heavy lift.
    Additionally, I have questions about the proposal to allow CBP to 
accept money from outside stakeholders to defray costs. In particular, 
I would like to know how this proposal relates to plans to extend the 
preclearance program to Abu Dhabi, UAE.
    With respect to preparedness, I am concerned that the Department 
has, yet again, proposed to consolidate 16 targeted homeland security 
grant programs into a single pot.
    It has been over a year since grant consolidation was first 
proposed, and the Department still has not articulated how the 
capabilities gained through existing grant programs will be maintained 
under the new program.
    With the limited resources available to the Department, we must 
ensure that the Federal, State, and local programs are adequately 
funded.
    Before I close, I would note that the administration has two major 
initiatives where the Department is expected to play a central role--
immigration reform and cybersecurity.
    I am interested to hear what resources you need in order to 
undertake the anticipated advances in these two key areas.

    Chairman McCaul. I want to thank the Ranking Member. Other 
Members of the committee are reminded that opening statements 
may be submitted for the record. I would like now to introduce 
the Secretary. Secretary Napolitano is beginning her fifth year 
of service in one of the most important Cabinet positions in 
our Government. Prior to her service at the Department of 
Homeland Security, Secretary Napolitano served as Governor and 
attorney general in the State of Arizona and as a former 
justice department prosecutor. She was also a United States 
attorney.
    I remind our witness her entire written statement will 
appear in the record, and ask our witness to summarize her 
statement at this time. I now recognize the Secretary. Thank 
you.

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you Chairman McCaul and 
Ranking Member Thompson, Members of the committee. Before I 
begin discussion of the fiscal year 2014 budget request, if I 
might, just a few words both about West, Texas, and about 
Boston. I will begin with West, Texas as the more recent event, 
and give you the most current information that we have about 
the explosion. Of course our sympathies and concerns go out to 
the families of those who have lost loved ones, or who have had 
a loved one who has been injured.
    But, as of right now, the FAA has issued a temporary flight 
restriction over the area. The Texas Commission on 
Environmental Quality is providing air monitoring, and 
technical assistance. Texas Task Force-1 has been alerted to 
provide structural collapse support. The Union Pacific Railroad 
has halted freight service, and local utilities have turned off 
utility service in the area, including gas and electricity. 
There is an Incident Command Center, and a Triage Center, but 
they have been recently moved due to fears that additional 
tanks could be at risk. FEMA, part of the department has been 
activated, and stands ready to assist Texas upon request.
    The State Fire Marshall's Office, the Texas DPS, the Waco 
Fire and Hazmat and other State agencies are also responding. 
The American Red Cross is working with local Emergency 
Management to identify shelter management assistance. We have 
within FEMA, activated an Incident Management Assistance Team, 
three preliminary Damage Assessment Teams, and we are also 
standing by to assist in any other way. Our EOC remains at 
level 3, which is at increased readiness. We will continue to 
monitor events over the course of today, and provide you with 
updates as they are relevant.
    I might add, Mr. Chairman that many of the things I have 
just gone through are examples of the kinds of activities that 
have been supported by the committee, through FEMA, through the 
various grants that we supply. Urban Search and Rescue being a 
good example of the kinds of things that grants have been 
supporting, increasing or capacity for response and resilience 
as a Nation. So, that is the most recent on West, Texas. With 
respect to Boston, we are--in the FBI's lead, we are 
investigating this as an act of terror. We are assisting.
    ICE is part of the JTTF. We have over four dozen ICE agents 
now assigned to the Boston office, helping in the 
investigation. CBP is assisting in a number of ways. 
Immediately after the attack, we worked to close Logan, to 
ground air for a few hours and to institute special targeting 
rules, both in the air environment, and at the Canadian border 
environment, in case there were those seeking to escape the 
scene.
    With respect to FEMA, again when you saw the response in 
Boston and how coordinated it was even given the level of 
destruction, I would remind the committee that just last 
November, Boston held a massive exercise on how to deal with a 
mass casualty event. That exercise was the kind of exercise, 
and exercises supported by the committee through FEMA to local 
areas, again increasing our ability for response and 
resilience.
    We have worked with the FBI and provided several intel 
products and briefings to State and local law enforcement 
across the country. Critical infrastructure owners and 
operators, and we have been reaching out to faith-based 
organizations, community organizations, and others who want to 
know what they can do. We are implementing a number of security 
measures, both seen and unseen at airports, transit hubs, 
within the maritime environment, and at ports of entry.
    The Coast Guard is providing security on the ferries in the 
Boston area. VIPR teams are doing surges in terms of ground 
transportation and the like. Finally, with respect to the 
public, we do urge the public to remain vigilant. We are all in 
this together. Security is a joint responsibility. The ``see 
something, say something'' message is something that all of us 
can emphasize. Events such as Boston remind us of the 
importance of that.
    This is an all-hands-on-deck effort by the entire Federal 
Government, led by the President. We are committed to making 
sure that we bring the perpetrators to justice.
    Moving on to the budget, this marks the 10th anniversary of 
the creation of DHS. It is the largest reorganization of the 
Federal Government since the creation of the Department of 
Defense. In 10 years, we have transformed 22 legacy agencies 
into a single integrated Department. We have built a 
strengthened homeland security enterprise and a more secure 
America better equipped to confront the range of threats we 
face.
    The President's fiscal year 2014 budget request allows us 
to build on our progress by preserving core front-line 
operational priorities. At the same time, given the current 
fiscal environment--this is the third straight year that our 
budget request reflects a reduction from the previous year. 
Specifically, the budget request is 2.2 percent, or more than 
$800 million dollars below the fiscal year 2013 enacted budget. 
While our missions have not changed, and we continue to face 
evolving threats, I think, we have become more strategic in how 
we use our resources, focusing on a risk-based approach.
    This is coupled with a commitment to fiscal discipline, 
which has led to over $4 billion in cost avoidances and 
reductions through our efficiency review. The recent, 4-year 
appropriations bill enables DHS to mitigate, to some degree, 
the projected sequester impacts under the Continuing Resolution 
on our operations and work force. But there is no doubt that 
these cuts, totaling more than $3 billion over 6 months, will 
affect our operations in the short and long term.
    Sustained cuts at sequester levels will result in reduced 
operational capacity, breached staffing floors, and economic 
impacts to the private sector through reduced and canceled 
contracts. Nonetheless, we continue to do everything we can to 
minimize impacts on our core mission and employees, consistent 
with the operational priorities in the 2014 budget.
    Let me, if I might, briefly highlight those. First, to 
prevent terrorism and enhance security, the 2014 budget 
continues to support risk-based security initiatives, like TSA 
PreCheck, Global Entry, other trusted traveler programs. As a 
result, we expect 1 in 4 travelers to receive some form of 
expedited screening by the end of the year. The budget supports 
the administration efforts to secure maritime cargo in the 
global supply train by strengthening efforts to interdict 
threats at the earliest possible point.
    We continue our strong support for State and local partners 
through training, fusion centers, and information sharing on a 
wide range of homeland security issues. We also fund cutting-
edge research and development to address evolving biological, 
radiological, and nuclear threats, including construction of 
the National Bio and Agro-Defense Facility, the NBAF.
    To secure and manage our borders, the budget continues the 
administration's robust border security efforts, while 
facilitating legitimate travel and trade. It sustains historic 
deployments of personnel along our borders, as well as 
continued utilization of proven, effective surveillance 
technology along the highest-trafficked areas of the Southwest 
Border.
    To expedite travel and trade, while reducing wait times at 
the ports of entry, the budget requests an additional 3,500 
port officers, 1,600 paid for by appropriation, the remainder 
by an increase to the immigration user fees that have not been 
adjusted since 2001.
    To secure maritime borders, the budget invests in 
recapitalization of Coast Guard assets, including the 7th 
National Security Cutter and fast response cutters. The budget 
also continues the Department's focus on smart and effective 
enforcement of our Nation's immigration laws. It supports the 
unprecedented effort to more effectively focus the enforcement 
system on public safety threats, border security, and the 
integrity of the immigration system through initiatives such as 
deferred action for childhood arrivals and greater use of 
prosecutorial discretion.
    At the same time, the budget makes significant reductions 
to inefficient programs like 287-G task force agreements while 
supporting more cost-efficient initiatives like the Nation-wide 
implementation of secure communities.
    The budget invests in monitoring in compliance, promoting 
adherence to work-site related laws, Form I-9 inspections, and 
enhancements to the E-Verify program while continuing to 
support alternatives to detention, detention reform, and 
immigrant integration efforts.
    Comprehensive immigration reform will help us continue to 
build on these efforts and strengthen border security by 
enabling DHS to further focus its resources on criminals, human 
smugglers and traffickers, and National security threats.
    Next, to safeguard and secure cyberspace, this budget makes 
significant investments to strengthen cybersecurity, including 
funds to secure our Nation's information and financial systems 
and to defend against cyber threats to private sector and 
Federal systems, the Nation's critical infrastructure, and our 
economy. It supports the President's Executive Order on 
improving critical infrastructure, cybersecurity, and the 
Presidential Policy Directive on critical infrastructure, 
security, and resilience. It expedites the deployment of the 
EINSTEIN-3 to prevent and detect intrusions on Government 
computer systems.
    Finally, to ensure continued resilience to disasters, the 
President's budget focuses on a whole-of-community approach to 
emergency management. It includes resources for the Disaster 
Relief Fund, the DRF, to support Presidentially-declared 
disasters or emergencies. The administration is again proposing 
the consolidation of 18 grant programs into one National 
preparedness grants program to create a robust National 
response capacity while reducing administrative overhead. This 
competitive risk-based program will use a comprehensive process 
to identify gaps, identify and prioritize deployable 
capabilities, put funding to work quickly, and require grantees 
to regularly report on their progress.
    It is, as I mentioned before, precisely this kind of 
funding that has enhanced preparedness and response 
capabilities in cities like Boston and locations like West, 
Texas. Since 2002, the Boston urban area has received nearly 
$370 million in Federal grant funding, which has been used to 
equip and train tactical and specialize response teams, 
specifically, in IED detection, prevention, response, and 
recovery.
    Grants have supported increased coordination, particularly 
with respect to joint exercises and training, including more 
than a dozen exercises involving the city of Boston over the 
past several years. As I mentioned, this included a large-scale 
mass casualty exercise with more than 1,800 first responders 
just last November.
    Due to the investments made over the past 10 years, our 
State and local jurisdictions now have greater capabilities to 
prevent and respond to incidents. In sum, our communities are 
better prepared, and we must continue this support.
    In conclusion, the fiscal year 2014 budget proposal 
reflects this administration's strong commitment to protecting 
the homeland and the American people through the effective and 
efficient use of DHS resources.
    Chairman McCaul, Ranking Member Thompson, Members of the 
committee, thank you for this opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Secretary Napolitano follows:]
                 Prepared Statement of Janet Napolitano
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: Let me begin by saying thank you to this committee for the 
strong support you have provided me and the Department over the past 4 
years. I look forward to continuing to work with you in the coming year 
to protect the homeland and the American people.
    I am pleased to appear before the committee today to present 
President Obama's fiscal year 2014 budget request for the Department of 
Homeland Security (DHS).
    This year marks the 10th anniversary of the creation of DHS, the 
largest reorganization of the U.S. Government since the formation of 
the Department of Defense. After 10 years of effort, DHS has 
transformed 22 agencies from across the Federal Government into a 
single integrated Department, building a strengthened homeland security 
enterprise and a more secure America better equipped to confront the 
range of threats we face.
    Our workforce of nearly 240,000 law enforcement agents, officers, 
and men and women on the front lines put their lives at risk every day 
to protect our country from threats to the homeland, securing our land, 
air, and maritime borders; enforcing our immigration laws; and 
responding to natural disasters. Our employees are stationed in every 
State and in more than 75 countries around the world, engaging with 
State, local, and foreign partners to strengthen homeland security 
through cooperation, information sharing, training, and technical 
assistance. Domestically, DHS works side-by-side with State and local 
\1\ law enforcement (SLLE) and emergency responders in our communities, 
along our borders, and throughout a National network of fusion centers. 
The Department also collaborates with international partners, including 
foreign governments, major multilateral organizations, and global 
businesses to strengthen the security of the networks of global trade 
and travel, upon which our Nation's economy and communities rely.
---------------------------------------------------------------------------
    \1\ ``Local'' law enforcement includes all law enforcement at the 
municipal, Tribal, and territorial levels.
---------------------------------------------------------------------------
    DHS employs a risk-based, intelligence-driven approach to help 
prevent terrorism and other evolving security threats. Utilizing a 
multi-layered detection system, DHS focuses on enhanced targeting and 
information sharing, and on working beyond our borders to interdict 
threats and dangerous actors at the earliest point possible. Each day, 
DHS screens 2 million passengers at domestic airports; intercepts 
thousands of agricultural threats; expedites the transit of nearly 
100,000 people through trusted traveler and known crewmember programs; 
and trains thousands of Federal, State, local, rural, Tribal, 
territorial, and international officers and agents through more than 
550 basic and advanced training programs available at the Federal Law 
Enforcement Training Center (FLETC). We conduct vulnerability 
assessments of key infrastructure, disseminate intelligence regarding 
current and developing threats, and provide connectivity to Federal 
systems to help local law enforcement and homeland security agencies 
across the country in reporting suspicious activities and implementing 
protective measures.
    Our borders and ports are stronger, more efficient, and better 
protected than ever before. At the Southwest Border, apprehensions have 
decreased to the lowest point in more than 30 years. We have 
significantly invested in additional personnel, technology, and 
infrastructure, leading to historic progress along the border. We have 
deepened partnerships with Federal, State, local, and international law 
enforcement to combat transnational threats and criminal organizations 
to help keep our border communities safe. We have strengthened entry 
procedures to protect against the use of fraudulent documents and the 
entry of individuals who may wish to do us harm. And we have made our 
ports of entry (POEs) more efficient to expedite lawful travel and 
trade. Each day, almost 1 million people arrive at our POEs by land, 
sea, and air. In fiscal year 2012, DHS processed more than 350 million 
travelers at our POEs, including almost 100 million international air 
travelers and $2.3 trillion dollars of trade, while enforcing U.S. laws 
that welcome travelers, protect health and safety, and facilitate the 
flow of goods essential to our economy.
    DHS has focused on smart and effective enforcement of U.S. 
immigration laws while streamlining and facilitating the legal 
immigration process. We have established clear enforcement priorities 
to focus the enforcement system on the removal of individuals who pose 
a danger to National security or a risk to public safety, including 
aliens convicted of crimes, with particular emphasis on violent 
criminals, felons, and repeat offenders, while implementing a 
comprehensive worksite enforcement strategy to reduce demand for 
illegal employment and protect employment opportunities for the 
Nation's lawful workforce. DHS has implemented major reforms to the 
Nation's immigration detention system to enhance security and 
efficiency and protect the health and safety of detainees while 
expanding Nation-wide the Secure Communities program, which uses 
biometric information to identify criminal aliens in State and local 
correctional facilities. Over the past 4 years, the Department has also 
improved the legal immigration process by streamlining and modernizing 
immigration benefits processes; strengthening fraud protections; 
protecting crime victims, asylees, and refugees; updating rules to keep 
immigrant families together; and launching new initiatives to spur 
economic competitiveness.
    Today, our borders are more secure and our border communities are 
among the safest communities in our country. We have removed record 
numbers of criminals from the United States, and our immigration laws 
are being enforced according to sensible priorities. We have taken 
numerous steps to strengthen legal immigration and build greater 
integrity into the system. We are using our resources smartly, 
effectively, responsibly.
    Despite these improvements, however, our immigration system remains 
broken and outdated. That is why the Department stands ready to 
implement common-sense immigration reform that would continue 
investments in border security, crack down on companies that hire 
undocumented workers, improve the legal immigration system for 
employment-sponsored and family-sponsored immigrants, and establish a 
responsible pathway to earned citizenship. Comprehensive immigration 
reform will help us continue to build on this progress and strengthen 
border security by providing additional tools and enabling DHS to 
further focus existing resources on preventing the entry of criminals, 
human smugglers and traffickers, and National security threats.
    Our Nation's critical infrastructure is crucial to our economy and 
security. DHS is the Federal Government's lead in securing unclassified 
Federal civilian government networks as well as working with owners and 
operators of critical infrastructure to secure their networks and 
protect physical assets through risk assessment, mitigation, forensic 
analysis, and incident response capabilities. In 2012, DHS issued 
warnings and responded to an average of 70 incidents per month arising 
from more than 10,000 daily alerts. The President also issued an 
Executive Order on cybersecurity and a Presidential Policy Directive on 
critical infrastructure security and resilience to strengthen the 
security and resilience of critical infrastructure against evolving 
threats through an updated and overarching National framework that 
acknowledges the interdependencies between cybersecurity and securing 
physical assets.
    In support of these efforts, DHS serves as the focal point for the 
U.S. Government's cybersecurity outreach and awareness activities and 
is focused on the development of a world-class cybersecurity workforce 
as well as innovative technologies that sustain safe, secure, and 
resilient critical infrastructure. We work hand-in-hand with our 
private-sector partners, recognizing the importance of public-private 
partnerships to build resilience through a whole-of-community approach. 
In addition to these responsibilities, DHS combats cybercrime by 
leveraging the skills and resources of the law enforcement community 
and interagency partners to investigate and prosecute cyber criminals.
    DHS has fundamentally changed how we work with our State and local 
partners to prepare for, respond to, recover from, and mitigate the 
effects of disasters. Through the Federal Emergency Management Agency 
(FEMA), we have implemented innovative practices to transform our 
disaster workforce through the creation of FEMA Corps and the DHS Surge 
Capacity Workforce. Working closely with State and local officials, we 
preposition resources before disasters hit and have 28 National urban 
search-and-rescue teams on standby in addition to dozens of State and 
local teams to support response efforts. We train more than 2 million 
emergency management and response personnel annually at the Emergency 
Management Institute, National Fire Academy, and through Community 
Emergency Response Teams to improve capabilities across all hazards. 
Additionally, we have deployed new capabilities to help disaster 
survivors recover and communities rebuild.
                maximizing efficiency and effectiveness
    The fiscal year 2014 budget for DHS is $60.0 billion in total 
budget authority and $48.5 billion in gross discretionary funding. 
These two amounts include $5.6 billion in Disaster Relief Fund (DRF) 
appropriations for recovery from major disasters, pursuant to the 
Budget Control Act. Excluding the $5.6 billion funding within the DRF, 
the net discretionary total is $39 billion.
Realizing Efficiencies and Streamlining Operations
    The Department has implemented a variety of initiatives to cut 
costs, share resources across components, and consolidate and 
streamline operations wherever possible. In fiscal year 2014, these 
initiatives will result in $1.3 billion in savings from administrative 
and mission support areas, including contracts, information technology 
(IT), travel, personnel moves, overtime, directed purchasing, 
professional services, and vehicle management.
    Through the Department-wide, employee-driven Efficiency Review 
(ER), which began in 2009, as well as other cost-saving initiatives, 
DHS has identified more than $4 billion in cost avoidances and 
reductions, and redeployed those funds to mission-critical initiatives 
across the Department.
            Strategic Sourcing
    Through ER and component initiatives, DHS has used strategic 
sourcing initiatives to leverage the purchasing power of the entire 
Department for items such as language services, tactical communications 
services and devices, intelligence analysis services, and vehicle 
maintenance services. In fiscal year 2012, we achieved $368 million in 
savings, and we project $250 million in savings for fiscal year 2013. 
We expect a comparable level of savings as we continue forward with 
this approach in fiscal year 2014.
            Travel and Conferences
    In support of the administration's Campaign to Cut Waste, DHS 
strengthened conference and travel policies and controls to reduce 
travel expenses, ensure conferences are cost-effective, and ensure both 
travel and conference attendance is driven by critical mission 
requirements. During 2012, DHS issued a new directive that establishes 
additional standards for conferences and requires regular reporting on 
conference spending, further increasing transparency and 
accountability. The Department's fiscal year 2014 budget projects an 
additional 20 percent reduction in travel costs from fiscal years 2013-
2016.
            Real Property Management
    DHS manages a real property portfolio of approximately 38,000 
assets, which spans all 50 States and 7 U.S. territories. The 
Department has adopted strategies to achieve greater efficiencies in 
the management of its real property portfolio that includes expediting 
the identification and disposal of under-utilized assets as well as 
improving the utilization of remaining Department inventory. These 
efforts will result in reductions in the size of our civilian real 
estate inventory, annual operating and maintenance costs, and energy 
usage. DHS anticipates that the amount of space and cost per full-time 
equivalent employee will continue to decline as spaces are reconfigured 
or new space is acquired on the basis of new workplace planning 
assumptions. DHS is committed to continuing to improve the management 
and alignment of its real property with advances in technology, 
mission, and work requirements.
Management and Integration
    Over the past 4 years, DHS has significantly improved Departmental 
management, developing and implementing a comprehensive, strategic 
approach to enhance Department-wide maturation and integration. We have 
improved acquisition oversight, ensuring full consideration of the 
investment life cycle in cost estimates, establishing procedures to 
thoroughly vet new requirements and alternative solutions, and 
supporting full funding policies to minimize acquisition risk. The 
fiscal year 2014 budget includes key investments to strengthen the 
homeland security enterprise, increase integration, address challenges 
raised by the U.S. Government Accountability Office (GAO), and continue 
to build upon the management reforms that have been implemented under 
this administration.
    Modernization of the Department's financial management systems has 
been consistently identified as critical by the Office of Management 
and Budget, the GAO, and Congress, and is vital to our ability to 
provide strong stewardship of taxpayer dollars. Over the past several 
years, we have made significant progress improving financial management 
practices and establishing internal controls. In 2012, DHS earned a 
qualified audit opinion on its Balance Sheet, a significant milestone 
and a pivotal step toward increasing transparency and accountability 
for the Department's resources. This full-scope audit opinion is a 
result of DHS's on-going commitment to instituting sound financial 
management practices to safeguard taxpayer dollars.
    Although DHS continues to maximize cost efficiencies and savings 
wherever possible, new investment must be made to improve our outdated 
financial systems and tools. The fiscal year 2014 budget supports 
financial system modernization at the U.S. Coast Guard (USCG), which 
also provides financial management services to two other DHS 
components.
    DHS is also implementing a coordinated management approach for 
strategic investments and resource decisions involving multiple 
components through the Integrated Investment Life Cycle Model. This 
initiative will help the Department enhance mission effectiveness while 
achieving management efficiencies by providing a broader, enterprise-
wide perspective and ensuring DHS investments address the greatest 
needs of the Department.
Strategic Re-Organizations
    In today's fiscal environment, the Department has challenged its 
workforce to fundamentally rethink how it does business, from the 
largest to the smallest investments. To help reduce costs, DHS 
conducted a formal base budget review, looking at all aspects of the 
Department's budget to find savings and better align resources with 
operational requirements.
            United States Visitor and Immigrant Status Indicator 
                    Technology (US-VISIT)
    To better align the functions of US-VISIT with the operational 
components, the Budget re-proposes the transfer of US-VISIT functions 
from the National Protection and Programs Directorate (NPPD) to U.S. 
Customs and Border Protection (CBP), consistent with the President's 
fiscal year 2013 budget. Currently, CBP operates numerous screening and 
targeting systems, and integrating US-VISIT within CBP will strengthen 
the Department's overall vetting capability while also realizing 
operational efficiencies and cost savings.
            State and Local Grants
    Given the fiscal challenges facing the Department's State and local 
partners, DHS is also approaching these partnerships in new and 
innovative ways. The budget re-proposes the National Preparedness Grant 
Program (NPGP), originally presented in the fiscal year 2013 budget, to 
develop, sustain, and leverage core capabilities across the country in 
support of National preparedness, prevention, and response, with 
appropriate adjustments to respond to stakeholder feedback in 2012. 
While providing a structure that will give grantees more certainty 
about how funding will flow, the proposal continues to utilize a 
comprehensive process for assessing regional and National gaps; support 
the development of a robust cross-jurisdictional and readily deployable 
State and local assets; and require grantees to regularly report 
progress in the acquisition and development of these capabilities.
            Land Port of Entry (LPOE) Delegation
    Beginning in fiscal year 2013, the General Services Administration 
(GSA) will work with DHS to delegate the operations of LPOE facilities 
to CBP. The distinctive nature of LPOEs as mission-oriented, 24/7 
operational assets of CBP, as well as National trade and transportation 
infrastructure, differentiates this part of the portfolio from other 
Federal buildings managed by GSA. The delegation facilitates faster 
delivery of service tailored to the specific needs of CBP's mission and 
will be more responsive to changing priorities and critical operations.
DHS Commonality Efforts
    The successful integration of 22 legacy agencies into DHS was an 
important and ambitious undertaking that has increased the Department's 
ability to understand, mitigate, and protect against threats to the 
Nation. Further integration of the Department and of the development of 
a ``One DHS'' culture will strengthen effectiveness, improve decision 
making to address shared issues, and prioritize resources in an era of 
fiscal constraint. The fiscal year 2014 budget continues this emphasis 
and supports on-going efforts aimed at furthering integration, some of 
which are highlighted as follows.
            Common Vetting
    It is estimated that DHS spends approximately $1.8 billion annually 
on information-based screening. Consequently, DHS has established a 
Common Vetting Initiative to improve the efficiency and effectiveness 
of vetting operations within the Department. Although this work is on-
going, it is expected that this effort will identify opportunities for 
streamlining operations and strengthening front-end assessment of 
requirements as part of an integrated investment life cycle.
    Additionally, DHS is leveraging existing capabilities and its 
research and development (R&D) capabilities at the Science and 
Technology Directorate (S&T) to enhance the Department's exit program, 
and to identify and sanction those who overstay their lawful period of 
admission to the United States. This initiative is focused on 
aggregating information within existing data systems, enhancing review 
of potential overstays, increasing automated matching, and 
incorporating additional biometric elements to provide the foundation 
for a future biometric exit solution. The transfer of US-VISIT 
functions to CBP and U.S. Immigration and Customs Enforcement (ICE) 
supports this effort and better aligns mission functions.
            Aviation Commonality
    The Department is projected to spend approximately $1.2 billion 
over fiscal years 2014-2018 on procurement of aviation assets. In 2011, 
DHS stood up an aviation commonalities working group to improve 
operational coordination in acquisition, facilities, maintenance, and 
logistics between CBP and USCG. The Department also launched an 
Aviation and Marine Commonalities Pilot Project in the fall of 2012 to 
test the unified command and control of Departmental aviation and 
marine forces. Complementing this effort, DHS recently began an ER 
initiative, which will increase cross-component collaboration for 
aviation-related equipment and maintenance by establishing excess 
equipment sharing, maintenance services, and contract teaming 
agreements, as well as other opportunities for aviation-related 
efficiencies.
            Investigations
    A recent partnership between ICE's Homeland Security Investigations 
and the U.S. Secret Service (USSS) demonstrates the Department's 
commitment to leveraging capabilities across components and finding 
efficiencies. Both ICE and USSS are expanding participation in the 
existing Secret Service Electronic Crimes Task Forces (ECTFs), which 
will strengthen the Department's cybercrimes investigative capabilities 
and realize efficiencies in the procurement of computer forensic 
hardware, software licensing, and training. This collaboration will 
integrate resources devoted to investigating transnational criminal 
organizations; transnational child exploitation; financial crime, 
including money laundering and identity and intellectual property 
theft; and network intrusions by domestic and international threats. 
This will further enhance the response capability of the Department to 
a cyber event by leveraging the assets of the Secret Service's 31 
ECTFs, which bring together more than 2,700 international, Federal, 
State, and local law enforcement partners; 3,100 private-sector 
members; and 300 academic partners.
            CBP Staffing and Mission Integration
    Given the administration's strong and continued focus on border 
security, DHS has undertaken a series of initiatives to ensure that 
CBP's operations are integrated and that Border Patrol Agents (BPAs) 
and CBP Officers (CBPOs) are optimally deployed. As part of its mission 
integration efforts, CBP has applied complementary BPA and CBPO 
deployments to enhance mission sets both at and between the POEs. 
Toward this goal, CBP has identified numerous mission areas where BPAs 
can substantially support: Port operations, including canine detection 
operations for drugs and concealed humans; outbound operations that 
target currency, firearms, and fugitives; port security, counter-
surveillance, and perimeter enforcement operations; inbound secondary 
conveyance inspections for narcotics and human smuggling. CBP has also 
identified mission areas where BPAs secure and transport seized 
contraband.
    CBP is realizing significant operational and force-multiplying 
benefits from deploying BPAs to support POE requirements. Over the last 
year, these efforts have augmented POE operations, enabling CBP to more 
effectively address the threat of money and weapons being smuggled 
southbound into Mexico for use by transnational criminal organizations. 
In 2013, CBP is expanding these efforts by synchronizing mission 
integration efforts across the four key Southwest Border operational 
corridors: South Texas, El Paso/New Mexico, Arizona, and Southern 
California. The harmonization of current efforts will increase rapid 
response capability, develop unified intelligence and targeting 
approaches, and identify additional areas for on-the-ground operational 
collaboration.
Supporting Economic Growth and Job Creation
    In support of the President's Executive Order on travel and tourism 
and to continue building upon the administration's significant 
investments in border security, the fiscal year 2014 budget includes 
several proposals to invest in the men and women on the front lines of 
our 329 POEs along the border and at airports and seaports across the 
country. Processing the more than 350 million travelers annually 
provides nearly $150 billion in economic stimulus, yet the fees that 
support these operations have not been adjusted in many cases for more 
than a decade. As the complexity of our operations continues to expand, 
the gap between fee collections and the operations they support is 
growing, and the number of workforce hours fees support decreases each 
year. Accordingly, the budget supports 3,477 new CBPOs to reduce 
growing wait times at our POEs and increase seizures of illegal items 
(guns, drugs, currency, and counterfeit goods). This includes 
appropriated funding for 1,600 additional CBPOs and, with Congressional 
approval, 1,877 new CBPOs through adjustments in immigration and 
customs inspections user fees to recover more of the costs associated 
with providing services. These fee proposals will also help address the 
staffing gap outlined in CBP's Resource Optimization at Ports of Entry, 
Fiscal Year 2013 Report to Congress, submitted with the President's 
budget. In addition, CBP and the U.S. Department of Agriculture are 
evaluating financial models to achieve full cost recovery for 
agricultural inspectional services provided by CBP.
    Beyond the additional front-line positions, the President's budget 
also provides direct support for thousands of new jobs through major 
infrastructure projects such as the National Bio and Agro-Defense 
Facility (NBAF) and a consolidated departmental headquarters at the St. 
Elizabeths Campus. Investment in USCG recapitalization projects 
supports more than 4,000 jobs as well in the shipbuilding and aircraft 
industries. Through our grant programs we will continue helping local 
communities to create and maintain jobs, while strengthening the 
resiliency of important economic sectors and infrastructure. The budget 
additionally supports CBP and ICE efforts to combat commercial trade 
fraud, including intellectual property law infringement, estimated to 
cost the economy up to $250 billion each year.
    Continued investment in Coast Guard front-line operations and 
recapitalization of its aging fleet helps to protect the Nation's 
Exclusive Economic Zone, a source of $122 billion in annual U.S. 
revenue, and to secure 361 ports and thousands of miles of maritime 
thoroughfares that support 95 percent of trade with the United States. 
Through CBP and the Transportation Security Administration (TSA), we 
continue to promote safe and secure travel and tourism, supporting a 
$2.3 trillion dollar tourism industry. These programs, among others, 
enhance our Nation's safety and security while fostering economic 
growth and job creation.
                           budget priorities
    The fiscal year 2014 budget prioritizes programs and activities 
within the homeland security mission areas outlined in the Department's 
2010 Quadrennial Homeland Security Review, the 2010 Bottom-Up Review, 
and the fiscal year 2012-2016 DHS Strategic Plan, undertaken by the 
Department to align its DHS resources with a comprehensive strategy to 
meet the Nation's homeland security needs.
    The budget builds on the progress the Department has made in each 
of its mission areas while strengthening existing capabilities, 
enhancing partnerships across all levels of government and with the 
private sector, streamlining operations, and increasing efficiencies.
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of homeland 
security. DHS's counterterrorism responsibilities focus on three goals: 
Preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical U.S. infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--The protection of 
the Nation's borders--land, air, and sea--from the illegal entry of 
people, weapons, drugs, and other contraband while facilitating lawful 
travel and trade is vital to homeland security, as well as the Nation's 
economic prosperity. The Department's border security and management 
efforts focus on three interrelated goals: Effectively securing U.S. 
air, land, and sea borders; safeguarding and streamlining lawful trade 
and travel; and disrupting and dismantling transnational criminal and 
terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--DHS is 
responsible for securing unclassified Federal civilian government 
networks and working with owners and operators of critical 
infrastructure to secure their networks through risk assessment, 
mitigation, and incident response capabilities. To combat cybercrime, 
DHS leverages the skills and resources of the law enforcement community 
and interagency partners to investigate and prosecute cyber criminals. 
DHS also serves as the focal point for the U.S. Government's 
cybersecurity outreach and awareness efforts to create a more secure 
environment in which the private or financial information of 
individuals is better protected.
    Mission 5: Ensuring Resilience to Disasters.--DHS coordinates the 
comprehensive Federal efforts to prepare for, protect against, respond 
to, recover from, and mitigate a terrorist attack, natural disaster, or 
other large-scale emergency, while working with individuals; 
communities; the private and nonprofit sectors; faith-based 
organizations; and Federal, State, local, territorial, and Tribal 
(SLTT) partners to ensure a swift and effective recovery. The 
Department's efforts to help build a ready and resilient Nation include 
fostering a whole community approach to emergency management 
Nationally; building the Nation's capacity to stabilize and recover 
from a catastrophic event; bolstering information sharing and building 
unity of effort and common strategic understanding among the emergency 
management team; providing training to our homeland security partners; 
and leading and coordinating National partnerships to foster 
preparedness and resilience across the private sector.
    In addition to these missions, DHS strives to maximize the 
effectiveness and efficiency of its operations while strengthening the 
homeland security enterprise. The collective efforts of Federal, SLTT, 
non-Governmental, and private-sector partners, as well as individuals 
and communities across the country are critical to our shared security. 
This includes enhancing shared awareness of risks and threats, building 
capable, resilient communities, and fostering innovative approaches and 
solutions through cutting-edge science and technology.
    The following are highlights of the fiscal year 2014 budget.
Preventing Terrorism and Enhancing Security
    Guarding against terrorism was the founding mission of DHS and 
remains our top priority. To address evolving terrorist threats and 
ensure the safety of the traveling public, the budget safeguards the 
Nation's transportation systems through a layered detection system and 
continues to support risk-based security initiatives, including TSA 
Pre<check><SUP>TM</SUP>, Global Entry, and other trusted traveler 
programs. The budget supports administration efforts to secure maritime 
cargo and the global supply chain by strengthening efforts to prescreen 
and evaluate high-risk cargo. Investments in DHS's intelligence and 
targeting programs coupled with the expansion of the National Targeting 
Center, supported by the budget, will increase operational efficiencies 
and enhance our ability to interdict threats and dangerous people 
before they reach the United States.
    Funding is included for cutting-edge R&D to address evolving 
biological, radiological, and nuclear threats. Among the important 
research investments is the construction of NBAF, a state-of-the-art 
bio-containment facility for the study of foreign animal and emerging 
zoonotic diseases that will replace the inadequate facility at Plum 
Island. The budget funds the Securing the Cities (STC) program to 
protect our highest-risk cities from radiological or nuclear attack and 
continues National bio-preparedness and response efforts. The budget 
also continues strong support for State and local partners through the 
NPGP, training, fusion centers, and intelligence analysis and 
information sharing on a wide range of critical homeland security 
issues.
  <bullet> Strengthening Risk-Based Aviation Security.--The fiscal year 
        2014 budget supports DHS's effort to employ risk-based, 
        intelligence-driven operations to prevent terrorist attacks and 
        to reduce the vulnerability of the Nation's aviation system to 
        terrorism. These security measures create a multi-layered 
        system to strengthen aviation security from the time a 
        passenger purchases a ticket to arrival at his or her 
        destination. The fiscal year 2014 budget:
    <bullet> Continues expansion of trusted traveler programs, such as 
            TSA Pre<check><SUP>TM</SUP> and Global Entry, which are 
            pre-screening initiatives for travelers who volunteer 
            information about themselves before flying in order to 
            potentially expedite screening at domestic checkpoints and 
            through customs. By 2014, TSA anticipates that one in four 
            members of the traveling public will be eligible for 
            expedited domestic screening.
    <bullet> Continues enhanced behavior detection in which interview 
            and behavioral analysis techniques are used to determine if 
            a traveler should be referred for additional screening at 
            the checkpoint. Analyses from pilots in fiscal year 2013 
            will inform the next steps on how larger-scale 
            implementation in fiscal year 2014 could improve 
            capabilities in a risk-based security environment.
    <bullet> Expands Secure Flight to perform watch list matching for 
            passengers before boarding large general aviation aircraft. 
            An estimated 11 million additional Secure Flight Passenger 
            Data sets are expected to be submitted by general aviation 
            operators per year.
    <bullet> Supports, as part of its multi-layered security strategy, 
            the Federal Flight Deck Officer and Flight Crew program as 
            a fully reimbursable program under FLETC's existing 
            authorities.
    <bullet> Prioritizes TSA's mission-critical screening functions, 
            and proposes the transfer of all exit lane staffing to 
            local airports pursuant to Federal regulatory authorities. 
            Airports will be responsible for integrating exit lane 
            security into their perimeter security plans, which are 
            assessed regularly by TSA.
  <bullet> Enhancing International Collaboration.--To most effectively 
        carry out our core missions, DHS continues to engage countries 
        around the world to protect both National and economic 
        security. The fiscal year 2014 budget supports DHS's strategic 
        partnerships with international allies and enhanced targeting 
        and information-sharing efforts to interdict threats and 
        dangerous people and cargo at the earliest point possible. The 
        Secretary's focus on international partnerships includes 
        elevating the Office of International Affairs to a stand-alone 
        office and a direct report. The fiscal year 2014 budget:
    <bullet> Supports the Immigration Advisory Program and the 
            continued growth of the Pre-Departure Vetting, which have 
            experienced a 156 percent increase in the number of no-
            board recommendations since 2010. Through these programs, 
            CBP identifies high-risk travelers who are likely to be 
            inadmissible into the United States and makes 
            recommendations to commercial carriers to deny boarding.
    <bullet> Continues to modernize the IT capability for screening 
            visa applications to support the expansion of Visa Security 
            Program (VSP) coverage at existing overseas high-risk visa 
            adjudication posts. The VSP represents ICE's front line in 
            protecting the United States against terrorists and 
            criminal organizations by preventing foreign nationals who 
            pose as a threat to National security from entering the 
            United States. In fiscal year 2014, VSP will enhance visa 
            vetting by increasing automated data exchange with the 
            Department of State and CBP's National Targeting Center. 
            ICE will leverage modernization to increase investigations 
            of visa applicants who pose a potential high risk for 
            terrorism and are attempting to travel to the United 
            States.
    <bullet> Supports the bilateral Beyond the Border Action Plan with 
            Canada, including CBP's pre-inspection efforts in rail, 
            land, and marine environments. Pre-inspection is a 
            precursor to preclearance, which supports DHS's extended 
            border strategy through the identification and prevention 
            of terrorists, criminals, and other National security 
            threats before they enter the United States. Pre-
            inspection/preclearance also helps protect U.S. agriculture 
            from the spread of foreign pests, disease, and global 
            outbreaks.
  <bullet> Supporting Surface Transportation Security.--The surface 
        transportation sector, due to its open access architecture, has 
        a fundamentally different operational environment than 
        aviation. Accordingly, DHS helps secure surface transportation 
        infrastructure through risk-based security assessments, 
        critical infrastructure hardening, and close partnerships with 
        SLLE partners. The fiscal year 2014 budget supports DHS's 
        efforts to bolster these efforts. Specifically, the budget:
    <bullet> Includes the NPGP, described in more detail on the 
            following pages. This proposal focuses on building National 
            capabilities focused on preventing and responding to 
            threats across the country, including the surface 
            transportation sector, through Urban Search and Rescue 
            teams, canine explosives detection teams, and HAZMAT 
            response as well as target hardening of critical transit 
            infrastructure.
    <bullet> Funds surface transportation security inspectors and 
            canine teams who work collaboratively with public and 
            private-sector partners to strengthen security and mitigate 
            the risk to our Nation's transportation systems.
    <bullet> Supports compliance inspections throughout the freight 
            rail and mass transit domains, critical facility security 
            reviews for pipeline facilities, comprehensive mass transit 
            assessments that focus on high-risk transit agencies, and 
            corporate security reviews conducted in multiple modes of 
            transportation to assess security.
    <bullet> Funds 37 Visible Intermodal Prevention and Response (VIPR) 
            teams, including 22 multi-modal Teams. VIPR teams are 
            composed of personnel with expertise in inspection, 
            behavior detection, security screening, and law enforcement 
            for random, unpredictable deployments throughout the 
            transportation sector to prevent potential terrorist and 
            criminal acts.
    <bullet> Helps secure critical infrastructure and key resources 
            located on or near the water through patrols, enforcing 
            security zones and security escorts of certain vessels 
            (e.g., vessels containing hazardous cargo) in key U.S. 
            ports and waterways.
  <bullet> Strengthening Global Supply Chain Security.--The fiscal year 
        2014 budget continues to support the administration's Global 
        Supply Chain Security Strategy, which provides a National 
        vision for global supply chain security that is secure, 
        efficient, and resilient across air, land, and sea modes of 
        transportation. The budget:
    <bullet> Supports increased targeting capability through enhanced 
            automated systems providing CBP with real-time information 
            to focus its enforcement activities on higher-risk 
            passengers and cargo.
    <bullet> Supports the consolidation of CBP's separate cargo and 
            passenger targeting locations, which will promote increased 
            targeting efficiencies and reduced delays of travelers and 
            cargo.
    <bullet> Strengthens the Container Security Initiative, enabling 
            CBP to prescreen and evaluate high-risk containers before 
            they are shipped to the United States.
    <bullet> Continues support to improve the coordination of 
            international cargo security efforts, accelerate security 
            efforts in response to vulnerabilities, ensure compliance 
            with screening requirements, and strengthen aviation 
            security operations overseas.
    <bullet> Supports on-going assessments of anti-terrorism measures 
            in the ports of our maritime trading partners through the 
            Coast Guard International Port Security Program.
    <bullet> Supports enhanced system efficiency through continued 
            development and deployment of the International Trade Data 
            System. This important resource provides a single automated 
            window for submitting trade information to the Federal 
            agencies responsible for facilitating international trade 
            and securing America's supply chain.
  <bullet> Research, Development, and Innovation (RD&I) at S&T.--The 
        fiscal year 2014 budget includes $467 million for RD&I, a $200 
        million increase from fiscal year 2012 enacted levels. This 
        funding includes support for unclassified cybersecurity 
        research that supports the public and private sectors and the 
        global internet infrastructure. It also allows S&T to resume 
        R&D in areas such as land and maritime border security; 
        chemical, biological, and explosive defense research; disaster 
        resilience; cybersecurity; and counterterrorism.
  <bullet> Support to SLLE.--The fiscal year 2014 budget continues 
        support for SLLE efforts to understand, recognize, prevent, and 
        respond to pre-operational activity and other crimes that are 
        precursors or indicators of terrorist activity through 
        training, technical assistance, exercise support, security 
        clearances, connectivity to Federal systems, technology, and 
        grant funding. The budget supports efforts to share 
        intelligence and information on a wide range of critical 
        homeland security issues. The budget continues to build State 
        and local analytic capabilities through the National Network of 
        Fusion Centers, with a focus on strengthening cross-Department 
        and cross-Government interaction with fusion centers. It also 
        elevates the Office of State and Local Law Enforcement to a 
        stand-alone office. The budget:
    <bullet> Enables DHS to continue to assess capability development 
            and performance improvements of the National Network of 
            Fusion Centers through an annual assessment, collection of 
            outcomes-based performance data, and targeted exercises. 
            Resources also enable the Office of Intelligence and 
            Analysis, in partnership with the Office for Civil Rights 
            and Civil Liberties and the Privacy Office, to provide 
            privacy and civil rights and civil liberties training and 
            technical assistance support for fusion centers and their 
            respective liaison officer programs. Additionally, unique 
            partnerships with FEMA, NPPD, USCG, and ICE have 
            facilitated additional analytic training for fusion center 
            analysts on a variety of topics.
    <bullet> Continues to support SLTT efforts to counter violent 
            extremism, including the delivery of Building Communities 
            of Trust initiative roundtables, which focus on developing 
            trust between community leaders and law enforcement 
            officials so they cooperatively address the challenges of 
            crime and terrorism.
    <bullet> Expands, in partnership with the Departments of Justice 
            (DOJ), Education, and Health and Human Services, on-going 
            efforts to prevent future mass casualty shootings, improve 
            preparedness, and strengthen security and resilience in 
            schools and other potential targets while working with 
            partners at all levels of government.
  <bullet> Biological, Radiological, and Nuclear Threat Detection.--
        Countering biological, nuclear, and radiological threats 
        requires a coordinated, whole-of-Government approach. DHS, 
        through the Domestic Nuclear Detection Office (DNDO) and the 
        Office of Health Affairs, works in partnership with agencies 
        across Federal, State, and local governments to prevent and 
        deter attacks using radiological and nuclear (rad/nuc) weapons 
        through nuclear detection and forensics programs and provides 
        medical and scientific expertise to support bio-preparedness 
        and response efforts.
    The fiscal year 2014 budget supports the following efforts:
    <bullet> Global Nuclear Detection Architecture (GNDA).--DNDO, in 
            coordination with other DHS components, the Attorney 
            General, and the Departments of State, Defense, and Energy, 
            leads the continued evolution of the GNDA. This 
            comprehensive framework incorporates detector systems, 
            telecommunication, and personnel, with the supporting 
            information exchanges, programs, and protocols that serve 
            to detect, analyze, and report on rad/nuc materials that 
            are not in regulatory control.
    <bullet> STC.--$22 million is requested for the STC program to 
            continue developing the domestic portion of the GNDA to 
            enhance the Nation's ability to detect and prevent a 
            radiological or nuclear attack in our highest-risk cities.
    <bullet> Transformational R&D.--Funding is requested to develop and 
            demonstrate scientific and technological approaches that 
            address gaps in the GNDA and improve the performance of 
            rad/nuc detection and technical nuclear forensic 
            capabilities. R&D investments are made on the basis of 
            competitive awards, with investigators in all sectors--
            Government laboratories, academia, and private industry--
            encouraged to participate.
    <bullet> Rad/Nuc Detection.--Supports the procurement and 
            deployment of Radiation Portal Monitors and Human Portable 
            Radiation Detection Systems, providing vital detection 
            equipment to CBP, USCG, and TSA to scan for rad/nuc 
            threats.
    <bullet> BioWatch.--Continues operations and maintenance of the 
            Federally-managed, locally-operated, Nation-wide bio-
            surveillance system designed to detect the release of 
            aerosolized biological agents.
    <bullet> NBAF.--The budget provides full funding for the 
            construction of the main laboratory at NBAF when coupled 
            with the increased cost share from the State of Kansas. 
            This innovative Federal-State partnership will support the 
            first Bio Level 4 lab facility of its kind, a state-of-the-
            art bio-containment facility for the study of foreign 
            animal and emerging zoonotic diseases that is central to 
            the protection of the Nation's food supply as well as our 
            National and economic security.
        In partnership with the State of Kansas, DHS is committed to 
            building a safe and secure facility in Manhattan, Kansas. 
            The main laboratory facility includes enhanced safety and 
            security features to ensure research conducted within the 
            facility will be contained, ultimately protecting the 
            surrounding region and the Nation's food supply. These 
            features, which are incorporated into the current NBAF 
            design and address safety recommendations of the National 
            Academies of Sciences, include specialized air and water 
            decontamination systems, new technologies to handle solid 
            waste on site, and structural components to strengthen the 
            laboratory against hazardous weather conditions.
        Funding is also provided for life and safety infrastructure 
            repairs at Plum Island Animal Disease Center while NBAF is 
            being built, to ensure an appropriate transition of 
            research from Plum Island, New York, to Manhattan, Kansas.
Securing and Managing Our Borders
    The budget continues the administration's robust border security 
efforts, while facilitating legitimate travel and trade. It sustains 
historic deployments of personnel along U.S. borders as well as the 
continued utilization of proven, effective surveillance technology 
along the highest-trafficked areas of the Southwest Border to continue 
achieving record levels of apprehensions and seizures. In support of 
the President's Executive Order on travel and tourism, the budget funds 
a record number of CBPOs through appropriated funds and proposed 
increases to user fee rates, to expedite travel and trade while 
reducing wait times at more than 300 POEs along the border and at 
airports and seaports across the country. Increased POE staffing of 
1,600 CBPOs funded through appropriations and 1,877 CBPOs funded 
through user fee increases will have a direct impact on the economy. On 
the basis of a study conducted by the National Center for Risk and 
Economic Analysis of Terrorism Events--University of Southern 
California, initial estimates indicate that for every 1,000 CBPOs 
added, the United States can anticipate a $2 billion increase in gross 
domestic product. That research indicates that these additional CBPOs 
may result in approximately 110,000 more jobs and a potential increase 
of $6.95 billion in gross domestic product.
    To secure the Nation's maritime borders and 3.4 million nautical 
square miles of maritime territory, the budget invests in 
recapitalization of USCG assets and provides operational funding for 
new assets coming on-line, including National Security Cutters (NSCs), 
Fast Response Cutters (FRCs), Response Boats-Medium, Maritime Patrol 
Aircraft, and Command and Control systems.
  <bullet> Law Enforcement Officers.--The budget supports 21,370 BPAs 
        and a record 25,252 CBPOs at POEs who work with Federal, State, 
        and local law enforcement to target illicit networks 
        trafficking in people, drugs, illegal weapons, and money and to 
        expedite legal travel and trade. This includes funds from 
        proposed increases to inspection user fees.
  <bullet> Travel and Trade.--In 2012, President Obama announced new 
        administrative initiatives through Executive Order 13597 to 
        increase travel and tourism throughout and to the United 
        States, and DHS plays an important role in this work. As 
        discussed in the highlights section, DHS is continuing to 
        develop new ways to increase the efficiency of our port 
        operations and to make international travel and trade easier, 
        more cost-effective, and more secure.
  <bullet> Technology.--Funding is requested to support the continued 
        deployment of proven, effective surveillance technology along 
        the highest-trafficked areas of the Southwest Border. Funds 
        will be used to procure and deploy commercially-available 
        technology tailored to the operational requirements of the 
        Border Patrol, the distinct terrain, and the population density 
        within Arizona.
  <bullet> Tethered Aerostat Radar System (TARS).--DHS will take over 
        operations of TARS beginning in fiscal year 2014. TARS is a 
        multi-mission capability that supports both the counterdrug and 
        air defense missions, providing long-range detection and 
        monitoring of low-level air, maritime, and surface narcotics 
        traffickers.
  <bullet> Targeting and Analysis.--The budget includes additional 
        investments in CBP's targeting capabilities, which will enable 
        CBP to develop and implement an enhanced strategy that more 
        effectively and efficiently divides cargo and travelers 
        according to the potential threat they pose.
  <bullet> POE Infrastructure.--CBP, working with its various partners 
        including GSA, continues to modernize and maintain border 
        infrastructure that both facilitates trade and travel, and 
        helps secure the border. In fiscal year 2014, CBP will work 
        with GSA to complete the last phase of the Nogales-Mariposa 
        inspection facility and initiate the site acquisition and 
        design for the south-bound phase of the San Ysidro 
        modernization project. Additionally, CBP will work with GSA to 
        initiate construction of a new bus processing terminal at the 
        Lincoln-Juarez Bridge and renovation of the passenger and 
        pedestrian processing facility at the Convent Street inspection 
        facility in Laredo, Texas. Beginning in late fiscal year 2013 
        and continuing in fiscal year 2014, CBP will assume 
        responsibility for the building operations, maintenance, and 
        repair of the land port inspection facilities from GSA to 
        streamline administrative processes and improve the 
        responsiveness to CBP mission requirements. Finally, CBP 
        proposes legislative authority in the fiscal year 2014 budget 
        to accept donations from the private sector.
  <bullet> CBP Air and Marine Procurement.--Funding is requested for 
        two KA-350CER Multi-Role Enforcement Aircraft (MEA), which 
        provide direct support to CBP efforts to secure our Nation's 
        borders. Unlike the older, less-capable aircraft they are 
        replacing, MEA has the capabilities to detect, track, and 
        intercept general aviation threats; detect and track maritime 
        threats over a wide area; and support ground interdiction 
        operations through a variety of sensors and advanced data and 
        video down-link.
  <bullet> Collect Customs Revenue.--Funds are requested to support 
        CBP's role as a revenue collector for the U.S. Treasury; 
        customs revenue remains the second-largest source of revenue 
        for the Federal Government. CBP relies on bonds to collect 
        duties owed when importers fail to pay and efforts to collect 
        from the importer are not successful. This funding will support 
        improvements to increase the efficacy of CBP's bonding process, 
        including the delegation to a centralized office the 
        responsibility for developing and implementing Single 
        Transaction Bond (STB) policy, approving bond applications, 
        reporting on activities, and monitoring results. These 
        resources will fund the automation of STB processing and 
        record-keeping and provide effective internal controls that 
        protect the duties and taxes (more than $38 billion in 2012) 
        collected by CBP. Specifically, CBP will automate and 
        centralize into one location processing of all STBs, resulting 
        in enhanced program oversight, consistent processing, and 
        reduced write-offs and delinquencies.
  <bullet> Protect Trade and Intellectual Property Rights 
        Enforcement.--Funding is requested to support intellectual 
        property and commercial trade fraud investigations within ICE's 
        National Intellectual Property Rights Coordination Center (IPR 
        Center). With 21 partners and the expertise of the Federal 
        Government's largest law enforcement agencies, the IPR Center 
        brings together the full range of legal authorities and law 
        enforcement tools to combat intellectual property theft, 
        including medical regulation; patent, trademark, and copyright 
        protection; border enforcement; organized crime investigations; 
        and undercover operations. ICE will also increase collaboration 
        with CBP through a joint fraud enforcement strategy to 
        coordinate commercial fraud enforcement operations. The fiscal 
        year 2014 budget also supports CBP's enforcement programs to 
        prevent trade in counterfeit and pirated goods, and to protect 
        consumers and National security from harm from counterfeit 
        goods through special enforcement operations to increase IPR 
        seizures and referrals for criminal investigation. In addition, 
        the fiscal year 2014 budget supports technology and training to 
        increase the efficiency of targeting IPR infringing 
        merchandise.
  <bullet> USCG Recapitalization.--The fiscal year 2014 request fully 
        funds a seventh NSC; supports patrol boat recapitalization 
        through the FRC acquisition; continues acquisitions of the 
        Offshore Patrol Cutter and a new polar ice breaker; and 
        provides for critical upgrades to command, control, and 
        aviation sustainment. The total request for USCG Acquisition, 
        Construction, and Improvements is $951 million.
  <bullet> USCG Operations.--The fiscal year 2014 request funds nearly 
        50,000 full-time personnel and nearly 7,000 reservists to 
        maintain safety, security, and stewardship of our Nation's 
        waters and maritime borders. Funds will support a full range of 
        Coast Guard cutters, aircraft, and boats to address threats 
        from inside the ports, within customs waters and out on the 
        high seas.
Enforcing and Administering our Immigration Laws
    In the area of immigration, the budget supports the 
administration's unprecedented efforts to more effectively focus the 
enforcement system on public safety threats, border security, and the 
integrity of the immigration system while streamlining and facilitating 
the legal immigration process. Initiatives such as Deferred Action for 
Childhood Arrivals and greater use of prosecutorial discretion, where 
appropriate, support DHS efforts to focus finite resources on 
individuals who pose a danger to National security or a risk to public 
safety, and other high-priority cases. At the same time, the budget 
significantly reduces inefficient 287(g) task force agreements, while 
supporting more cost-efficient initiatives like the Secure Communities 
program. Nation-wide implementation of Secure Communities and other 
enforcement initiatives, coupled with continued collaboration with DOJ 
to focus resources on the detained docket, is expected to result in the 
continued increase in the identification and removal of criminal aliens 
and other priority individuals.
    The budget provides the resources needed to address this changing 
population, while continuing to support Alternatives to Detention, 
detention reform, and immigrant integration efforts. Resources are also 
focused on monitoring and compliance, promoting adherence to worksite-
related laws, Form I-9 inspections, and enhancements to the E-Verify 
program.
  <bullet> Secure Communities.--In fiscal year 2013, the Department 
        completed Nation-wide deployment of the Secure Communities 
        program, which uses biometric information and services to 
        identify and remove criminal and other priority aliens found in 
        State prisons and local jails. Secure Communities is an 
        important tool in ICE's efforts to focus its immigration 
        enforcement resources on the highest-priority individuals who 
        pose a threat to public safety or National security, and the 
        budget continues support of this program. ICE is committed to 
        ensuring the Secure Communities program respects civil rights 
        and civil liberties, and works closely with law enforcement 
        agencies and stakeholders across the country to ensure the 
        program operates in the most effective manner possible. To this 
        end, ICE has issued guidance regarding the exercise of 
        prosecutorial discretion in appropriate cases, including in 
        cases involving witnesses and victims of crime; implemented 
        enhanced training for SLLE regarding civil rights issues; and 
        released new guidance that limits the use of detainers to the 
        agency's enforcement priorities and restricts the use of 
        detainers against individuals arrested for minor misdemeanor 
        offenses such as traffic offenses and other petty crimes, among 
        other recent improvements. The budget also includes $10 million 
        for 73 ICE attorney positions that will continue prosecutorial 
        discretion reviews of new cases to ensure that resources at the 
        Executive Office for Immigration Review and ICE are focused on 
        priority cases.
  <bullet> Immigration Detention.--Under this administration, ICE has 
        focused its immigration enforcement efforts on identifying and 
        removing priority aliens, including criminals, repeat 
        immigration law violators, and recent border entrants. As ICE 
        focuses on criminal and other priority cases, the agency 
        continues to work to reduce the time removable aliens spend in 
        detention custody, going from 37 days in fiscal year 2010 to 
        fewer than 32 days in fiscal year 2012. Consistent with its 
        stated enforcement priorities and guidance to the field, ICE 
        will continue to focus detention and removal resources on those 
        individuals who have criminal convictions or fall under other 
        priority categories. For low-risk individuals, ICE will work to 
        enhance the effectiveness of Alternatives to Detention, which 
        provides a lower per-day cost than detention. To ensure the 
        most cost-effective use of Federal resources, the budget 
        includes flexibility to transfer funding between immigration 
        detention and the Alternatives to Detention program, 
        commensurate with the level of risk a detainee presents.
  <bullet> 287(g) Program.--The budget reflects the cancelation of 
        inefficient task force officer model agreements, reducing the 
        cost of the 287(g) program by $44 million. The 287(g) jail 
        model agreements, as well as programs such as Secure 
        Communities, have proven to be more efficient and effective in 
        identifying and removing criminal and other priority aliens 
        than the task force officer model agreements.
  <bullet> Detention Reform.--ICE will continue building on on-going 
        detention reform efforts in fiscal year 2014. In fiscal year 
        2013, ICE implemented its new Risk Classification Assessment 
        Nation-wide to improve transparency and uniformity in detention 
        custody and classification decisions and to promote 
        identification of vulnerable populations. ICE will continue to 
        work with DOJ to reduce the average length of stay in detention 
        by working to secure orders of removal before the release of 
        criminal aliens from DOJ custody. In addition, ICE will 
        continue implementation of the new transfer directive, which is 
        designed to minimize long-distance transfers of detainees 
        within ICE's detention system, especially for those detainees 
        with family members in the area, local attorneys, or pending 
        immigration proceedings. ICE will also continue implementation 
        of revised National detention standards designed to maximize 
        access to counsel, visitation, and quality medical and mental 
        health care in additional facilities. Finally, DHS anticipates 
        that the rulemaking applying the Prison Rape Elimination Act to 
        DHS confinement facilities will be finalized in fiscal year 
        2013 and implemented in fiscal year 2013 and fiscal year 2014.
  <bullet> Worksite Enforcement.--Requested funds will continue the 
        Department's focus to promote compliance with worksite-related 
        laws through criminal prosecutions of egregious employers, Form 
        I-9 inspections, civil fines, and debarment, as well as 
        education and compliance tools.
  <bullet> E-Verify.--The budget provides $114 million to support the 
        continued expansion and enhancement of E-Verify, the 
        administration's electronic employment eligibility verification 
        system. This funding will also continue support for the 
        expansion of the E-Verify Self-Check program, a voluntary, 
        free, fast, and secure on-line service that allows individuals 
        in the United States to confirm the accuracy of Government 
        records related to their employment eligibility status before 
        formally seeking employment. These enhancements will give 
        individuals unprecedented control over how their social 
        security numbers are used in E-Verify and will further 
        strengthen DHS's ability to identify and prevent identity 
        fraud. In fiscal year 2014, U.S. Citizenship and Immigration 
        Services (USCIS) also plans to phase in an enhanced enrollment 
        process for E-Verify that reduces the enrollment burden on the 
        employer and the Federal Government, and that will provide 
        more-detailed user information for compliance assistance 
        activities. Additionally, USCIS will finalize the requirements 
        for the electronic I-9 and its supporting processes for E-
        Verify. These enhancements will deploy in phases in fiscal year 
        2014 and subsequent years.
  <bullet> Verification Information System (VIS).--The budget includes 
        $12 million to fund the VIS Modernization initiative, a major 
        redesign of the system that supports E-Verify that will 
        transform the current E-Verify system, and improve usability 
        and overall ease of operations.
  <bullet> Immigrant Integration.--The budget includes $10 million to 
        continue support for USCIS immigrant integration efforts--a key 
        element of the President's immigration principles--through 
        funding of citizenship and integration program activities 
        including competitive grants to local immigrant-serving 
        organizations to strengthen citizenship preparation programs 
        for permanent residents.
  <bullet> Systematic Alien Verification for Entitlements (SAVE).--The 
        fiscal year 2014 budget continues support for USCIS SAVE 
        operations and enhancements to assist local, State, and Federal 
        agencies in determining the immigration status of benefit 
        applicants. This effort is funded through the Immigration 
        Examinations Fee Account.
  <bullet> USCIS Business Transformation.--The budget continues the 
        multi-year effort to transform USCIS from a paper-based filing 
        system to a customer-focused electronic filing system. This 
        effort is funded through the Immigration Examinations Fee 
        Account. In fiscal year 2013, USCIS will deploy additional 
        functionality into the agency's Electronic Immigration System 
        (ELIS) to allow processing of 1 million customer requests 
        annually. USCIS is committed to adding functionality and 
        benefit types until all workload is processed through ELIS.
Safeguarding and Securing Cyberspace
    The budget supports initiatives to secure our Nation's information 
and financial systems and to defend against cyber threats to private-
sector and Federal systems, the Nation's critical nfrastructure, and 
the U.S. economy. It also supports the President's Executive Order on 
improving critical infrastructure cybersecurity and the Presidential 
Policy Directive on critical infrastructure security and resilience. 
Taken together, the administration's initiatives strengthen the 
security and resilience of critical infrastructure against evolving 
threats through an updated and overarching National framework that 
acknowledges the linkage between cybersecurity and securing physical 
assets.
    Included in the fiscal year 2014 budget are enhancements to the 
National Cybersecurity Protection System (NCPS) to prevent and detect 
intrusions on Government computer systems, and to the National 
Cybersecurity and Communications Integration Center to protect against 
and respond to cybersecurity threats. The budget also leverages a new 
operational partnership between ICE and USSS through the established 
network of USSS ECTFs to safeguard the Nation's financial payment 
systems, combat cybercrimes, target transnational child exploitation 
including large-scale producers and distributors of child pornography, 
and prevent attacks against U.S. critical infrastructure.
  <bullet> Federal Network Security.--$200 million is included for 
        Federal Network Security, which manages activities designed to 
        enable Federal agencies to secure their IT networks. The budget 
        provides funding to further reduce risk in the Federal cyber 
        domain by enabling continuous monitoring and diagnostics of 
        networks in support of mitigation activities designed to 
        strengthen the operational security posture of Federal civilian 
        networks. DHS will directly support Federal civilian 
        departments and agencies in developing capabilities to improve 
        their cybersecurity posture and to better thwart advanced, 
        persistent cyber threats that are emerging in a dynamic threat 
        environment.
  <bullet> NCPS.--$406 million is included for Network Security 
        Deployment, which manages NCPS, operationally known as 
        EINSTEIN. NCPS is an integrated intrusion detection, analytics, 
        information sharing, and intrusion-prevention system that 
        supports DHS responsibilities to defend Federal civilian 
        networks.
  <bullet> US-Computer Emergency Readiness Team (US-CERT).--$102 
        million is included for operations of US-CERT, which leads and 
        coordinates efforts to improve the Nation's cybersecurity 
        posture, promotes cyber information sharing, and manages cyber 
        risks to the Nation. US-CERT encompasses the activities that 
        provide immediate customer support and incident response, 
        including 24-hour support in the National Cybersecurity and 
        Communications Integration Center. As more Federal network 
        traffic is covered by NCPS, additional US-CERT analysts are 
        required to ensure cyber threats are detected and the Federal 
        response is effective.
  <bullet> SLTT Engagement.--In fiscal year 2014, DHS will expand its 
        support to the Multi-State Information Sharing and Analysis 
        Center (MS-ISAC) to assist in providing coverage for all 50 
        States and 6 U.S. territories in its managed security services 
        program. MS-ISAC is a central entity through which SLTT 
        governments can strengthen their security posture through 
        network defense services and receive early warnings of cyber 
        threats. In addition, the MS-ISAC shares cybersecurity incident 
        information, trends, and other analysis for security planning.
  <bullet> Cybersecurity R&D.--The fiscal year 2014 budget includes $70 
        million for S&T's R&D focused on strengthening the Nation's 
        cybersecurity capabilities.
  <bullet> Cyber Investigations.--The fiscal year 2014 budget continues 
        to support ICE and USSS efforts to provide computer forensics 
        support and training for investigations into domestic and 
        international criminal activities, including computer fraud, 
        network intrusions, financial crimes, access device fraud, bank 
        fraud, identity crimes and telecommunications fraud, benefits 
        fraud, arms and strategic technology, money laundering, 
        counterfeit pharmaceuticals, child pornography, and human 
        trafficking occurring on or through the internet. USSS ECTFs 
        will also continue to focus on the prevention of cyber attacks 
        against U.S. financial payment systems and critical 
        infrastructure.
Ensuring Resilience to Disasters
    The Department's efforts to build a ready and resilient Nation 
focuses on a whole-community approach to emergency management by 
engaging partners at all levels to build, sustain, and improve our 
capability to prepare for, protect against, respond to, recover from, 
and mitigate all hazards. In the event of a terrorist attack, natural 
disaster, or other large-scale emergency, DHS provides the coordinated, 
comprehensive Federal response while working with Federal, State, 
local, and private-sector partners to ensure a swift and effective 
recovery effort.
    To support the objectives of the National Preparedness Goal (NPG) 
and to leverage limited grant funding in the current fiscal 
environment, the administration is again proposing the NPGP to create a 
robust National response capacity based on cross-jurisdictional and 
readily deployable State and local assets, with appropriate adjustments 
to respond to stakeholder feedback received in 2012. While providing a 
structure that will give grantees more certainty about how funding will 
flow, the proposal continues to utilize a comprehensive process for 
assessing regional and National gaps, identifying and prioritizing 
deployable capabilities, and requiring grantees to regularly report 
progress in the acquisition and development of these capabilities.
    The budget also funds initiatives associated with the NPG; FEMA's 
continued development of catastrophic plans, which include regional 
plans for response to earthquakes and hurricanes and medical 
countermeasure dispensing; and training for 2 million emergency 
managers and first responders.
    State and Local Grants: The budget includes $2.1 billion for State 
and local grants, consistent with the amount appropriated by Congress 
in fiscal year 2012. This funding will sustain resources for fire and 
emergency management programs while consolidating all other grants into 
the new, streamlined NPGP. In fiscal year 2014, the NPGP will:
  <bullet> Focus on the development and sustainment of core National 
        emergency management and homeland security capabilities.
  <bullet> Utilize gap analyses to determine asset and resource 
        deficiencies and inform the development of new capabilities 
        through a competitive process.
  <bullet> Build a robust National response capacity based on cross-
        jurisdictional and readily deployable State and local assets.
    Using a competitive, risk-based model, the NPGP will use a 
comprehensive process for identifying and prioritizing deployable 
capabilities, limit periods of performance to put funding to work 
quickly, and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
  <bullet> Firefighter Assistance Grants.--The budget provides $670 
        million for Firefighter Assistance Grants. Included in the 
        amount is $335 million for Staffing for Adequate Fire and 
        Emergency Response (SAFER) Grants to retain and hire 
        firefighters and first responders, and $335 million for 
        Assistance to Firefighter Grants, of which $20 million is 
        provided for Fire Prevention and Safety Grants. The 
        administration re-proposes $1 billion for SAFER grants as part 
        of the First Responder Stabilization Fund, which was originally 
        proposed in the American Jobs Act.
  <bullet> Emergency Management Performance Grants (EMPGs).--Also 
        included in the budget is $350 million to support emergency 
        managers and emergency management offices in every State across 
        the country. EMPG supports State and local governments in 
        developing and sustaining the core capabilities identified in 
        the NPG and achieving measurable results in key functional 
        areas of emergency management.
  <bullet> DRF.--A total of $6.2 billion is provided for the DRF. Of 
        this, $586 million is included in the Department's base budget 
        with the remainder provided through the Budget Control Act 
        budget cap adjustment. The DRF provides a significant portion 
        of the total Federal response to victims in Presidentially-
        declared disasters or emergencies. Because of recently-passed 
        legislation, Native American tribes can now request 
        Presidential major or emergency declarations. Two tribes, the 
        Eastern Band of Cherokee Indians and the Navajo Nation, have 
        already received declarations in 2013.
  <bullet> National Flood Insurance Program (NFIP).--The NFIP is fully 
        funded by policy fees. This program helps to reduce the risk of 
        flood damage to existing buildings and infrastructure by 
        providing flood-related grants to States, communities, and 
        Tribal nations. The fiscal year 2014 budget reflects 
        implementation of the Biggert-Waters Flood Insurance Reform Act 
        of 2012. The Act improves fiscal soundness by phasing out 
        subsidies for structures built before their flood risk was 
        identified on a Flood Insurance Rate Map. In addition, the Act 
        establishes a reserve fund to be used for the payment of claims 
        and claims-handling expenses as well as principal and interest 
        payments on any outstanding Treasury loans. The budget includes 
        a $3.5 billion mandatory budget authority, of which $100 
        million will be used for three interrelated mitigation grant 
        programs to increase America's resiliency to floods.
  <bullet> Training/Exercises.--The budget includes $165 million for 
        training and exercise activities to support Federal, State, and 
        local officials and first responders. In fiscal year 2014, the 
        Department expects to train more than 2 million first 
        responders and, under the revised National Exercise Program, 
        will conduct more than a dozen exercises across the country to 
        help improve National preparedness. The budget also supports 
        conducting a Spill of National Significance exercise, and 
        continues development of equipment and techniques that can be 
        used to detect, track, and recover oil in ice-filled waters.
  <bullet> Emergency Management Oversight.--The budget includes $24 
        million in base resources for the Office of the Inspector 
        General to continue its Emergency Management Oversight 
        operations.
  <bullet> Incident Management.--The budget enables the Coast Guard to 
        achieve Full Operational Capability for the Incident Management 
        Assist Team, providing an immediate, highly proficient, and 
        deployable surge capacity to Incident Commanders Nation-wide 
        for response to threats and other disasters.
Maturing and Strengthening the Department and the Homeland Security 
        Enterprise
  <bullet> St. Elizabeths Campus.--The budget includes $92.7 million to 
        support construction at the St. Elizabeths Campus. Currently, 
        the Department's facilities are scattered in more than 50 
        locations throughout the National Capital Region, affecting 
        critical communication and coordination across DHS components. 
        USCG will move to St. Elizabeths in fiscal year 2013. To 
        support the incident management and command-and-control 
        requirements of our mission, the Department will continue 
        development of the DHS Consolidated Headquarters at St. 
        Elizabeths Campus. The requested funding will support Phase 2 
        renovation of the Center Building Complex for the Secretary's 
        Office and key headquarters functions for command, control, and 
        management of the Department.
  <bullet> Data Center Consolidation.--The fiscal year 2014 budget 
        includes $54.2 million for data center consolidation funding, 
        which will be used to migrate FEMA, USCIS, TSA, and CBP to the 
        enterprise data centers. A recent study performed by the 
        Department's Office of the Chief Financial Officer analyzed 10 
        of the first completed migrations to enterprise data centers 
        and determined that an average savings of 14 percent, about 
        $17.4 million in annual savings, had been achieved.
                               conclusion
    The fiscal year 2014 budget proposal reflects this administration's 
strong commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, we will continue to preserve core front-line 
priorities across the Department by cutting costs, sharing resources 
across components, and streamlining operations wherever possible.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
Department's fiscal year 2014 budget request and other homeland 
security issues.

    Chairman McCaul. Thank you, ma'am. Secretary, I now 
recognize myself for 5 minutes.
    Let me first say, I want to thank you for your attention to 
the tragic events in West, Texas. I look forward to working 
with you on the response efforts there.
    Before I ask a couple of budget questions, I do want to ask 
you about some reports that have come out, as of just really 
late last night, that the FBI has photos of two possible 
suspects in the Boston bombings. I thought--if you could tell 
us about this development, as to what you may know about these 
photographs.
    Secretary Napolitano. Well, the--we have been collecting 
video from a variety of sources. As you might imagine, at the 
finish line at the Boston marathon, there is lots and lots of 
video. There is some video that has raised the question of 
those that the FBI would like to speak with. I wouldn't 
characterize them as ``suspects'' under the technical term, but 
we need the public's help in locating these individuals.
    Chairman McCaul. There are also--there were also reports 
yesterday that the FBI actually had persons of interests or 
suspects in custody. My response, based upon the information I 
have from the Justice Department, is that that was not accurate 
information. Can you elaborate on that?
    Secretary Napolitano. Yes, Mr. Chairman, you were accurate. 
There were no arrests made yesterday or persons held in 
custody. There has been a fair amount of media churn on various 
things involving the investigation. All I will say is, having 
spoken repeatedly with the FBI director, having spoken with the 
police commissioner in Boston, there is very good lash-up 
between local, State, and Federal resources up there.
    The investigation is proceeding the pace, and it just--you 
know, this is not an ``NCIS'' episode. Sometimes you have to 
take time to properly, you know, put the chain together to 
identify the perpetrators. But everyone is committed to seeing 
that that gets done in the right way.
    Chairman McCaul. No, I think, any--these united Federal 
prosecutors know it is a complex investigation. I think, the 
video footage and the forensics on the bomb device are probably 
some of the best evidence we can--we have right now.
    Moving on to the budget, the--this pressure cooker IED has 
really gained a lot of attention. For the first time Americans, 
sort of, know what that is. We have known about it for quite 
some time. Inspire magazine, essentially, instructs you how to 
make a bomb--in fact, an article, ``How to Make a Bomb in the 
Kitchen of Your Mom.''
    Can you tell me what the Department is doing in its budget 
and--to prevent this occurrence from happening in the future?
    Secretary Napolitano. It is difficult, Mr. Chairman. 
Instructions on how to make simple IEDs or even more complex 
ones are commonly available through Inspire, through things 
like the ``Anarchist's Cookbook,'' on the internet, generally.
    So, we run into the issue of speech, writings, versus 
actual activities. One of the things we have been doing is, 
through the Office of Bombing Prevention, we have been, we 
actually now have a joint program office with DOD in terms of 
combining our efforts to improve the capability to detect 
something before there is an explosion. Although that is very 
difficult.
    We also through the Directorate on Science and Technology 
are doing some, I think, very interesting research that down 
the road may result in some positive developments. But right 
now as your question I think, presupposes, there is commonly 
available recipes for making various kinds of IEDs including 
those made with pressure cookers.
    Chairman McCaul. Let me just, I have said from the 
beginning, we do not, we can't reach to conclusions. At this 
point in time we do not know whether this was a Federal, I mean 
a foreign terrorist plot or a domestic terrorist plot.
    Secretary Napolitano. Right now we cannot say one way or 
the other.
    Chairman McCaul. You mentioned the Bomb Prevention fund and 
that is important because the Office of Bombing Prevention 
leads the Department's efforts to implement the National policy 
for countering IED devices responsible for the Tripwire IED 
Information Sharing Network for bombing squads, law 
enforcement, and the like.
    My concern about the budget that in your budget you have 
decreased it by 8 percent and overall, over time it seems like 
every year it has gone down and had a decrease. In light of the 
Boston bombings, would you reconsider this budget request?
    Secretary Napolitano. You know, we are obviously able to do 
that. I think two points, No. 1 is, if you look at the budget, 
one of the things we have done is convert much of the, some of 
the in-person training to on-line training. That saves a lot of 
cost. As I also mentioned we have begun participation in a 
joint program office with DOD, State, I think Justice, and that 
helps mitigate costs as well. Then some of the Bombing 
Prevention work, you will also find embodied in the research 
being done in the Science and Technology Directorate.
    Chairman McCaul. My question is, it has decreased over the 
years, some say 45 percent, 8 percent in this budget. I mean in 
light of the bombings, wouldn't you reconsider that request?
    Secretary Napolitano. We will take a look and make sure 
that it is properly resourced, yes sir.
    Chairman McCaul. My understanding is you did request, did 
OMB deny your request for additional funding on this?
    Secretary Napolitano. There is a lot of exchange between 
the Department and OMB, but I will go back and look at this, 
yes sir.
    Chairman McCaul. Okay. Last question, my time is limited. 
You know, look, when we talk about the border, that is really 
the last line of defense, defending the homeland is keeping the 
threat out of this country. I have been a big proponent of 
border security for a long time. The missing piece is the 
technology piece. We don't have the technology we need down 
there, as you know.
    We are getting ready to unveil a lot of good technology. 
Yet I was disappointed to see that your budget does decrease 
funding for border technology. If you would answer that 
question and I will ask an additional one. Thank you.
    Secretary Napolitano. You are right. Technology is the 
force multiplier for our manpower. The budget looks, we are on 
track to implement our technology procurement. As you know, 
what I did last year, a year-and-a-half ago was stop the 
investment in having one integrated fixed tower plan across the 
entire border because it was too expensive and it wasn't 
working. It works in some areas like Arizona. We will finish it 
there.
    But for the other sectors of the border, we want to use 
more off-the-shelf technology that fits the particular terrain.
    Chairman McCaul. Let me just say, I agree, leveraging 
existing technologies is important, off-the-shelf.
    Secretary Napolitano. That is right.
    Chairman McCaul. But I will say, if we are going to talk 
about Comprehensive Immigration Reform, we have to, No. 1, get 
operational control of the border and we are not going to be 
able to do that if we don't have the technology. So the 
decrease in your budget on this issue, I think is important.
    The last point is I went over to Afghanistan with Henry 
Cuellar. We talked to General Allen about the technologies they 
have. Bringing that technology back to the Southwest Border. 
Now he is very much in agreement with it. There are 18 
aerostats, excess, surplus, military property, they are willing 
to share with your Department to put down on the Southwest 
Border. Where are with this, this development?
    Secretary Napolitano. Well the budget does include $43 
million for the TARS Program which is from DOD. I will tell you 
frankly Mr. Chairman, some of those aerostats are not in the 
best of shape. The O&M for them is pretty significant. They 
don't, it is not a perfect solution. But the point is an 
important one, which is to say, to the extent we have already 
invested in R&D on the Defense side that we can transfer over 
to the border, that is what I mean when I say, that is the kind 
of off-the-shelf thing that we are investing in.
    Chairman McCaul. I hope you are looking towards a lot of 
military technologies that can be redeployed to the Southwest 
Border. We have already paid for them and we have already put 
the R&D into them. In these tough budgetary times, to me, it 
just makes a lot of sense. So with that, I will now recognize 
the Ranking Member for his questions.
    Mr. Thompson. Thank you Mr. Chairman. Madam Secretary in 
light of what we are dealing with in Boston and with respect to 
the resources that we are putting there, do you feel that this 
proposed budget will be adequate to address that situation and 
any on-going probability for the next fiscal year?
    Secretary Napolitano. I think the President's proposed 
budget meets the core mission responsibilities of the 
Department, yes sir.
    Mr. Thompson. So you can do your job with the money?
    Secretary Napolitano. Yes.
    Mr. Thompson. Thank you. There have been issues about 
morale in the Department, I made reference to in my opening 
statement. How do you plan to address the reports that have 
come out about that we are last in effective leadership, 
teamwork, training and development, and support for diversity?
    Secretary Napolitano. We have done a number of things in 
that regard Representative Thompson, including forming an 
Executive Steering Committee just on morale. We have actually 
gone back and re-questioned some of our employees, because the 
Morale Survey is pretty generic, so we want to get down below 
it.
    So one of the things we found out for example is, in the 
Department, many people have been promoted to be a first-line 
supervisor, because they were good at their operational front-
line job, but they hadn't necessarily received any training on 
how to be a supervisor. Well that makes a big difference. It is 
a different skill set, or an additional skill set. So now we 
are providing that kind of training.
    We have instituted ways to get more employee input into the 
decisions of the Department. I will share with you frankly, 
budget uncertainly, pay uncertainly, furlough uncertainty, 
sequester, has been a difficult field in which to make people 
feel better about their jobs. But we are going to do all that 
we can. Our employees really are the engine of the Department.
    Mr. Thompson. Well, but you can still do your job?
    Secretary Napolitano. Have to do the job.
    Mr. Thompson. Absolutely. One of the challenges that we 
identified a number of years ago, spoke with interoperability. 
We require State and locals to be able to communicate with each 
other. The Inspector General said that we don't have 
interoperability within DHS. We spent several hundred million 
dollars trying to do that. What is your proposal to get 
interoperability in fact within DHS?
    Secretary Napolitano. If I might, not referencing that 
particular I.G. report, but we have enough interoperability to 
get the job done. Overall with respect, I have dealt with 
interoperability issues for years. Throughout the country, 
hundreds of millions of dollars have been spent on 
interoperable systems.
    The best thing that has happened, quite frankly, is when 
Congress set aside a public safety spectrum, a broadband 
spectrum. And established the First Net Board. And set aside a 
fund source for that. That Board has private and public-sector, 
Federal, State, and local representatives. They are coming up, 
in my judgment with what ultimately will be a comprehensive 
answer that will be more comprehensive and cheaper than 
anything that has ever been looked at before.
    They are on a very tight time line so I would suggest that 
we keep you informed on the progress of the First Net Board. 
But I must say it is one of the most encouraging things I have 
seen in Government in a long time.
    Mr. Thompson. So are you at issue with the Inspector 
General's----
    Secretary Napolitano. I don't know which report you are 
referring to?
    Mr. Thompson. The one that came out the----
    Secretary Napolitano. There are so many. I will be happy to 
follow up on that with you.
    Mr. Thompson. Well it spoke to emergency communications. It 
is the last I.G. report, came out the fall of last year, that 
said we had spent $430 million on interoperability and within 
the Department, we still can't cross-communicate with each 
other. I mean I, if this First Net is your response to it, I 
just need to know some time table as to when we can expect, as 
Members of Congress, for that to happen.
    Secretary Napolitano. We will be happy to brief you on 
that. But it is a very aggressive time table.
    Mr. Thompson. Well if you would provide it to the committee 
in writing, I think that would be most helpful. With respect to 
what happened in West, Texas, can you tell us whether or not 
that fertilizer facility or chemical plant facility was 
regulated by CFAC?
    Secretary Napolitano. We don't know yet. We don't know 
whether the quantities of material there fell within the TSCA 
rule or not, but we are drilling down on that.
    Mr. Thompson. You don't have a list of, I mean that should 
be kind of easy, I would think.
    Secretary Napolitano. Sir we have been engaged over the 
past hours in making sure that the response is all that it can 
be in dealing with the immediate aftermath of the fire and 
explosion. I would be happy to----
    Mr. Thompson. Madam Secretary, I understand that. All I am 
saying is either it was presently under CFACS or it wasn't. 
That is just a matter of looking on the record. Now, if you can 
get--ask somebody here, look and see whether it is covered, or 
not. That is all I am asking. I am not asking for any details.
    Secretary Napolitano. You should know that early this 
morning, I asked the very same question. I just don't have the 
answer for you yet.
    Mr. Thompson. That is what I am looking for.
    Thank you.
    Chairman McCaul. The Chairman now recognizes the former 
chairman of the full committee, Mr. King from New York.
    Mr. King. Thank you, Mr. Chairman. Thank you, Ms. Secretary 
for your service and for the work that all the components of 
your Department are doing in Boston, and will be doing in 
Texas.
    I have three questions. I will ask them up front, and then 
just let you answer them as you do.
    They all basically come from Boston.
    The question of jamming technology--I think the use of IEDs 
in Boston demonstrates that this could be the weapon of choice 
for terrorists, whether foreign or domestic in the future.
    I know last year, we had two subcommittees--I believe 
Chairman McCaul's subcommittee was one of them--which held 
hearings into the use of jammers. That is to stop these IEDs, 
at least by remote control.
    Now, whether these turn out to be remote control or not, if 
you could tell us to the extent you can in a public setting 
what progress we have made as far as jamming, and what 
cooperation there can be between the military and civilian. 
First question.
    The second question is on ``see something, say something.'' 
I agree with you. I think it serves a real purpose. That began 
in New York with the Metropolitan Transportation Authority.
    Secretary Napolitano. It did.
    Mr. King. The only real criticism I have heard--and it is 
really a question--is that different localities and States--
some of them use complex e-mail addresses and phone numbers--is 
there any way that the Federal Government can urge them to use 
like a basic 9-1-1, or something which makes it easier so that 
in times of crisis, it can be used?
    Then second--third, I think it is a general consensus that 
there was no Federal intelligence--at least as of now, there 
was no chatter. There was no intelligence out there indicating 
that something was going to happen. It would seem to me that as 
we are getting a much better hold on al-Qaeda from overseas, or 
terrorist groups foreign and domestic are getting more 
sophisticated, that really the Federal role in intelligence, as 
important as it is, we also need an important local role.
    Do you believe there is enough funding in the budget, for 
instance, for something like the Boston Police Department, or 
other police departments, to start building up more local 
intelligence, as far as it involves terrorism? Because what we 
use prior--using chatter, using Federal intel may not be 
sufficient in the future.
    With that, I look forward to your questions.
    Secretary Napolitano. On the jamming question, there is a--
one of the key differences between military use of jamming 
equipment and using it in a domestic-civilian environment is, 
it is difficult to jam only bad stuff. So you end up 
interfering with signals more generally in a civilian 
environment.
    So, there were two early pilots, I think, in--I want to say 
2006 and 2007 in the Department to look at whether that anti-
jamming technology used in theater could be used in a civilian 
way. They were not successful. But I don't know whether there 
is any current or new research being done in that regard.
    On ``see something, say something''----
    Mr. King. If you could get back to us--if there is any 
progress or chance for progress--because I can understand the 
problems you are talking about, but also, it would go a great 
way towards, you know, minimizing the issue--the problem.
    Secretary Napolitano. Exactly, exactly. Again, as you say, 
we don't know whether or not a jam--this was remotely 
detonated.
    With respect to see-say, we encourage State and locals who 
are part of the program, and religious organizations and others 
to tie into a simple line.
    The majority use either 9-1-1 or whatever the tip line is 
for that particular department. But I think your point is well 
taken, because we want it to be as simple and memorable as we 
can. Excuse me, the third question was--oh, the intel.
    Mr. King. That was on the intel, yeah.
    Secretary Napolitano. The intel.
    Mr. King. More use of local intel.
    Secretary Napolitano. Yes. I think--that is an interesting 
question. In part, because we don't know whether this was 
domestic or international, particularly where domestic is 
concerned, I think there is a particularly valuable role for 
intelligence that is collected and analyzed at the local level.
    So irrespective of Boston, this is something that we have 
been, and want to look at. We are using the fusion centers, and 
hope to build a capacity there in this regard. The Boston 
fusion center turns out to be one of the strongest ones in the 
country. We have been using them the last couple of days as a 
way to exchange information. But your point is well-taken.
    Mr. King. Also, my own parochial bias in that in view of 
the fact the NYPD has 1,000 cops going out seeking 
intelligence, despite the fact they had--unfairly attacked by 
The New York Times and The Associated Press.
    With that, I yield back.
    [Laughter.]
    Chairman McCaul. Nicely done.
    The Chairman recognizes the gentlelady from California, Ms. 
Sanchez.
    Ms. Sanchez. What a way to use your last second.
    Good morning, Madam Secretary.
    I have several things to ask you about.
    First of all, I want to thank you for having reconstructed 
SBInet and redone it. I just want to say that because I think 
it is going to be important for your Department to educate 
Congress on what really can be done with respect to technology, 
especially as we move forward on this border security piece of 
a possible immigration plan.
    I think those of us who live that, fight, understand, but 
the rest of the Congress, in some ways, doesn't have a good 
idea of what can and cannot be done with technology.
    I would hope that you would help us with that.
    Secretary Napolitano. Indeed.
    Ms. Sanchez. And interoperability, I would like to see at 
the Federal level. I would like to see it all over the place.
    As you know, Orange County is one of the few--probably the 
largest regional area that has interoperability between 34 
cities--State, Federal, regional, et cetera--and it cost us 
quite a bit of money: $800 million about 15 years ago. So the 
price tag is very heavy on that, and I know that that has been 
one of the problems with respect to trying to get that 
underway. But we need to get it, I think, especially if we are 
going to be asking States to do it for the Federal Government.
    So, I have a question about Coast Guard, because I am one 
of the few Members, I think, that sits both on the Armed 
Services Committee and on the--on this committee.
    So, when you testified in front of the House Appropriations 
Committee, you say that the Coast Guard now has a different 
production path for vessel acquisition in order to meet the 
mission needs. On Tuesday, Coast Guard Commandant Papp 
testified that this budget request reduces Coast Guard's drug 
interdiction because it cannot maintain operations while 
rebuilding its fleet.
    So, my question to you is: What is the different production 
path you referenced in your previous testimony? Is this a 
different plan--has this different plan been submitted to the 
Congress? Is Coast Guard going to reduce mission capabilities 
in order to modernize its fleet? If so, can you provide the 
committee on documentation of that? Because this seems to me a 
different path, and it is sort of like, ``Well, we are going to 
not do as much because we need to rebuild over here.''
    Secretary Napolitano. The point I was making in Approps 
was--in the Appropriations Committee was that we use a 
different production path to the fast response cutter.
    We fully fund the commandant's top priority, which is the 
completion of the National security cutter fleet. The National 
security cutters have a lot of uses, but they can also--they 
don't require as many billets to operate as some of the smaller 
vessels because they have more technology on them.
    With respect to drug interdiction operations, I will tell 
you, we are already effective. We have had to reduce--and I was 
very public about this--those operations because of sequester, 
to meet the number that we were given.
    As you know, sequester was account-by-account, so we didn't 
have any flexibility to move around that.
    How do we compensate for that? We are working with DOD in 
areas like JATO-South. We are trying to leverage more with 
State and local entities. But make no mistake, if sequester 
continues, by definition, there will be effect on drug 
interdiction capability of the Coast Guard.
    Ms. Sanchez. So, Madam Secretary, if you could--if your 
Department could provide us a plan of this vessel that--new 
vessel plan, if it is different than what we have seen before, 
I would appreciate it. Or maybe we just haven't seen it in the 
last year or 2.
    The other question I had for you--first of all, US-VISIT, 
the exit part. I mean, that is another thing that we see on the 
tenant side coming forward. I know the last time that you were 
before us--maybe a year or 2 ago--and I have been asking all 
along--I know that you all didn't have a plan to implement it.
    So I would just say, you know, it is coming up. It is going 
to be something that is going to require it if we do get an 
immigration plan. So I hope that you all will begin, if you 
haven't, to figure out how we are going to get that exit piece 
of US-VISIT in there.
    Secretary Napolitano. If I might, representative--one of 
the things we are re-requesting this year is to move US-VISIT 
to CBP, which is where we have all of our other databases and 
targeting capabilities. It is--it would be a much better place 
to central all of the--centralize all of those in one place, as 
opposed to keeping US-VISIT by itself over at MPPD. So I would 
ask you to look at that request.
    Second, with respect to exit, we have submitted a plan on 
enhanced biographic and long-term biometric.
    My understanding--and I am--we are still going through the 
bill that has been introduced in the Senate. My understanding 
is, the way the exit part of that is written is ultimately 
doable.
    Ms. Sanchez. That would be great, because, again, that bill 
will change quite a bit, I think, as we move back and forth 
between the House and--you know, I have been one that has said, 
``We need to find those people who are not leaving when they 
are supposed to because they have overstayed their visa,'' and 
that is a major problem. That is 40 percent of the people who 
don't leave our country. That is something I am going to be 
looking for when I go to vote for an immigration bill.
    Thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul. I am in total agreement with that. I think 
40 percent of the illegals here are here by overstays on visas. 
So, with that, the Chairman now recognizes the gentleman from 
Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here and for your service to our country.
    I was very pleased to hear you acknowledge with Ranking 
Member Thompson that we are spending an enormous amount of 
money on emergency communications, and still haven't achieved 
an acceptable degree of interoperability, and that we have to 
find a different approach.
    As a former member of the Emergency Communications 
Subcommittee, that is just an enormous frustration to me, so I 
do hope that you do plow ahead in a different direction and try 
to make that happen. Because events like this week are 
reminders why we have got to achieve it.
    Mr. Rogers. But also, events like this week, I think, are a 
great reminder of why we have made such an important investment 
in preparing first responders. I had the privilege of having 
you visit the Center For Domestic Preparedness, as well as 
former Chairman King, who has been there, and seen that 
facility, which trains the first responders from all over the 
world, who have been there for the folks in Boston this week, 
and as well in Texas today. Also the hospital personnel. As you 
saw, that facility there to train for mass casualties. They are 
state-of-the-art, and that has been a wise investment by the 
Department, and I appreciate it.
    Weeks like this are sad, but it is a good reminder to us 
why we make those investments. So, those are appreciated. One 
of the concerns I have got is that DHS is--and their science 
and technology department over the last several years has made 
a significant investment in advanced explosive detection K-9 
research out in Texas at Lackland Air Force Base. That program 
was shuttered at the end of last year by Administrator Pistole. 
Very disappointed about that because, as you know--I know you 
are a big supporter of the explosive detection K-9 activities, 
and its ability to protect us in--not only in the airports, but 
in events like Boston if we had had them there, sweeping that 
area.
    By closing the only breeding and genetic research facility, 
which was doing some cutting-edge work, we are now at the mercy 
of the private market. Can you tell me why that was closed? 
Given that it was closed, do you intend to at least contract 
with some folks to do that kind of research and breeding, so 
that we can produce our own assets here domestically, and not 
be subject to world markets for those core assets that we 
didn't train up?
    Secretary Napolitano. If I might, Congressman. As you know, 
you and I are both big fans of K-9s and their capabilities. 
Recognizing that they are not the only answer in these 
situations.
    Mr. Rogers. Right. Just one of the layers.
    Secretary Napolitano. My understanding is we do intend to 
follow up on that research in another way, but if I might give 
you some separate information about that, I think it would be 
more useful to you.
    Mr. Rogers. I would appreciate that. I think that research 
is pretty important. Because as I have seen in the last several 
years that I have been really focused on this, we have come a 
long way in what their capability is. But also talking about 
that--partnerships outside of the Department, one of my 
frustrations as Chairman of the Transportation Security 
Subcommittee was, I don't see enough interaction with the 
private sector and the Department.
    Like Ms. Sanchez, I am a member of the Homeland Security 
Committee, and the Armed Services Committee, and we see a lot 
public-private partnerships between DOD and the private sector 
to achieve technological capabilities that we just couldn't do 
without them. There seems to be a reluctance in the Department 
to have that kind of interaction. Can you tell me what, if 
anything, you are doing on the procurement side, on the 
acquisition side to reach out to the private sector? To bring 
them in as a partner, to help us achieve some capabilities that 
we don't know have?
    Secretary Napolitano. Oh, I think we have very aggressive 
outreach. One difference between DHS and DOD is their research 
budget is infinitely larger than ours, and so as a result, 
their public-private partnerships are more numerous than ours. 
Plus there are more long-standing relationships because they 
have been in existence so long. But, I believe very firmly in 
partnerships outside the Department, in the R&D world, private 
sector, academia, Centers of Excellence, other places. So we 
will push as much as we have resources.
    Mr. Rogers. Well, you know while I was chairing that 
committee, and I know that Mr. Hudson who now chairs it, is 
following up. We have been bringing in private-sector folks to 
talk with Department folks about what we can do to improve 
communications. That has been difficult in the past. These 
folks have come to us as members regularly and say: We can't 
talk to anybody in the Department. Not just TSA, but in other 
segments of the full Department. So, anything you could do to 
try to drill down to your management folks that they need to 
try to create some real open access to the private sector to 
communicate with them, I think it would be beneficial to both 
parties. And thanks----
    Secretary Napolitano. I will drill down on that. I am sorry 
to hear that.
    Mr. Rogers. Yes. I yield back. Thank you, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chairman now recognizes the gentleman from Arizona, Mr. 
Barber.
    Mr. Barber. Thank you Mr. Chairman. Madam Secretary, it is 
great to see you here today. You know, oftentimes when you come 
to this committee, and when your staff come, we rain criticism 
on the Department. I would like to start in a different 
fashion, and talk about what I believe is the most challenging 
and unenviable one in the Cabinet, the one that you hold. 
Trying to integrate 22 different agencies who are not always 
rowing the boat in the same direction. Merging contact 
management, IT, financial accountability into a single process, 
moving quickly and effectively to respond to natural disasters, 
guarding our country against terrorist attacks, which has been 
very successful, until of course, the tragedy in Boston.
    We still don't know the cause, but over the last 5 years, 
we have had a lot of prevention in that area. So, I want to 
just acknowledge the progress that has been made before I ask 
some questions about the challenges that are remaining for the 
Department. Of course, highest on the list, at least for many 
of us, is the impact of sequestration on the Department. As you 
know from previous conversations, sequestration and its initial 
look is going to hit very hard on Border Patrol Agents, and the 
men and women who are at the ports of entry.
    Initially it was suggested, or proposed, that 40 percent of 
the Border Patrol Agent's salaries would be cut, due to the 
loss of overtime, and furloughs. I appreciate the Department's 
willingness to delay that. As you know, under the CR, we gave 
additional money back to the Department, some flexibility. I 
know in conversations with you, that you are currently working 
on some reprogramming requests. I guess I would just like to 
know, what progress is being made? Additionally, how your 
communicating with the men and women who are affected, or 
likely to be affected, and their families?
    There is a great deal of uncertainty. As you pointed out in 
your remarks, this is adding to the morale problems. So, if you 
could just speak to us about progress that is being made 
towards reducing. I know you can't eliminate these cuts, but 
reducing them significantly so that we can both secure the 
border, expedite the flow of legal commercial traffic, and give 
some certainty back to the lives of these people who we ask 
every day to protect our homeland?
    Secretary Napolitano. Indeed. Congressman as you also know, 
the pay systems for Customs are different than the pay systems 
for Border Patrol, and they have never been unified. That makes 
a difference where sequestration is concerned, unfortunately. 
Here is what we are doing: We have already gone through the 
sequestration legislation. The budget that was finally 
appropriated with the add-on for CBP, we have identified some 
reprogramming requests that we would like to add to that.
    We hope to get those complete and into OMB by the end of 
the week, and move that process along as quickly as we can. Our 
goal is to absolutely minimize the effect on AUO premium pay 
for Border Patrol, and furlough days generally throughout CBP. 
We have been communicating regularly by e-mail and other 
messages about what our goal is, asking--and it is a difficult 
ask, asking for patience to try to figure out ultimately how 
much we can pay our men and women. But our--like I said, our 
goal is to minimize the disruption in their compensation.
    Mr. Barber. What might we, and they expect to be the 
earliest possible time when some certainty would be given to 
the situation?
    Secretary Napolitano. Boy, I wish I could give you a 
definite date. I do not know, except that--I was just at the 
border. I mean I was just in south Texas, and I was down in, as 
you know, the Douglas area, and I know the effect this 
uncertainty is having on our men and women. So we are moving as 
quickly as we can.
    Mr. Barber. Well in the remaining time, I just want to move 
quickly to the--an issue we have often discussed here, and you 
and I have discussed as well, and that is how it is that we 
measure border security? It is a key element in moving 
immigration reform forward. At a hearing Chairman Miller, some 
of us said DHS needs to get in the game of giving us solid 
metrics that we can really have a common understanding of what 
border security improvements mean. The GAO study, as you know, 
was critical of the lack of metrics in the latest roll-out 
plan. Can you tell us what progress is being made towards 
getting those metrics?
    Second, how you are going to gather information from 
agents, from ranchers, business people, others who are living 
and working daily on the border, who know so much about what 
the border is really like?
    Secretary Napolitano. Well, on the metrics question is 
frustrating for everybody. Because in our view, we have 
provided metrics up the wazoo.
    [Laughter.]
    Secretary Napolitano. I don't know how to spell that. But--
and the GAO study uses our metrics. They just calculate--then 
they use them in a different way than we use them. The goal, 
however, is to see: Well, is this a safer and more secure 
border than it was last year, the year before and so forth? 
What is the trend? If you look at things like apprehensions, 
and crime rates, and contraband seizures, and gun seizures, and 
things like property values in communities along the border, 
the trend line is all positive. We know we are making 
significant progress and have made significant progress along 
the border.
    We know we are not done. We know there is more work to do. 
We want to sustain and build on that. So, we will work with the 
Congress and what have you. But as I mentioned yesterday in a 
hearing, there is no one magic number. You really have to look 
at the whole picture, and then inform it with real-life 
experience. So, it does require, you know getting down to the 
border, talking not only with agents, but with police chiefs 
and sheriffs and mayors of the little towns that line our 
border, and so forth. That is what we attempt to do as well.
    Mr. Barber. Thank you. I yield back.
    Chairman McCaul. Yes. I mean--let me thank Mr. Barber, the 
gentleman from Arizona, for his support on the Border Security 
Results Act, co-sponsoring that bill. That will be the bill 
coming out of this committee. I think it is important that we 
have metrics. There are some who assert it is never been more 
secure, I know as you have Madam Secretary. But I would argue 
that in my home State, that the numbers are increasing in terms 
of apprehensions. Particularly the Brownsville sector, 50 
percent.
    So, with that, the Chairman now recognizes the Vice Chair 
of the full committee, Ms. Candice Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    Secretary, thank you so very much for your attendance here 
today. I have been listening carefully and I think I will--as 
the Chairwoman of the Subcommittee on Border and Maritime 
Security, I will pick up right where Mr. Barber left off, and 
Chairman McCaul added some comments as well. I am very 
appreciative of your trying to quantify, or give us your best 
estimate of what border security actually looks like, in 
regards to metrics. I will say this, I think there is always a 
moment in time in politics where something can happen, and that 
moment in time is probably now for comprehensive immigration 
reform.
    I think we have a small window of time, and if something 
doesn't happen, that window is going to close. I do think that, 
absent some sort of accountability or a metric system that we 
can quantify in some way that the American people, through 
their Congress, has a high degree of confidence that we are 
moving toward an adequate amount of border under operational 
control or whatever term we want to utilize it--absent that, I 
think the immigration reform will be a heavy lift.
    I mentioned to your staff, Mr. Borkowski, when he testified 
before our subcommittee that it would be too bad if the 
Department of Homeland Security became the stumbling block for 
comprehensive immigration reform because we are not satisfied 
with what we are getting. There is no one else to ask. I know 
it is a difficult thing. I know that securing the border with a 
layered approach as we have been doing, as there has been 
progress made.
    Still as was mentioned to us, by you, a couple of years 
ago, the term operational control was antiquated, you said it 
was an antiquated term. I have an open mind to that. But then 
what? Then we were told that the BCI, the Border Control Index 
would be the term that would be used, and the matrix that we 
utilized and we were anticipating actually several weeks ago in 
this hearing room, that we would be hearing what the construct 
of that actually was, where we were with it, et cetera. Looking 
at GAO with the various components of whether it is operational 
control or BCI index or whatever it is, under operational 
control, boots on the ground, strategic fencing, utilization of 
various kinds of technology as the Chairman had mentioned about 
UAVs, or land systems or you know, the next version of SBInet. 
All of these kinds of things.
    Also recognizing that sometimes you can secure a portion of 
the border and then 6 months later you have a different 
situation. Believe me, I think all of us do understand that. It 
is not a static kind of a thing. It is a dynamic situation that 
you are always dealing with there. But you mentioned yesterday 
some comments you made at a hearing. I was looking at some of 
that as well, and have a press release you put out which you 
said, every metric that we use to measure border security shows 
significant progress.
    Yet really the only, it feels like the only thing we are 
hearing is about apprehensions. That is a component in my mind, 
that is the component it can't be, it is something that we need 
to know, what is happening with regard to apprehension, but 
then we are not really measuring how many did we not apprehend? 
Other kinds of things that have happened there. So I guess I 
would like to have you flesh that out a little bit more about 
the matrix because I appreciate your position and what you are 
saying. But in my observation and opinion, if we don't get 
something pretty darn, much more specific than what we have had 
so far from your Department, I do believe that your Department 
can be the stumbling block to comprehensive immigration reform. 
We don't want that to happen, I am sure.
    Secretary Napolitano. Well we certainly don't want that 
because, as you know, I have been advocating for CIR since my 
first day here in Washington, DC. Two things: No. 1 is on the 
apprehensions, you know, the missing piece has been a better 
ability to identify the denominator. I mean we know how many we 
apprehend. Really being able to track the attempts has been 
difficult.
    Looking at the Senate-proposed CIR and how that is drafted, 
if the technology piece is supplied to us, as that bill 
provides, with the funding mechanism for that, so that we can 
sustain the efforts we already have and build on them. One of 
the problems with border security has always been, we secure an 
area and then we leave it. Then the border changes. But I think 
that the way that is written and how it is informed by 
technology is a do-able deal.
    Mrs. Miller. I do, and I appreciate that. Because as you 
mentioned, along with funding, I think, I feel your Department 
needs to tell us, as the Congress, what it is you actually need 
in regards to resourcing. It is for us to determine whether or 
not we have the political will, as a Congress, to insure that 
that happens. You know that is part of one of our enumerated 
responsibilities under the Constitution. Border security again, 
is such an important thing, in every way.
    So we want to work with your Department to make sure, 
again, that we have some sort of system, metrics, 
accountability, whatever term you want to utilize. Our bill 
that we have dropped though does use the term operational 
control. We have fallen to that as a default position since we 
have had nothing from DHS. I know my time is I guess it is 
expired. So I will leave it at that, Mr. Chairman.
    Chairman McCaul. I thank the gentle lady for all your hard 
work as Chairwoman of the Border and Maritime Security 
Subcommittee and I absolutely agree. You need to tell us. These 
are tough budgetary times but we can authorize. It is important 
we get this done right. So with that I now recognize the 
gentleman, Mr. Payne, from New Jersey.
    Mr. Payne. Thank you Mr. Chairman. Secretary Napolitano 
thank you for your service to this Nation over the past 5 
years. I know it has been a difficult journey but we appreciate 
everything you do every single day. It has really been good to 
see you in the last 2 weeks three times. So you are keeping us 
abreast of what is going on.
    You know, I have a question in reference to regarding the 
proposal to consolidate the 16 grants under a single National 
Preparedness Grant Program. My district includes Newark, New 
Jersey, Jersey City, and Bayonne, and we sit across from New 
York City. It includes an airport, a seaport, rail lines, bus 
lines, and chemical plants all in between. So my district 
relies heavily on many of these individual grants including 
UASI and the Port & Transit Security Grants. How do you think 
the consolidation of those grants will impact a district such 
as mine?
    Secretary Napolitano. Our goal is to move from you know so 
many of these grant programs we either inherited or were part 
of the 9/11 Act. As we can see from response capabilities that 
happen after Sandy, now after Boston and so forth, we have 
built a fair amount of capacity and resilience around the 
country.
    We want to move to a risk-based approach for further 
funding of grants. We want to consolidate in an effort so that 
we can unify grant guidance and reduce administrative overhead. 
We want to make sure that areas that have lots of critical 
infrastructure and critical ports and the like, that we can 
really fund those according to risk as opposed to having to use 
formula grants through many of our programs.
    So it really will depend, but our whole goal is, now let's 
identify risk and gaps and where the monies best should go.
    Mr. Payne. Well you know in the past, funding for State and 
local grant programs have been cut considerably. In addition to 
the funding cuts, you know, for port security grants. So I am 
very concerned about this consolidation effort. Let me----
    Secretary Napolitano. If I might Congressman, Congress has 
cut the grants over the President's objection. One of the 
things the Congress did do when it passed the budget for the 
Department was restore some grant funding.
    Mr. Payne. Okay. You know, New Jersey, let's get back into 
interoperability. New Jersey is currently without a State-wide 
interoperability coordinator. I understand that the same thing 
is happening to other States as this grant winds down. I 
believe it ends in September. You know that is of great 
concern, moving towards First Net, which I understand is still 
in the planning process and getting up to speed.
    So as these coordinators, the SWIX, are leaving, the one in 
New Jersey left this past month and I believe several other 
States are experiencing the same thing. How do we move towards 
getting First Net up when we are losing the coordinators that 
would be an integral part of that system?
    Secretary Napolitano. Well part of that is what the State 
wants to support on its own. Not everything should be paid for 
by Federal grant money. But if I might, my experience as a 
Governor on this interoperability issue, was every bit as 
frustrating as I think as being expressed by Members of the 
committee.
    We have not, we have spent way too much money for far too 
little coverage. I think part of the reason was we didn't have 
adequate private/public partnerships going on. It was more a 
vendor-buyer type situation as opposed to a true partnership. I 
think that is where we need to move. I think we will move 
there. I think the States by themselves can identify how they 
want to manage that. But we really have to change the whole way 
we look at building a National interoperability capacity.
    Mr. Payne. As my time winds down, you know, I have several 
chemical facilities in my district that could experience the 
same thing that we have seen in West, Texas. So from what I 
understand, FEMA's monitoring the situation and prepared to 
assist State and local authorities as needed. Is DHS personnel 
on the scene in Texas?
    Secretary Napolitano. They are nearby. I don't know if they 
are physically on the scene. They will be if requested.
    Mr. Payne. How are they prepared to assist?
    Secretary Napolitano. We can do a number of things. But we 
have an Instant Management Assistance Team that is standing, 
that is on stand-by right now.
    Mr. Payne. Okay thank you. I yield back.
    Chairman McCaul. I have to depart. I have an amendment on 
the floor to the CISPA bill, the intel cybersecurity bill, that 
provides a civilian interface to the private sector for threat 
information, that being the primary interface the Department of 
Homeland Security, which I think is the right way to go with 
cybersecurity, and also with the robust Office of Privacy and 
Civil Liberties, that we have within your Department. I believe 
that is the best way to protect the privacy of the American 
people. So I have to depart for that.
    Let me also say, commend you for the increase in your 
budget for cybersecurity. We plus that up in our CR as well as 
you know, this is one of the biggest threats in the virtual 
world.
    So with that segue, the Chairman of the Cybersecurity 
Subcommittee, Mr. Meehan.
    Mr. Meehan. Well, thank you, Mr. Chairman for that tee up.
    Thank you, Secretary, for your being here.
    Let me start at the outset. I see in you as someone who is 
symbolic of the many people in Boston who are on the front 
lines today with their dedication and resilience. So, through 
you, I express our appreciation for the great work that you are 
doing.
    Secretary Napolitano. Thank you.
    Mr. Meehan. I have another issue, just briefly, as well. 
The Ranking Member raised an issue about the pre-clearance 
facilities in Abu Dhabi. I had been circulating, along with 
Representative DeFazio, a letter of concern. I thought we would 
get about 25 signatures on it. In a very short period of time, 
we are already over 70. I am going to be forwarding that to you 
probably in a day or so, because of many more.
    I hope that at some future time we can discuss that issue. 
Because I am worried about the fact that what we are doing 
there is creating a real competitive imbalance for America-
based airlines, in which foreign countries are able to, in 
effect, put into position a benefit for their foreign-based 
airlines.
    But I am also very appreciative of the great work that you 
are doing on cyber. Your colleague, Mr. Mueller at the FBI, in 
testimony not so long ago, notwithstanding what we are seeing 
in Boston, had said that cyber may soon replace terrorism as 
the No. 1 issue and threat to the United States. I was struck 
by the Secretary of Defense, former, Mr. Panetta. One of the 
first things that he did after leaving that was to go to New 
York and talk about a cyber Pearl Harbor. I think, it is an 
issue, which is significantly greater than many Americans have 
an appreciation for. I know that you do. But many Americans out 
there do not appreciate the extent of the vulnerability.
    Ninety percent of our cyber structure is in the private 
sector. When we have something that is an issue, there is also 
cross sectors. We are paying a lot of attention to what is 
going on to the banking sector, but as the banking folks said 
to me, if our grid, electrical grid goes down, we are affected 
in that way, as well. So there is a lot of cross-sectional 
issues.
    We are also dealing with instantaneous communication.
    Secretary Napolitano. Mm-hmm.
    Mr. Meehan. So things are happening by the second. Those 
kinds of things make a difference. Can you explain to me how 
the investments that you are making are enabling homeland 
security to be on the forefront and then the cutting edge of 
helping us, as the Nation, to prepare to defend ourselves and 
to utilize the relationships with the private sector to 
encourage them to become partners with us in protecting our 
critical infrastructure?
    Secretary Napolitano. Yes, I will try to keep my answers 
short, because there is so many things that we are doing. But 
that intersection with the private sector where core critical 
infrastructure is concerned, absolutely key if we are serious 
about cybersecurity.
    We are interested in real-time information sharing, because 
the more quickly information is shared, the better we are able 
to help with response and mitigation. We are asking for money 
to increase our CERT teams, to increase our industrial control 
system teams, to fund the NCAMP, which is a 24-7 watch center 
where we have private-sector partners on the floor with us.
    Mr. Meehan. That is a place in which you are talking about, 
the--communication and the private sector can participate 
directly, as was--Mr. Rogers was asking questions about how we 
can encourage private-sector participation. This is a place 
where it actually takes place, is it not?
    Secretary Napolitano. That is correct, and I invite any 
Member who wishes to come out and see the floor and how it is 
arranged. But we know it will have to expand over time as our 
responsibilities increase, both pursuant to the Executive 
Order, the Presidential Policy Directive, and hopefully through 
the amendment that Chairman McCaul was speaking about.
    Mr. Meehan. Isn't it accurate that we would be able to 
include numbers of the private sector, and when we talk about 
R&D and other kinds of things, while we would like to do more, 
but the fact of that matter is, a lot of private sectors, in 
many ways, at or above the best that the Government can do in 
the form of technologies and other kinds of things. So, 
inviting them in, doesn't that enhance our capacity overall?
    Secretary Napolitano. Yes, to the extent that is shared, 
obviously. But, you know, just the ability to discuss ideas and 
get the relevant people in the same place, there is a value to 
that. So we are encouraging that kind of co-location. The NCIC 
is a very vital place. It--through the NCIC and the CERT, we 
have literally responded to hundreds of thousands of cyber 
incidents, just this past year. That number is only going up.
    Mr. Meehan. May I ask one last question? It is, as we deal 
with the imminent nature of, and changing threat, of cyber 
because of the fact that technology changes so quickly, how 
about your acquisition regulations and the ability for you to 
be able to work through the acquisition of the highest and 
greatest technology?
    Are you bogged down at all by requirements that may take 
weeks if not months to get something approved, and, therefore, 
many times the technology may be obsolete by the time we put it 
in place?
    Secretary Napolitano. I think, that is a problem throughout 
the Government, Representative. I think, acquisition is too 
slow for the cyber world.
    Another area, if I might, where we had asked for 
legislative help last year in a Senate cyber bill that 
ultimately didn't pass, the so-called Collins-Lieberman bill or 
Lieberman-Collins bill, was statutory authority to allow us to 
hire in the cyber world to the same degree NSA can, so that we 
are relieved from some of the normal hiring restraints and 
salary restraints that confine us. Because cyber professionals 
are very--it is very competitive market place for them.
    Mr. Meehan. Well, thank you----
    Mrs. Miller. Thank the gentleman.
    Mr. Meehan. Thank you. I look forward to working with----
    Mrs. Miller. Thank the gentleman for his comments.
    At this time, the Chairwoman recognizes Mr. O'Rourke from 
Texas.
    Mr. O'Rourke. Thank you, Madam Chairwoman.
    Madam Secretary, I also want to thank you for your work, 
and through you, the men and women who keep our country safe, 
who have helped make the community I represent the safest in 
America for the last 3 years in a row, despite living next to 
one of the most dangerous cities in the world, bar none, in 
Ciudad Juarez.
    I want to touch on a statement that you made in your 
opening comments about reduced operational capacity at our 
ports of entry as it relates to the sequester. I believe, in a 
previous hearing, you talked about, because of the sequester, 
4- and 5-hour wait times at our ports of entry that can become 
the norm going forward.
    So I want to ask you where we are now, given the additional 
flexibility included within the Continuing Resolution as it 
pertains to wait times at our ports and where we will be should 
this budget be approved, and you get the resources that you are 
asking for. What kind of wait times can we expect given the 
importance of our ports of entry to the National economy and 
local economies like mine?
    Secretary Napolitano. Well, I think, even without 
sequester, we were short of port officers and staffing. Part of 
that was because they were paid for out of user fees, and user 
fees were diminished during the recession, and so, it got to be 
this gap. Those land ports are incredibly important and are 
responsible for hundreds of thousands of jobs in the United 
States.
    The President has asked for 3,400 more port officers. We 
believe that will meet our staffing model needs for the future 
and keep wait times to a minimum. In the mean time, we are 
going to do everything we can to mitigate those times. I can't 
give you precise hours right now.
    Mr. O'Rourke. One request I would make related to that is, 
as you know, communities like El Paso, that I represent, are 
willing to commit resources, millions of dollars from local tax 
payers to compliment the investment that you are making at our 
ports.
    What we don't have, that would help us make better 
decisions about this, is your workload staffing model, 
understanding how you staff the different ports of entry in our 
communities.
    Secretary Napolitano. Mm-hmm.
    Mr. O'Rourke. We want to know those answers so that we can 
make a wise investment at the local level. I also want to be 
able to get back to constituents who, you know, send us or text 
us photos when they have been waiting on the port for----
    Secretary Napolitano. Oh, I know.
    Mr. O'Rourke [continuing]. Three and 4 hours, get to the 
front of the line, and of 11 potential lanes, only see four of 
them staffed and open.
    Secretary Napolitano. That is right.
    Mr. O'Rourke. So just being able to be transparent and 
responsive and communicate to our constituents about how you 
staff those ports would be important. Can you commit to getting 
us your workload staffing model? Would it be possible to commit 
to a date to do so?
    Secretary Napolitano. We will provide you with the workload 
staffing model, because it forms the basis for the request for 
3,400. So I will ask my staff to get that to you as quickly as 
possible.
    Mr. O'Rourke. I would also like to address some comments 
you made about comprehensive immigration reform. I really 
appreciate what you said, and what I think I heard you say, 
which is, if we are able to pass immigration reform, that, in 
itself, will help make the border more secure. You will be able 
to focus resources and attention on our highest, greatest 
priority threats, the existential threats, the people who want 
to come in, kill American citizens, do us harm, disrupt our 
economy, as well as the other criminal activity that we should 
be focusing on. So I appreciate you saying that.
    Within this budget that you are proposing, do you have the 
resources necessary to carry out your obligations as it relates 
to comprehensive immigration reform? In your answer, do you 
want to touch on what was proposed from the Senate or the 
Senate plan, with, I think, an additional $3 billion towards 
border surveillance and another $1.5 billion towards extending 
the border wall?
    Secretary Napolitano. Yes, I think, my answer would be 
that, under CAR, and we are still going through it, as you 
might imagine, but if those resources are provided and 
sustained, and, I think, that is a key thing--they need--there 
needs to be a commitment to sustain the border security 
measures that are there.
    But--assuming that, and assuming we fund the technology 
plans we have already provided to the Congress, I believe we 
can build on the efforts we have already done. I believe the 
manpower we have at the border is adequate. I believe that, 
yes, we can meet the measures that we have seen.
    Mr. O'Rourke. Real quickly, could I get you to respond to 
the request within that legislation to extend the wall? Do you 
think it is necessary to add additional mileage in the border 
wall between the United States and Mexico?
    Secretary Napolitano. You know, I have never been a big fan 
of just, kind of, arbitrary, ``build more fence.'' I have said, 
you know, ``Show me a 10-foot wall, I will show you a 12-foot 
ladder.'' But, I think--again, we are looking at that, but 
there are different kinds of fencing. There is real. There is 
virtual, and other kinds of infrastructure.
    So we are looking at what would go into that, but it needs 
to be part of our comprehensive strategic plan for the border 
itself, which includes the technology, the aerial, and the 
manpower as well.
    Mr. O'Rourke. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. Madam Secretary, 
first off, let me say thank you for what you and your 
Department do to try to keep America safe. I certainly 
appreciate it.
    First off, let me also thank you for answering Senator 
Johnson's questions yesterday in the hearing about the ammo 
purchases that DHS is making and trying to refute some of the 
rumors. We get a lot of those questions as Members of Congress 
back in my district, really from all over the country.
    So as part of that, Chairman McCaul and I have asked GAO to 
do an audit just so we can deal with the facts and we can 
answer those questions for the American people, not only on the 
ammo but also on the MRAPs.
    The question I have for you, you know, when Forbes magazine 
or Drudge or some reputable news sources start to repeat the 
numbers of 1.6 million or 2,700 MRAPs, they cease to be 
internet rumors and they start having some credibility.
    So I would just ask, why was there a long delay or silence 
from the DHS for a period of time, almost 3 months, before you 
all came forth saying these numbers aren't correct, these are 
the actual facts? Why was there a delay or a silence from your 
Department?
    Secretary Napolitano. Well, I don't know about that there 
was that kind of delay, but I will tell you we found it so 
inherently unbelievable that those statements would be made, it 
was hard to ascribe credibility to them. I don't know if I 
would put Forbes and Drudge in the same sentence, but I--let me 
be as clear as I can be.
    Mr. Duncan [continuing]. Leave Drudge out of it. I 
wouldn't. I think they are credible, but Forbes is definitely a 
credible magazine. So when they use that number and then we 
hear silence from the Department and Americans see the ammo 
shelves empty, all that feeds that----
    Secretary Napolitano. Well like I said, it got into the 
blogosphere and it went viral. We understand that. As I was 
with Senator Johnson, let me be clear as I can be. This was a 
5-year strategic sourcing contract for up to those 1-point-
whatever rounds--billion rounds. It is an up-to number. We 
usually use 150 million, 160 million rounds a year.
    We do all the Federal law enforcement training, qualifying. 
We do a lot of the training and so forth for State and locals, 
plus our own operational needs. We are the largest Federal law 
enforcement agency.
    Mr. Duncan. Yes ma'am. In the absence of time, you did a 
great job. I ask to submit for the record her testimony 
yesterday in the Senate.
    Mrs. Miller. Without objection.
    [The information follows:]
          Excerpt Submitted for the Record by Hon. Jeff Duncan
    Ron Johnson (WI). OK. Let me turn to a question I'm getting all the 
time, and we certainly appreciate the information you've given us, but 
let's just kind of lay the rumors to rest. We hear reports that DHS is, 
you know, buying 1.6 billion rounds of ammunition. We contacted your 
office and apparently a purchase order for 650 million rounds over 5 
years. I mean, is that the correct number? Can you just kind of speak 
to that, because I know a lot of people are concerned about that.
    Napolitano. Yes. We are in no way buying up the ammunition of the 
country for any nefarious purpose. We have what we call strategic 
source contracting where we can purchase up to at a certain per unit 
cost over time. We use about 150 million rounds a year. We train almost 
all of Federal law enforcement, plus a lot of State and locals at 
FLETC. By contracting this way we save almost 80 percent in a per unit 
basis. So it's really just smart contracting and nothing more.
    Johnson. Even the 150 million sounds like a lot. But can you just 
kind of break that down, how many people are trained, how many practice 
rounds are fired? I mean----
    Napolitano. Well yeah, I mean it's--CBP probably uses 60 million, 
65 million there. Secret Service, many of our services require 
qualifying multiple times a year. FLETC probably uses another 20 
million, 30 million rounds. We can give you the actual inventory. We 
know where the rounds are used.
    Johnson. I'm actually just giving you the opportunity to try and 
dispel the rumors.
    Speaker. If I can interrupt. We've actually made an inquiry and 
they've been very good, the second inquiry is in the process of being 
processed by Homeland Security. We're going to have all that available 
for all the Members so they can answer the questions.
    Johnson. OK, great. That's great.
    Napolitano. Right, but--but to just be as firm as I can be, the 
rumors are unsubstantiated and totally without merit.

    Mr. Duncan. You answered those questions yesterday, and I 
appreciate that. I guess I was just asking about the silence, 
why there was a delay in you guys saying, you know, these 
numbers aren't right.
    Secretary Napolitano. Yes. Like I said, it really didn't 
start getting to us as a question until I think we started 
getting Congressional inquiries. That was some time after the 
reports had first surfaced. So if we could have been quicker to 
the ball, perhaps, but again, in the press of things--if I 
might say in our own defense--we just couldn't believe that 
anyone would believe those allegations. So let me be very 
clear. Absolutely not true.
    Mr. Duncan. I appreciate that. Let's shift gears a little 
bit because I am very concerned about this person of interest 
that was detained at the hospital in Boston following the 
marathon madness. He is, I believe, scheduled to be deported 
next week. Now I understand he has been cleared of any 
wrongdoing in the involvement in Boston, but he is being 
deported due to National security concerns.
    CBS says this. This gentleman is here on a student visa. He 
was at the scene, along with many other people, when the blasts 
happened. As everybody is standing in shock, three Boston P.D. 
detectives see this guy moving quickly out of the crowd. As 
they are watching him, he seems to be moving very deliberately, 
which could be a very natural thing after a bombing. They stop 
him because he is covered with blood. They end up taking him to 
the hospital. That is straight off CBS.
    We are asking average Americans to help ID and assist law 
enforcement in identifying who the bomber was. See something, 
say something. Now we have someone who is being deported due to 
National security concerns, and I am assuming he has got some 
sort of link to terror or he wouldn't be being deported.
    He was at the scene. He could possibly ID the bomber, just 
like we are asking every other American that was on the scene 
to provide your pictures, help us identify who may have been 
acting funny. Everybody we are asking that that was in Boston, 
and we have got this guy who was there.
    We know he was there. He was arrested--or wasn't arrested, 
was detained in the hospital covered with blood. He was at the 
scene, and yet we are going to deport him. So we are going to--
--
    Secretary Napolitano. If I might, Representative----
    Mr. Duncan. We are going to remove him from the scene.
    Secretary Napolitano. I am unaware of anyone who is being 
deported for National security concerns at all related to 
Boston. I don't know where that rumor----
    Mr. Duncan. I am not saying it is related to Boston, but he 
is being deported.
    Secretary Napolitano. Like I said, again, he--I don't even 
think he was technically a person of interest or a suspect. 
That was a wash. I am unaware of any proceeding there. I will 
clarify that for you, but I think this is an example of why it 
is so important to let law enforcement do its job.
    Mr. Duncan. I want them to do their job, and that is why I 
say wouldn't you agree with me that it is negligent for us as 
American administration to deport someone who was reportedly at 
the scene of the bombing and we are going to deport him, not to 
be able to question him anymore? Is that not negligence?
    Secretary Napolitano. I am not going to answer that 
question. It is so full with misstatements and misapprehensions 
that it is just not worthy of an answer.
    Mr. Duncan. CBS reports the gentleman was there. We did 
detain him at the hospital. He was covered with blood. We have 
cleared him of any wrongdoing, but it has been reported he is 
being deported.
    Secretary Napolitano. There has been so much reported on 
this that has been wrong, I can't even begin to tell you, 
Congressman. We will provide you with accurate information as 
it becomes available.
    Mr. Duncan. I look forward to that. Thank you. I yield 
back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairwoman, and I thank the 
Ranking Member for this hearing. I thank the Secretary as well. 
I will be fleeting and asking some of my questions to be in 
writing. I too have an amendment on the floor dealing with the 
cybersecurity bill.
    I do want to thank you and reannounce again, ``See 
something, say something.'' You were in my district a year or 2 
ago. We spoke about it. Certainly we remember the Times Square 
bomber and the good Americans, good New Yorkers who saw 
something and said something. I want to remind everybody of 
that.
    Madam Secretary, may I just again--this has been a week--
and go straight to West, Texas, and say this: That if they are 
not under the CFATS process, can we galvanize resources under 
Homeland Security, which is the anchor of help when there is a 
devastation, as well even in light of them not having--maybe 
not having a security plan? What kind of resources could we 
quickly galvanize for them working with the State of Texas?
    Secretary Napolitano. Yes. We will look into that 
immediately.
    Ms. Jackson Lee. Thank you so very much. I know that there 
are first responders who lost their life. I offer them my 
deepest sympathy.
    I want to go straight to the question of the border 
security. I thank you for reviewing the legislation that 
myself, Chairman McCaul, Thompson, Chairwoman Miller, and 
Cornyn has been on. Let me tell you where we are going with 
that, and if I can get a specific answer.
    We want to be a partner. This is a road map. This is an 
answer to I think a $1.5 billion fence. You were very careful 
in your answer about that virtual fence. I don't know if that 
is what is being perceived in that $1.5 billion. It looks to me 
like they want to put up a fence.
    We know that that does not work. What kind of resources or 
input can you give us so that we can get the kind of defined 
way that we should be looking and assessing the border?
    Secretary Napolitano. Well, I think the No. 1 thing you 
want to see is do we have the situational awareness of the 
highly-trafficked areas of the border and the ability to 
respond. That takes into account infrastructure and ground 
technology, air technology, manpower, all the rest.
    But when I look at the border and I kind of step back and 
say: Well, what do we need? I really focus on: All right, what 
is our--do we have awareness of the area? If not, why not? What 
do we need to get that? That is where our technology plans come 
into play, and that is why we are asking that those be--that is 
what is kind of comprehended in CIR, among other things. Our 
technology plans are there and that we have the ability to 
respond.
    Ms. Jackson Lee. Well, what we have offered in this 
legislation is for, as I have said in a very inspirational way, 
for DHS to be in the game with us. We want to draw out, and I 
think that that will be very helpful to this committee. Again, 
I have always said when a tragedy happens, they look to you, 
Madam Secretary. I know that the FBI's investigating Boston, 
but they are also looking to us.
    Can I quickly note whether there was a fusion center in 
that area? We worked very hard to get these centers in terms of 
having people work together. My concern is--and are we going to 
get a briefing--my concern was seemingly the lack of credible 
threat chatter. That seemed surprising to me. Will we be able 
to get a briefing to determine what might have been happening 
and how the fusion center is working?
    Secretary Napolitano. You are talking about Boston?
    Ms. Jackson Lee. Boston. I am sorry. I have jumped----
    Secretary Napolitano. Yes. Yes. Without going into all of 
the things in the investigation, I will say there is a very 
good fusion center there. They have been actively involved. We 
will be happy to provide a briefing on how the fusion center 
has been used and is operating in the Boston case.
    Ms. Jackson Lee. Madam Chairwoman, I would like to hope 
that we can have a briefing on--with Homeland Security and 
Secretary and others, and very quickly. Let me just finish. I 
will just say again, Madam Secretary, we have given every 
opportunity for Administrator Pistole to delay, if you will, 
his moving on the knives. Everywhere I go, people are 
horrified. We don't want to have a confrontation. We would like 
to have a reasoned opportunity for more stakeholders to be 
heard.
    I would just ask whether or not it would not be 
reasonable--you have agreed with him, but here is a question. A 
extension in light of--the TSOs are going to be short-changed. 
We are going to have long lines at DCA. I already know that 
because I travel in and out of it, and I think that that is 
something--I ask you to make request or the inquiry or to give 
me an answer back.
    Last, let me just say that having met with Border Patrol 
Agents, I want to make sure--I want to thank you for I think 
retracting the furlough, but I do think it is important in the 
comprehensive immigration reform to not underestimate the need 
for more patrol agents. I know there is some funding in this 
budget, the President's budget, but I support more funding for 
it even though they have a higher number.
    Do you have just a quick comment on the knives and any 
opportunity for more stakeholders to be involved and more 
opportunity for discussion?
    Secretary Napolitano. Well, I think with respect to that, 
as you and I have discussed, I think it is the right policy. I 
think, however, we can always look at how better to improve 
stakeholder outreach. I will talk with the administrator about 
that.
    With--and the second part of your question? I am sorry.
    Ms. Jackson Lee. Was it Border Patrol Agents----
    Secretary Napolitano. Agents, yeah.
    Ms. Jackson Lee. You are taking away the furlough, as I 
understand. You are taking away the furlough.
    Secretary Napolitano. Well, we are trying to mitigate any 
furloughs and effect on AUL. We don't have a final answer yet.
    Ms. Jackson Lee. I ask that you look at that very 
carefully. I yield back. I thank you very much.
    Mrs. Miller. Thank the gentlelady. The Chairwoman now 
recognizes the gentleman from Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chairwoman.
    Madam Secretary, on April 8 in a Federal lawsuit in Dallas, 
Jessica Von who is the director of policy studies at the Center 
for Immigration Studies, gave testimony that focused on 
internal DHS statistics showing a significant decline in the 
number of deportations. She also described how the 
administration has cooked its removal statistics in a way that 
gives lawmakers and the public, the false impression that 
enforcement has improved.
    She was asked to analyze a set of mostly unpublished 
statistics and documents on DHS enforcement activity over the 
last 5 years. In her testimony, she said the materials show 
that contrary to the administration's claims that have achieved 
record levels of enforcement, the number of removals is now 40 
percent lower than in June 2011. Removals of convicted 
criminals are also running at 40 percent lower now than in June 
2011. Removals generated by ICE's Enforcement and Removals 
Division, which carries out most of what little interior 
immigration enforcement, are 50 percent lower now than in June 
2011.
    This decline has occurred despite the expansion of ICE's 
Secure Communities Program. If ICE is removing so few people 
now than before, than how can DHS claim that they set a record 
number of deportations last year?
    Secretary Napolitano. Well, I don't know how she does her 
math, but I know how I do mine. The way I do my math is look at 
removals from the country. We have removed more people from the 
United States than any prior administration. So I can't respond 
to an individual and how she cooks her books, but I can tell 
you what I look at.
    I look at implementation of Secure Communities. I look at 
how many convicted felons we are removing. I look at how many 
repeat violators we are removing. I get the complaints 
Representative from the other side who say we are removing too 
many. That is also a sign, I guess I get them from both sides. 
Maybe we hit the sweet spot at some point.
    But we are very committed to the rule of law where 
immigration is concerned. That is border security and its 
interior enforcement.
    Mr. Barletta. But are we now counting Border Patrol cases, 
the turnarounds at the border, as part of our deportations? 
Rather than the criminal on the interior of the country? Aren't 
we now adding the Border Patrol cases, the turnarounds, as part 
of the deportations?
    Secretary Napolitano. If there is a removal, but not, there 
is not always a removal. Like I said, you know, we can get into 
the weeds on statistics. The plain fact of the matter is, is 
that ICE ERO has been extremely active. I will tell you, when 
Representative Miller talked about this is the window of time 
on immigration. This is the window of time. We need to be 
looking at our worksite enforcement, because that is a real 
driver of illegal immigration.
    We need some more tools. I mean the statutes governing how 
you prosecute somebody who continually brings over illegals, 
incredible. We need to unclog the visa process. These all go to 
the migration----
    Mr. Barletta. I am familiar with cases right in my hometown 
and right outside of my hometown, where criminal aliens have 
been caught and turned over by local police, multiple access 
cards, committing fraud, aggravated assault charges, and left 
go.
    Secretary Napolitano. Well, I can't tell you, I don't know 
about a particular case. I don't know who they were turned over 
to. But I will tell you this, somebody who has that record, 
that we have, will be a priority removal.
    Mr. Barletta. Well, I will give you another case just 
recent. There was actually a warrant for this man's arrest in 
New York City and he was let go. So I am going to disagree that 
we are deporting people or apprehending, the people that are 
being turned over and they are being deported. I am going to 
take issue also that Comprehensive Immigration Reform that has 
been proposed will make our borders more secure.
    I couldn't disagree with that more. I believe we have now 
made our borders less secure because millions, millions of 
people are now being encouraged to come to the United States 
illegally with the hope of getting amnesty in the future. We 
saw that in 1986 when 1.5 million turned out to be 3 million. 
We have already seen, in testimony last week by Border Control 
Chief Michael Fisher, where they are seeing an increase already 
at the border, and some of it, he believes, is due to this 
policy.
    Secretary Napolitano. Let me be very clear on this. Because 
this is a very important public message. Under any immigration 
reform proposal, you need to have a cutoff date.
    Mr. Barletta. Oh I know, I know about the December 11----
    Secretary Napolitano. If I might, if I might complete my 
answer. So December 31, 2011, was chosen by the Gang of Eight 
as the cut-off date. We are already working, State Department 
and others, to get that message out so that we do not have any 
repeat.
    By the way, this bill and the bills that are being 
considered that I have seen, are very different from 1986.
    Mr. Barletta. Well, we all know that anyone can use false 
documents to claim they were here any day they want to say they 
are here. It happens all the time.
    Secretary Napolitano. That is not accurate either.
    Mrs. Miller. Appreciate the gentleman's comments. The 
gentleman's time has expired. The Chairwoman now recognizes Mr. 
Swalwell from California.
    Mr. Swalwell. Thank you Madam Chairwoman, and thank you 
Madam Secretary for being here. The Boston tragedy reminds us 
that the threat continues to be real as far as what we face 
with respect to terrorism. Whether it is domestic or 
international terrorism. I have to say in light of what we have 
seen, whether it is the blogosphere, the twittersphere, and all 
the rumors that are out there. I think that the administration, 
and you particularly, have done a very fine job and had a very 
measured response and have not chased many of the rumors that 
are out there.
    Having been a former prosecutor myself, coming from a 
family of law enforcement, I agree it is very important right 
now in these early stages of investment, to just simply let law 
enforcement do its job. There is so much to learn right now. I 
appreciate that DHS is focused on that.
    I have a couple questions based on my experience as a 
prosecutor, when I was a prosecutor, I worked in our office, 
and our office still works at the Alameda County District 
Attorney's Office with the Alameda County Sheriff's Office, 
which created what is called Urban Shield. Urban Shield is a 
full-scale training exercise developed in Alameda County to 
test and evaluate the region's ability to respond to any kind 
of man-made or natural disaster.
    It involves first responders, businesses, law enforcement, 
communication systems, intelligence, critical infrastructure, 
and so on. Our former Sheriff Charlie Plumber and current 
Sheriff Greg Ahern continue to work on this and it is now an 
international and National program. We know from that program 
and we know from attacks in our country and across the world, 
that we are only as good as our game on the ground.
    Meaning that local law enforcement will be the first 
responders. So as we are looking at our budget, what is DHS 
doing to publicize the training effort, or encouraging other 
major metropolitan areas to develop programs like this, or 
assist them with funding?
    Secretary Napolitano. Well, we think the Urban Shield-type 
program, that is exactly what Boston used last November. That 
was an Urban Shield-type program. That is the kind of thing we 
want to support through our grants, and grant guidance. It 
improves, as you say, our ability to respond and to do with as 
minimum of chaos as possible in the wake of a terrible event 
like a Boston.
    So yes we work with the major city chiefs, with the 
Sheriffs Association, with the IACP and others, really to 
encourage participation and design of things like Urban Shield.
    Mr. Swalwell. Great, also I believe these attacks also 
magnify our transit risks. In an article this week in Politico 
both Chairman McCaul and Ranking Member Thompson agreed on the 
threat to mass transit. I have circulated a letter asking for 
robust funding for the Transit Security Grant Program, which is 
administered by the Federal Emergency Management Agency in 
fiscal year 2014.
    In that letter I explained what I believe to be our transit 
risks. In the Bay Area, we have Bay Area Rapid Transit also 
known as BART. What can you tell me that the Department of 
Homeland Security is doing now to step up protection around 
mass transit? Does Congress need to do a better long-term job 
as far as our budgeting to secure our transit areas and how 
would sequester affect this?
    Secretary Napolitano. Well, sequester has not been helpful 
in a number of respects. But with respect to Boston, we have 
increased our security around transit hubs, working with Boston 
City Police, and the State of Massachusetts. We have VIPR teams 
that have been deployed into that general area and up through 
the New England corridor.
    We also put the Coast Guard on the ferries. That is also a 
mass transit in some areas, and it is in San Francisco Bay. So 
all of those things have been increased for the time being.
    Mr. Swalwell. That is great. My final question has to do 
with immigration. The number of removals, you are correct, have 
increased under this administration, and I believe our borders 
have never been more secure.
    However as we move toward Comprehensive Immigration Reform 
in my district, we have a very diverse area, and as a 
prosecutor I know that when you are looking at criminal 
removals, there is a broad range of types of criminals. You 
mentioned a convicted felon is much different than the person 
who is arrested for driving with a suspended license. However 
you could classify both of them as a criminal. Is the 
Department taking steps to prioritize the removals so that we 
are removing the most violent and serious offenders and the 
lower-class offenders who pose a lesser risk and many types 
their crimes are associated with being here in an undocumented 
fashion, are not being removed at the same rate?
    Secretary Napolitano. Yes, and one of the adjustments we 
made to Secure Communities in response to comments in that 
regard was to remove the automatic issue of a Notice of 
Detainer for low-level, misdemeanors and others, who pose no 
public safety threat.
    Mr. Swalwell. Great, and thank you Madam Secretary, and 
again I am confident that with your leadership and the way the 
administration has been responding to this tragedy in Boston, 
that we will find the persons responsible and we all need to 
just be patient and trust that law enforcement will do its job.
    Secretary Napolitano. Indeed. Thank you.
    Mr. Meehan. I thank the gentleman.
    The Chairman now recognizes the gentleman from North 
Carolina, Mr. Hudson.
    Mr. Hudson. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. Good morning to you. I 
appreciate you being here. I also would like to thank you for 
all the personnel of DHS who are working so diligently and 
tirelessly in Boston, as well as West, Texas. There were 
several victims in Boston from Charlotte, North Carolina, and 
so we were watching with a personal interest and really 
appreciate what your folks are doing.
    I also wanted to echo at the outset, and sort of associate 
myself with the border metrics discussion we have had here. For 
my standpoint, I understand how important reforming our 
immigration system is to our economy, and our National 
security. But, I can't support any immigration reform if we 
can't be satisfied that we have secured the border. So getting 
those metrics where we can definitively talk about how we are 
doing on securing that border, and making sure that border 
security is a piece of comprehensive immigration reform will be 
critical to getting my support and others, I think, in our 
conference.
    So we look forward to working with you to try and come up 
with definitive metrics, and move in that direction.
    Secretary Napolitano. Indeed.
    Mr. Hudson. As Chairman of the Transportation Security 
Subcommittee, I am particularly interested in the TSA's budget, 
and would love to discuss--sort of directing my questions in 
that direction. It seems logical as we are moving towards risk-
based security at TSA, which is something I fully support. I 
think it is the exact right thing to do. I support the 
administrator. It seems to me that as we move those towards 
more risk-based security, there ought to be significant cost 
savings for the taxpayer. For example, as we do risk-based 
screening, we start focusing more on threats, that ought to 
free up resources.
    As we look at some of the new high-tech value screen, it 
ought to mean that we need less screeners for baggage. As we 
look at some of the privacy software upgrades for AIT again, 
ought to be able to reduce some of the workforce and screeners 
there was well. But it doesn't seem that in the budget, we are 
reflecting a lot of those cost savings. Why are we not seeing 
those?
    Secretary Napolitano. I think, Representative, I think 
because those cost savings will be more long-term than 
experienced immediately in fiscal year 2014. You are seeing 
some savings. For example, the AITs have basically been 
installed, and so we don't, you know have to buy as many and 
install as many AITs. The same with baggage systems. You know, 
the basic equipment has been installed, and now it is a matter 
of continual upgrades. I do believe as we move to more risk-
based, those long-term savings will accrue. But, it is hard to 
say whether they will happen immediately.
    Mr. Hudson. I understand. What other costs and personnel 
efficiencies do you think that we--can be gained by expanding 
PreCheck, for example and implementing some of these other 
risk-based policy decisions? What kind of--how much savings do 
you think we are looking at?
    Secretary Napolitano. Well, I think it all depends, but you 
know, in a PreCheck regime you don't, obviously need as many 
TSOs before an individual gets on a plane. So, there will be 
personnel savings with that. On the other hand, we do need to 
make sure that we fund the operation of the PreCheck program 
itself and our, you know our ability to do background checks, 
and so forth on the members.
    Mr. Hudson. Absolutely. Well, I understand that obviously 
we need to put these systems in place before we start seeing 
some of the reductions in personnel that we are talking about, 
but what do you think the time frame is on that, particularly 
when we talk about PreCheck?
    Secretary Napolitano. You know I would defer to the 
administrator on that. You known I think we have set an 
aggressive goal of having 1 in 4 passengers be in some sort of 
expedited program by the end of the year. If we meet that goal, 
I think we will start seeing some reduction in, certainly in 
growth of personnel shortly thereafter.
    Mr. Hudson. Right. I appreciate that. Shifting a little 
bit, initiatives that we have talked about in private. You know 
my concerns about us looking long-term at threats of an EMP 
attack. You know, one of the things that I brought up with you 
is that when we look at St. Elizabeths and we prepare to move 
to the new DH headquarters--DHS headquarters there, my concern 
is that we are spending a lot of money on that facility. But I 
am not sure we are doing what we need to do, to harden the 
electric grid there. I would just ask, has there been any other 
thought put into that? I guess behind that question I would 
just say, I think it would be important that there is.
    Secretary Napolitano. I understand the concern. What I 
would suggest, if you have the time, is a classified briefing 
on St. E's? On what is happening. But, I would also like to say 
that, you know given now I am only going into my fifth year, 
but we really need a headquarters. It is very difficult to 
efficiently manage a Department as diverse as ours when we are 
in 50-plus locations around the Capitol region. So, I hope that 
is something the committee can support.
    Mr. Hudson. Absolutely. I know I am running out of time 
here, but I just wanted to say again, we do have a classified 
briefing scheduled that I have requested, and so I look forward 
to following up with you on that. But I think again, this is a 
long-term situation, and we need to be working on together when 
we look at the threat of EMP attack.
    Secretary Napolitano. Indeed.
    Mr. Hudson. Thank you. I yield back the time I don't have.
    [Laughter.]
    Mr. Meehan. I thank the gentleman for giving back what he 
didn't have.
    The Chairman now recognizes the distinguished Ranking 
Member on the Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies, the gentlelady from New 
York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Let me add my voice to that of all of the colleagues who 
have commended you for your leadership, Madam Secretary. You 
know, from responses to the multiple natural disasters during 
your tenure, to the response to the Boston bombing, and the 
Texas plant explosion, it is becoming more, and more clear to 
all Americans, the critical mission of Homeland Security--the 
Department of Homeland Security. I think that your leadership 
is emblematic of how robust we need to be as this agency grows 
from strength to strength.
    That is why it is a bit challenging for us who recognize 
the missions to see that agency go through such a painful 
period where sequestration has now become, sort of a binding of 
hands in meeting these very critical missions. I want to move 
to the area of cybersecurity because I have been a bit 
concerned about the public level of awareness, where really 
understanding what it means to protect ourselves in the virtual 
world, actually means.
    I guess the bandwidth of understanding can go from a person 
using a flip-phone, to a child using an iPad in the public 
sphere. But, what I recognize is that in this budget, there was 
a substantial cut to the cyber education program. While I 
recognize that Einstein-3 is a very important tool that we 
need, I noticed that, we are kind of trying to rob Peter to pay 
Paul, in order to manage the sequestration. I wanted to ask, 
you know: How we can meet our commitment to the public with 
such a drastic cut to the one area that we have that actually 
educates the public? Is there no way to slightly decrease 
funding for top-priority programs to fully fund education?
    Secretary Napolitano. Representative, I understand the 
concern. I don't know how I can address it right now. I think 
pitting Einstein against education is probably not the way to 
go because Einstein is the fundamental system we are putting in 
place across the Federal Government for continuous monitoring 
and diagnostics, which is going to be critical to 
cybersecurity. But I understand your concern. Maybe there is a 
way through some other areas to plug cyber education, even if 
we can't specifically increase that account.
    Ms. Clarke. Yes. I--you know again we recognize that these 
vulnerabilities that we all have in the civil society makes it 
even more difficult to use the tools that you are establishing. 
So it is a--you know it is a delicate balancing act. I think 
the more that Americans become sensitized to the battle ahead 
of us, the more that we can all put our shoulders to the wheel. 
I wanted to also raise the issue of the new office that is 
requested in the President's budget, requesting $27 million.
    This is the Office of Cyber and Infrastructure Analysis, 
which would synthesize the analytical--the analytic efforts of 
the Office of Infrastructure Protection, the Office of Cyber 
Security and Communications. Can you talk about why this new 
office was considered necessary? How quickly you think the 
office will get off the ground?
    Secretary Napolitano. Yes, it is really designed to help us 
meet our responsibilities under the Executive Order, and the 
PPD, and that is the information, and the information sharing 
in the private sector, and the also with the Government. So, 
you know, part of that is in NPPD, parts if it are in other 
parts of the Department, I&A for example. We really want a 
central--it centralized in one place given our central role, 
the analytics involved in cyber. So, you know the office 
probably be able to actually be larger than a $27 million 
office, but that is the number we have put on what we want to 
make sure that we have.
    Ms. Clarke. Do you have a time table, Madam Secretary?
    Secretary Napolitano. Well, we already are moving on 
implementation, but we would like to be able to form the office 
as soon as we have a budget.
    Ms. Clarke. Very well. Thank you so much, Madam Secretary. 
I yield back.
    Mr. Meehan. Thank you.
    The Chairman now recognizes the distinguished former United 
States attorney from Indianapolis, the gentlelady from 
Indianapolis, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman.
    I, too, thank you, Madam Secretary, for your service, not 
just as head of the Department of Homeland Security, but for 
your long-time service to the Federal Government, as well as to 
your State.
    It has been 10 years since the Department was stood up. I 
know there has been, just so much to bring all of the different 
legacy agencies together, and continue to train, but I remain 
concerned as the Ranking Member of my subcommittee brought up, 
with the consolidation of all of those grants that have been so 
critically important in the last 10 years to train our local 
and State law enforcement, and first responders. I am a bit 
concerned that the grants, which currently go to States, urban 
areas, ports, and so forth, that the new National Preparedness 
Grant Program as I understand it to be, is going to step away 
from a terrorism focus specifically to an all-hazards approach. 
Would you comment on that?
    Because I am very concerned if we are not focusing in--on 
both, quite frankly, and that we remain very focused on 
terrorism. So by that consolidation, it is my understanding 
that even in the continuing resolution there was a prohibition 
and--assuring that this type of proposal, which has been 
brought forth in the past, would not go forward.
    So what is different now than what has been proposed in the 
past, the past couple of budget cycles? I am all for 
efficiencies in administration and so forth, but what can you 
share with us more specifically about the details as to how 
this grant program is going to make sure that we are getting 
the funding to the agencies that are--that need it the most?
    Secretary Napolitano. Well, I think one of the things that 
is different is we have held over 70 stakeholder outreach 
meetings and conferences in the last year. We did make some 
adjustments to the proposal in response to that.
    But, you know, the basic problem is that, you know, if we 
are really going to say we want to cover risk and we want to do 
that in the best possible way, but we also want to be 
efficient, continuing to administer 18 grant programs that 
really all ought to be looked at holistically based on each 
State doing their own threat and hazard identification and risk 
assessment, and an ability to identify gaps, fill those gaps, 
et cetera, well, it is very difficult to do that when 
everything is kind of isolated in its own program. Plus, the 
administrative overhead--I can say this at the State level 
where everybody has their own grant, grant writer, and so 
forth--is obvious. So the notion is: Let's base more on risk. 
Let's do more by way of gap analysis and filling gap analysis. 
Let's try to get rid of some of this legacy overhead and make 
this a more streamlined consolidated proposal.
    So in addition to the outreach we have done and the 
adjustments we have made in response to that, I am hoping what 
is different now is I can be more persuasive.
    Mrs. Brooks. With that, can you please share with us the 
BioWatch program? The President's fiscal year 2014 budget 
requests a little over $90 million for the BioWatch program to 
continue funding Gen-2 operations. No funding, as I understand, 
has been put in the budget for the acquisition of Gen-3.
    I think as we continue to see--obviously it has been 11 
years since we have had a terrorist attack of this nature, but 
yet chemical, biological, nuclear, radiological, those are all 
things that we need to continue to be mindful of. Can you, you 
know, share with us what is happening with the Gen-3 system?
    Why would we be pulling back as, you know, technology and 
people become more savvy? What are we doing to make sure that 
we can protect ourselves against chemical, biological, 
radiological? It seems to me that a pullback from Gen-3 is not 
moving in the right direction.
    Secretary Napolitano. We have--Gen-3 is undergoing an 
assessment as to whether it will ultimately be productive for 
the money we would put into it. So rather than head into a 
large acquisition, there were enough problems with it that our 
acquisitions review board has asked for an individual 
assessment. That is on a time line.
    There is some carryover money that can be deployed, but it 
is really a matter of: Let's make sure that before we do a 
large acquisition we really know what we are doing, what we are 
getting and whether it is going to work. There have been 
problems with the early stages of Gen-3.
    On bio, chem, radiological, nuclear, there is a lot in the 
budget in different places, but one I would point to is a major 
request by the President to build the NBAF, which is the 
National Bio-Agro Facility, in Kansas. We have known for a long 
time we need a new Level 4 lab. There was a peer-reviewed 
competition among States. Kansas won. It is at K. State--in 
conjunction with K. State.
    They Kansas legislature has agreed to put in roughly $300 
million. We put in $700 million or so. It is about a billion-
dollar facility. If this is approved and appropriated, we could 
begin construction of a major lab and be done by 2020. I think 
long-term infrastructure for the country, that kind of a 
facility is going to be very important.
    Mrs. Brooks. When you say appropriated, is that by Kansas? 
Have they appropriated it yet?
    Secretary Napolitano. Yes. They have--I don't know whether 
they have appropriated it, but they have made a commitment to 
those millions to partner with the Federal Government.
    Mrs. Brooks. Thank you. I yield back.
    Mr. Meehan. I thank the gentlelady.
    The Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. Certainly don't envy your 
challenges, and I think we all acknowledge the exceptional 
challenge that you have in the agency and the size and scope of 
the things that you have to do on a daily basis.
    My questioning will probably revolve mostly around 
immigration and maybe some of the metrics. I know we have kind 
of beaten that dead horse, but I just want to get my mind 
wrapped around some of the concepts here.
    The Secure Fence Act of 2006 stated that the Department 
must take all, as I read here, actions to necessary to achieve 
operational control of the border. In this section, the term 
operational control means the prevention of all unlawful 
entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and contraband.
    It is my understanding that the Department has stated that 
this definition is not attainable and must be changed to 90 
percent. With that, I think the Department has asked for an 
increase of 3,477, almost 3,500 agents. We are counting on you 
to know the correct number to secure, so we are assuming that 
is correct.
    But now I am picturing myself as a--I was a person as a 
commander of a task force in enemy territory. You know, whether 
I tell my troops that we are going to secure our perimeter up 
to 90 percent or whether I tell their families and their other 
troopers that, you know, 10 percent of you--we are going to try 
and make sure that 90 percent of you come home is an 
untenable----
    Secretary Napolitano. Yes. I think you are mixing apples 
and oranges, if I might respectfully. So let me back up the bus 
a little bit. What you are talking about on 90 percent is a 
number that the GAO uses as an effectiveness ratio. It is a 
calculation about apprehensions to attempts. As I have said, 
the technology is really the part that will help us get more 
confident in the attempts versus apprehensions.
    Obviously everybody always wants 100 percent of everything. 
When you look at a long border, however, that ability to seal 
the border it is not going to happen. I mean, just--as someone 
who is from the border, lived the border my whole life, you 
don't seal it. But you can make it safe and secure as can be 
with the resources you have. That is the goal that we strive 
for.
    Now the 3,500 additional personnel are for the ports of 
entry themselves. One of the problems we have had with the 
border is that the ports have become so clogged and the lines 
get so long because there aren't enough port officers. That in 
and of itself becomes an incentive to go around and try to 
sneak through some other way. So the 3,500 is designed to meet 
our estimate of what we need to properly staff the----
    Mr. Perry. Manage and staff the ports of entry.
    Secretary Napolitano. That is correct.
    Mr. Perry. So the 90 percent that the GAO is describing is 
the U.S. border, whether it is south, north, over water, over 
land, the border period all around the United States. Am I 
correct on that?
    Secretary Napolitano. It is a number that they used in a 
recent report. So that is where that comes from.
    Mr. Perry. I just want to--yes. I just want to make sure I 
am clear. I don't want to be critical----
    Secretary Napolitano. No, I am just trying to explain it.
    Mr. Perry. So just to be sure here and to clarify for 
myself, the Department is still seeking 100 percent. Even 
though we know it is hard to be perfect with thousands and 
thousands of miles of border, whether it is over the ocean and 
the coast line, through the forest or through the desert, we 
are still seeking 100 percent. We will continue to seek 100 
percent.
    Secretary Napolitano. Well, the question is difficult. If I 
were a police chief and you were asking me am I going to seek 
to eliminate all crime, I could say yes, but everyone would 
know, well that is not going to happen. Some crime is going to 
happen. So----
    Mr. Perry. I understand what is----
    Secretary Napolitano [continuing]. Our goals are always to 
do the maximum we can. That is what you want to put as 100 
percent, that is. But I will share with you that is really 
probably not the best way to address the problem.
    Mr. Perry. I am just thinking about--you know, I understand 
that it might not be practical to get to 100 percent. But you 
know, I am--like I said, I am picturing myself in my own 
circumstance where I am trying to safeguard lives and bring 
folks home and make sure none of the bad guys get in the wire 
with us. We, you know, we strove for--that was our goal. Our 
goal was always 100 percent.
    Secretary Napolitano. We always strive for perfection, but 
let me, if I might, make an important point here. We want to 
focus our resources on those who are trying to get into our 
border for bad activities like terrorism, human smuggling, 
narcotrafficking, et cetera. The major drivers across that 
border are the demand for illegal labor and the fact that our 
overall visa process is so screwed up. That is a technical 
term.
    Mr. Perry. I understand.
    Secretary Napolitano. So when the Congress takes up CIR, 
and if you deal adequately with those two drivers, that frees 
us up to focus more on where we should be focusing, which are 
the bad guys, as you would describe them. So I hope that as you 
think about this, it is not the border isolated by itself, but 
see how it fits into the overall problem that we are 
confronting.
    Mr. Perry. I appreciate your explanation. It is a matter of 
prioritization as well as seeking as close to you can as 
perfection. With that, thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Mr. Meehan. I thank the gentleman.
    Secretary, just a quick question.
    We have a colleague who is also in the military. Actually 
served during the break and was on the border.
    One of the issues that was raised was the rules of 
engagement. I don't completely understand it, but they would 
apprehend people at the border, and, in effect, as soon as they 
went back and put a toe in the water, they were then free sort-
of to not be further engaged.
    Is there--is--well----
    Secretary Napolitano. That doesn't sound--I am not sure 
what he is referring to. Maybe I could follow up with you or 
your staff?
    Mr. Meehan. Yes. Well, I--perhaps, because I can put you in 
touch directly with our colleague.
    Secretary Napolitano. Why don't you do that?
    Mr. Meehan. He expressed it from first-hand experience just 
a week ago, and it surprised me. The question is rules of 
engagement, and what can be done with regard to people who are 
effectively, you know, on the river line or on the borderline.
    But I will allow him to express it. I don't want to----
    Secretary Napolitano. Right. There are rules of engagement 
with respect to the DoD deployment at the border, and there are 
reasons for that. So we will be happy to follow up as you 
suggest.
    Mr. Meehan. I would love to be able to put that together. 
Thank you.
    At this moment, the Chairman recognizes the gentleman from 
New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Madam Secretary, I just wanted to--in your 2014 budget 
request, there is an item in there relative to a Northern 
Border toll for--study.
    Can you provide some background with respect to that?
    Secretary Napolitano. Well, I think--I will--let me look 
into that line item specifically for you, but, you know, the 
issues of the Northern Border need to be paid attention to in 
terms of the trade and commerce that happens up there.
    We have a number of things underway with Canada on the ``be 
on the borders'' initiative. We also--as you know, they are 
doing some pilot projects with pre-inspection and the like, one 
of which will be in New York. So--but I don't know whether that 
particular town is intended for that or elsewhere.
    So, I will follow up with you.
    Mr. Higgins. Yes, I would just--for the record, I would 
just like to say that, you know, the Peace Bridge that connects 
Buffalo to Southern Ontario I think is the second-busiest 
border crossing for passenger vehicles and third for commercial 
vehicles.
    It was built 84 years ago with three lanes. So half the 
time, because they use an alternating lane system, you are down 
to one line for all that traffic. It causes, obviously, volume 
delays, but it has an adverse impact on the environment, as 
well, relative to the air quality in and around that area.
    Our emphasis is to expand the American Plaza, but to also 
pursue a new bridge span, because we are all economic actors. 
When we are competent, we move. When we are not, we don't.
    The mindset in Buffalo and Western New York and Southern 
Ontario is to avoid the bridge, because it is not reliable, it 
is not predictable. So the only way you address it is to build 
in capacity.
    So, I would just, you know, want to emphasize that we are 
trying to remove barriers to access, both physical and in 
tolls. You know, when you look at, you know, the situation with 
the Peace Bridge, a lot of the tolls are used to support their 
debt service, which will be necessary to build and expand the 
plaza to promote the efficient flow of traffic between the 
United States and Canada.
    So, this is something that obviously would be of concern. 
Because my sense is that it would be a new agency-imposed toll 
in addition to the bridge management tolls that are already in 
place.
    So, I just wanted to emphasize that to you. I appreciate 
all of your help in helping us address the issues of the 
Northern Border generally, and the Peace Bridge connecting 
Buffalo and Southern Ontario, in particular.
    I yield back.
    Mr. Meehan. Thank the gentleman from New York.
    Now turn to the gentleman from Utah, Mr. Stewart.
    Mr. Stewart. Madam Secretary, thank you for your service. 
Thanks for what has been, I think for you, probably a long 
hearing. I am sympathetic because you don't know the line of 
questioning, and it can kind of come anywhere. It requires you 
to be an expert on nearly everything, and that is a great 
challenge, I know, with the tremendous responsibilities that 
you have.
    I do have a couple things I would like to ask you quickly, 
if I could.
    Secretary Napolitano. Sure.
    Mr. Stewart. As a former Air Force pilot, like most 
military officers, I am fairly comfortable with handling a 
weapon, whether it is a weapon system like I flew or, you know, 
a .9 millimeter handgun. I think that there is something to the 
idea of self-protection. After 9/11, I think that is 
particularly true in the cockpit, of course.
    I am sure you are familiar with the FFDO--the Federal 
Flight Deck Officer program.
    Secretary Napolitano. Mm-hmm.
    Mr. Stewart. You know, it has been in place for, I guess, 7 
or 8 years, and I think it has been quite effective in training 
a large number of pilots to carry handguns in the cockpit with 
them in order to protect themselves and, of course, their 
passengers.
    Yet, I--it is my understanding that that program has been 
entirely defunded in its late--latest budget request. I--and 
that troubles me. I am wondering if you could just help me 
understand your reasoning for not continuing funding for what I 
think is very effective, and really, quite cost-effective 
program.
    Secretary Napolitano. I think two things, Congressman.
    No. 1 is: We have offered FFDO training if the airlines 
want to pay for it. The question is: Should the taxpayer pay 
for it?
    So if the air carriers want to pay for it, we are open to 
that.
    The second thing is that it is not a risk-based program. 
So, in contrast to FAMS--air marshals, where we really look at 
flights and risk and where we have concerns before we make an 
assignment for FAM, FFDOs are happenstance. If a qualified FFDO 
happens to be on a flight, so be it. Because we are moving to a 
risk-based approach, FFDO didn't pass muster.
    Mr. Stewart. You know, and I can accept that explanation if 
you deem that this is not the highest priority. But the one 
that I really have trouble with is this idea that the airlines 
would be--you know, the burden of pay--paying for that would be 
placed upon them because you could make that argument for any 
of our security arrangements or costs. You know, that we could 
defer some of those costs to essentially the customers or the 
client, and, of course, we don't do that.
    Secretary Napolitano. Well, we do. Cybersecurity is a great 
example of where, in--because industry didn't want to be----
    Mr. Stewart. Right.
    Secretary Napolitano [continuing]. And mandated, they--we 
are now involved in a public and voluntary process with them, 
but they will have to pay for----
    Mr. Stewart. Right.
    Secretary Napolitano [continuing]. Security.
    Mr. Stewart. I understand there are examples of that, of 
course. But, you know, I think the preponderance of it is, this 
is a Federal responsibility. It is a Governmental 
responsibility, and therefore, the Government is going to pay 
for that.
    Let me shift, if I could, for just a moment, on an 
unrelated, but, I think, still important topic. That is the--I 
used to president of an environmental group. We worked with 
many different agencies and groups that had interest in that.
    One of the things that I became aware of that during that 
time was that there are examples, in the Southwest, 
particularly, where environmental concerns seem to outweigh the 
concerns of border security. There are areas where agents are 
limited in what they can do and how they can control because 
of, you know, the desire to protect species or habitat.
    It seems to me that that opens the door for incursions. I 
am wondering if you could just comment on that policy, whether 
you think that is a good idea, and whether you would continue 
to support that.
    Secretary Napolitano. Well, I think--actually, we have a 
very good MOU with the Department of the Interior on that. As 
you know, there are a number of Federal protected lands along 
that border, as well as Indian country. We have a very good MOU 
with Interior as to those lands. So we are able to patrol. We 
are able to do pursuit on those lands without having to stop 
and ask for permission and the like.
    So, I think from an operational standpoint, we have dealt 
with the issues, but with--you know, cognizant of the fact that 
there are protected lands in that arena.
    Mr. Stewart. Well, and, of course, none of us want to 
endanger species. But, on the other hand, there is a certain 
priority here that I think many of us would say, ``What is the 
greater risk? What is the greater danger?'' I can tell you, 
having spoken with them, there is some frustration. Maybe even 
more than some, but maybe in some cases, a great deal of 
frustration with some of the agents, and their relationship, 
and how they feel like they have been constrained because of 
those environmental concerns.
    My time is up, madam. Thank you for your time today.
    Mr. Chairman, I yield back.
    Mr. Meehan. I thank the gentleman from Utah.
    I thank the Secretary for your professionalism and 
leadership, as you bring the Department of Homeland Security 
through its first decade, and for your vision as you lay out 
the plans for the next important decade, facing the many 
challenges that we do.
    As I had stated in my own questioning, I see you again as a 
symbol of those who are on the front lines each and every day 
in this protection of our homeland, and the resilience and 
courage of those, particularly as we are seeing in Boston. We 
thank all those on the front lines.
    So, I want to thank the witness for her very valuable 
testimony and the Members for their questions.
    The Members of the committee may have some additional 
questions for the Secretary, and we will ask you to respond to 
those in writing if they are submitted.
    So, pursuant to the committee rule 7E, the hearing record 
will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Honorable Jeff Duncan for Janet Napolitano
    Question 1. DHS has asked for almost double the amount of funding 
for St. Elizabeths from fiscal year 2012 to begin construction of the 
Center Complex Building, including the Secretary's office. Do you feel 
it's appropriate that the Secretary's office is one of the top 
construction priorities for the $4 billion St. E's campus in light of 
other important items? Did DHS consider increasing priority for 
operation centers that will be moving to the campus? Would it have cost 
taxpayers less if the headquarters had not been on a National historic 
area?
    Answer. Response was not received at the time of publication.
    Question 2. You said before House Appropriations that St. 
Elizabeths is a consolidation effort that could save costs in the long 
run. My understanding, from our Oversight Subcommittee visit in March, 
is that except for Coast Guard and FEMA headquarters, only primarily 
the component leadership will be moved to the campus. Couldn't this 
have a detrimental effect on component morale since their leaders will 
no longer be seated in the same space as the normal staff?
    Answer. Response was not received at the time of publication.
     Questions From Honorable Susan W. Brooks for Janet Napolitano
    Question 1. Current grants provided to States, urban areas, ports, 
and transit authorities require projects to have a nexus to the 
prevention of, preparedness for, response to, mitigation of, and 
recovery from acts of terrorism. However, the National Preparedness 
Grant Program proposal seems to step away from that terrorism focus for 
a more ``all hazards'' approach. As you well know, and as Boston 
Marathon attack illustrates, the threat of terrorism has not receded. 
How will the NPGP ensure that grant funding is allocated to those areas 
at the greatest risk of attack?
    Answer. Response was not received at the time of publication.
    Question 2. Under the NPGP how would urban areas, ports, and 
transit agencies, fusion centers, and non-profits receive funding in 
the proposed NPGP?
    Answer. Response was not received at the time of publication.
    Question 3. For the first time, a peer review process is proposed 
to evaluate grant applications. Who will be involved in the review 
panels and how the process will work?
    Answer. Response was not received at the time of publication.
    Question 4. How will the process ensure that projects that are 
identified as a high priority of a State or locality in their THIRA, 
which may not be as high a priority for FEMA, will be given adequate 
weight during the review process?
    Answer. Response was not received at the time of publication.
    Question 5. The NPGP proposal would eliminate the PSGP grant 
program as a stand-alone program and would require port areas to apply 
to the State for funding. How would the NPGP proposal account for port 
areas that cover multiple States? How would we continue to ensure 
coordinated investments in these port areas, rather than stove-piped 
investments in these areas by the State in which they reside?
    Answer. Response was not received at the time of publication.
    Question 6. When I served as U.S. Attorney General for the Southern 
District of Indiana, I very proudly helped establish the Indiana 
Intelligence Fusion Center. I recently had the opportunity to visit it 
again as a Member of Congress. I was then, and I remain, a firm 
believer in the value of both individual fusion centers and the 
National Network of Fusion Centers. Fusion centers are a vital partner 
in the vast National homeland security mission space including, in many 
cases, a partner in emergency response and recovery efforts. We're 
already hearing stories coming out of Massachusetts of the great work 
being done by its fusion centers in the aftermath of the attack in 
Boston this week. Does the new NPGP continue to prioritize fusion 
centers and law enforcement prevention efforts as it has in the past?
    Answer. Response was not received at the time of publication.
    Question 7. The budget proposes to eliminate the National Domestic 
Preparedness Consortium (NDPC) and instead fund a new $60 million 
competitive Training Partnership Grant Program. The NDPC has been 
providing training to first responders since 1998 and has curricula and 
facilities in place. The budget anticipates that new recipients of 
training funds will receive multi-year funding for curricula 
development. Considering that there are current programs with robust 
training curricula already in place, do you believe a reduced amount of 
training opportunities will be available to first responders in fiscal 
year 2013 if grant recipients are developing curricula for the first 
time?
    Answer. Response was not received at the time of publication.
    Question 8. President's fiscal year 2014 budget request again 
proposes to eliminate funding for the Pre-Disaster Mitigation (PDM) 
program within FEMA. According to the budget documents, FEMA does not 
believe this elimination will impact FEMA's mitigation efforts due to 
duplication with other FEMA grant programs, including the Hazard 
Mitigation Grant Program (HMGP). During last year's appropriations 
cycle, there was bicameral, bipartisan opposition to eliminating the 
PDM. In a study conducted by the Multihazard Mitigation Council, it was 
found that for every $1 paid towards mitigation, an average of $4 is 
saved in future recovery costs. Are there any other mitigation-related 
grants or programs that FEMA administers to assist States and local 
governments, universities, and communities with mitigation-related 
projects prior to a disaster?
    Answer. Response was not received at the time of publication.
    Question 9. For fiscal year 2013, Congress appropriated $44 million 
for the United States Fire Administration (USFA), or approximately $42 
million after the mandated rescissions. The administration's budget 
proposal for fiscal year 2014 requests $41.306 million for USFA. Among 
the savings outlined in the budget submission, the administration plans 
to eliminate 18 courses at the National Fire Academy (NFA), 
discontinuing Wildland/Urban Interface-Fire Adapted Communities and 
reducing support to the National Wildfire Coordinating Group, and 
``transferring'' the State Fire Training Assistance Grant Program to 
the Assistance to Firefighters Grant Program. As you know, part of the 
National Defense Authorization Act for Fiscal Year 2013 (Pub. L. 112-
239), reauthorized USFA through 2017. Included in this law were 
instructions for the U.S. Fire Administrator to ``conduct a study on 
the level of compliance with National voluntary consensus standards for 
staffing, training, safe operations, personal protective equipment, and 
fitness among the fire services of the United States.'' Additionally, 
that same law charged the Secretary of Homeland Security with 
establishing the Task Force to Enhance Firefighter Safety. With the 
administration requesting a reduction in USFA's budget, I am concerned 
with the agency's ability to complete the study mandated by Congress 
and the ability of the Secretary of Homeland Security to convene the 
Task Force. Additionally, USFA is charged with providing ``National 
leadership to foster a solid foundation for our fire and emergency 
services stakeholders in prevention, preparedness, and response.'' How 
can USFA provide leadership if it is eliminating courses at the 
National Fire Academy and reducing support for the National Wildfire 
Coordinating Group?
    Answer. Response was not received at the time of publication.
    Question 10. Additionally, the administration's proposal to shift 
the State Fire Training Assistance Grant Program from the National Fire 
Academy to FEMA's Grant Programs Directorate, as part of the Assistance 
to Firefighters Grant Program, has caused some concern among 
stakeholders. In 2012, Congress reauthorized the Assistance to 
Firefighters Grant Program and made State fire training academies 
eligible applicants for the grants--but only for apparatus, equipment, 
and personal protective equipment. The administration's proposal 
essential eliminates funding for the training of firefighters. It is 
estimated that the elimination of the State Fire Training Assistance 
Grant Program will result in approximately 45,000 less students trained 
per year. The amount of funding per State under this program is 
approximately $26,000. It is an extraordinarily efficient and low-cost 
training initiative. Can you address each of these concerns and explain 
how the USFA will continue to meet its mission with a reduced budget?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Scott Perry for Janet Napolitano
    Question 1. Madame Secretary, you continuously state that the 
border is more secure than ever; however, the Department has yet to 
produce a successful border security metric and has inflated its 
deportation statistics since 2007 by including ``voluntary removals''. 
Individuals may voluntarily be removed numerous times, with each case 
included in your record. How do you expect Congress to appropriate 
funds adequately to your Department without knowing Custom and Border 
Patrol's overall effectiveness rate?
    Answer. Response was not received at the time of publication.
    Question 2. How do we move forward on comprehensive immigration 
reform without a legitimate understanding of the degree to which our 
borders are secure?
    Answer. Response was not received at the time of publication.
    Question 3. Do you believe that an increase in the use of unmanned 
aerial vehicles (UAVs)--like ``Vader''--could give us a better 
understanding as to the efficiency of Custom and Border Patrol and aid 
in the prevention of illegal immigrants crossing our border?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Bennie G. Thompson for Janet Napolitano
    Question 1. Madam Secretary, at the hearing, we discussed a report 
published by the Office of the Inspector General that indicated that 
the Department had spent $430 million on developing interoperable 
communications capabilities, but had failed to achieve cross-component 
interoperability (OIG-13-06). The problem was not technology; the 
problem was management and training. What are you doing to ensure 
interoperability within the Department?
    Answer. Response was not received at the time of publication.
    Question 2. What entity within the Department is responsible for 
ensuring cross-component interoperability and enforcing Department 
interoperable communications policies?
    Answer. Response was not received at the time of publication.
    Question 3. It is my understanding that the Department has expanded 
CBP preclearance operations to Abu Dhabi in the United Arab Emirates. 
In what I believe to be an unprecedented arrangement, the cost of CBP 
officers and staff for the preclearance location will be paid by a 
foreign entity. Abu Dhabi has a relatively low volume of travelers to 
the United States, with only three flights per day, and other locations 
have a higher number of travelers of potential concern from a security 
perspective. Given the limited number of personnel, please explain how 
deploying CBP officers to Abu Dhabi makes sense from a risk-based 
perspective.
    Answer. Response was not received at the time of publication.
    Question 4a. Should we be concerned about a foreign government or 
entity paying for our security operations?
    Answer. Response was not received at the time of publication.
    Question 4b. What risks are associated with such an arrangement?
    Answer. Response was not received at the time of publication.
    Question 5. The budget proposes an increase of $77.4 million for 
integrated fixed towers (IFTs) to provide surveillance technology along 
the highest-trafficked areas of the Southwest Border in Arizona. The 
committee has long conducted oversight of the Department's efforts to 
deploy security technology to our Nation's Southwest Border, most 
recently in the largely failed SBInet program. CBP's efforts to deploy 
IFTs to Arizona have been delayed, and there is growing concern that 
the project may suffer from similar issues that plagued its 
predecessors. What can you tell us about the current status of CBP's 
efforts to deploy IFTs and other technology to the Arizona border? What 
is the current time line for deployment of the IFTs? Can you assure us 
the initiative will not be further delayed?
    Answer. Response was not received at the time of publication.
    Question 6a. The budget requests $37.4 million to provide for the 
continuation of the Tethered Aerostat Radar System (TARS) program, 
which is currently operated by the Department of Defense, under CBP. 
The TARS program provides air surveillance in support of DHS's counter-
narcotics mission through the deployment of tethered aerostats at sites 
along the Southwest Border and certain coastal areas. Some have 
expressed concern that it may cost DHS significantly more than it did 
DoD to operate the program, and note that not all of the TARS sites are 
currently operational and utilize older technology and equipment that 
is difficult and costly to repair or replace. What benefits do the TARS 
provide to CBP operations that cannot be provided through other means?
    Answer. Response was not received at the time of publication.
    Question 6b. Do those benefits justify the cost of the program? 
Please elaborate.
    Answer. Response was not received at the time of publication.
    Question 7. Are there currently negotiations or plans to expand 
eligibility for the Global Entry Program or any other trusted traveler 
program to nationals from any country not in the program?
    Answer. Response was not received at the time of publication.
    Question 8. The budget proposes to reduce the number of immigration 
detention beds from 34,000 to 31,800, while increasing the Alternatives 
to Detention program. Can you assure us that this number of beds would 
be sufficient for ICE to detain criminal aliens and other priority and 
mandatory detainees, while utilizing lower-cost alternatives to 
detention only for low-risk detainees who are most likely to appear for 
immigration proceedings? Please explain.
    Answer. Response was not received at the time of publication.
    Question 9. ICE recently received a great deal of criticism for 
releasing from detention a significant number of detainees, including a 
handful of Level 1 criminal violators, ostensibly due to budget 
concerns. It seems that ICE had been detaining, on average, more than 
34,000 individuals per day and needed to bring that number in line with 
the authorized number of beds. If ICE cannot adequately manage its 
detainee population when the agency is funded for 34,000 beds, how can 
we expect it to do so with only 31,800 beds?
    Answer. Response was not received at the time of publication.
    Question 10. Under this budget proposal, what assurances can you 
provide that no priority or mandatory detainees, including Level 1 
criminal aliens, would be put in an alternative to detention rather 
than being detained?
    Answer. Response was not received at the time of publication.
    Question 11. The President's fiscal year 2014 budget proposes a 
savings of over $88 million and a reduction of roughly 1,500 
Transportation Security Officers by transitioning responsibility for 
staffing exit lanes from TSA to airports. As justification for this 
transition, the administration has argued that staffing exit lanes is 
not a screening function, but rather, falls under the purview of access 
control, which is the responsibility of the airport operator. When was 
the determination made that staffing exit lanes is an access control 
function and thus the responsibility of the airport operator?
    Answer. Response was not received at the time of publication.
    Question 12. Did the Department engage in formal consultation with 
airport operators and the exclusive representative for TSOs regarding 
the decision to remove TSA personnel from exit lanes as a cost-savings 
measure prior to the budget being released?
    Answer. Response was not received at the time of publication.
    Question 13. Was there a risk assessment done on this change and 
its implications for perimeter security?
    Answer. Response was not received at the time of publication.
    Question 14. In section 1615 of the ``Implementing 9/11 Commission 
Act of 2007,'' Congress mandated that a law enforcement biometric 
credential be established to ensure that law enforcement officers 
(LEOs) needing to be armed when traveling by commercial aircraft would 
be verified and validated as authorized to do so. It is my 
understanding that TSA screening efforts of flying LEOs today is 
currently carried out by a TSO in the exit lane. How does this proposal 
to transfer exit lane staffing to airports impact this statute?
    Answer. Response was not received at the time of publication.
    Question 15. Has TSA established a program using biometric 
information to track armed LEOs when flying commercial aircraft?
    Answer. Response was not received at the time of publication.
    Question 16. The fiscal year 2014 Congressional Justification for 
TSA's aviation security functions states that over $11 million will be 
saved in fiscal year 2014 due to TSA reducing all non-essential travel 
by 50 percent.Why would you only reduce non-essential travel by 50 
percent rather than eliminating it all together?
    Answer. Response was not received at the time of publication.
    Question 17. According to data provided by TSA, the cost of using 
contract screeners for passenger and baggage screening at domestic 
commercial airports is consistently higher than if the screening was 
conducted by the Federal workforce. Indeed, it cost 46 percent more to 
use contract screeners at Rochester International Airport in 2012, 
according the numbers provided to the committee by TSA. At what point, 
in these tight budgetary times, is the cost of using contract screeners 
deemed detrimental to the cost efficiency of conducting screening 
operations?
    Answer. Response was not received at the time of publication.
    Question 18. Secretary Napolitano, the President's budget proposes 
a restructuring of the September 11 Passenger Security Fee. In short, 
it proposes to replace the current fee structure with a structure that 
is expected to increase collections by an estimated $25.9 billion over 
10 years. Of this amount, $7.9 billion will be applied to increase 
offsets to the discretionary costs of aviation security and the 
remaining $18 billion will be treated as mandatory savings and 
deposited in the general fund for deficit reduction. Can you please 
elaborate as to why you would have the American public foot the bill on 
deficit reduction instead of streamlining other expenses at TSA?
    Answer. Response was not received at the time of publication.
    Question 19a. What types of programs and discretionary costs are 
covered under this fee?
    Answer. Response was not received at the time of publication.
    Question 19b. Can you please provide us with a specific security 
benefit supported from this fund?
    Answer. Response was not received at the time of publication.
    Question 20. Secretary Napolitano, the President's budget requests 
that $4.4 million be allocated for use by TSA to continue its 
assessment of pipeline security efforts. According to the proposal, TSA 
evaluates the physical security of 90-100 pipeline facilities and 
conducts 12-15 Corporate Security Reviews of the top 100 natural gas 
and hazardous liquid transmission pipelines and natural gas 
distribution systems within the United States. Who conducts these 
pipeline assessments and the Corporate Security Reviews?
    Answer. Response was not received at the time of publication.
    Question 21. Is it a Transportation Security Inspector or does the 
Department use a subcontractor for this activity?
    Answer. Response was not received at the time of publication.
    Question 22. In December 2012, the Government Accountability Office 
(GAO) issued a report raising serious concerns regarding TSA's 
oversight and enforcement of its 2008 incident reporting regulation. 
The report indicated that there were several inconsistencies with the 
data collected by stakeholders and that TSA did not offer clear and 
consistent guidance on what should be reported. The President's budget 
requests $22 million be allocated for the operational support of the 
Transportation Security Operations Center, which correlates and 
integrates real-time intelligence and operational information, ensuring 
unity of action in the prevention of, and response to, terrorist-
related incidents across transportation modes. Without proper 
administration and guidelines, however, I am concerned that the TSOC 
will not achieve its full potential.
    What steps has TSA taken to develop a uniformed interpretation of 
the regulation's reporting requirements for rail and surface 
transportation operators?
    Answer. Response was not received at the time of publication.
    Question 23. How is TSA making sure that local TSA inspection 
officials have provided rail agencies with adequate guidance on what 
TSA needs from operators?
    Answer. Response was not received at the time of publication.
    Question 24. Has TSA standardized a definition for all rail 
stakeholders on what constitutes a ``nexus to terrorism''?
    Answer. Response was not received at the time of publication.
    Question 25. What does TSA believe would include incidents that 
should be reported to TSOC by rail operators and owners?
    Answer. Response was not received at the time of publication.
    Question 26. The fiscal year 2014 budget request for the Coast 
Guard provides the agency with much-needed funding to replace aging 
assets, but I want to ensure that there is no gap in security or 
available personnel during this period of transition. Please explain 
the extent to which Coast Guard decommissionings are being coordinated 
with new assets coming on-line.
    Answer. Response was not received at the time of publication.
    Question 27. What, if any, are the operational and response 
capacity implications of these decommissionings?
    Answer. Response was not received at the time of publication.
    Question 28. This committee has a long-established history of 
oversight and support of the National Security Cutters. The fiscal year 
2014 budget requests $616 million to complete construction of the 
seventh National Security Cutter. However, no funding is requested for 
Long Lead Time Materials building materials for the eighth National 
Security Cutter. I am concerned that the lack of funding will delay the 
production of the eighth National Security Cutter and increase costs. 
Please explain why this request makes no requests for future purchases 
related to the eighth National Security Cutter.
    Answer. Response was not received at the time of publication.
    Question 29. The original Coast Guard recapitalization plan called 
for eight National Security Cutters. Will Coast Guard still seek to 
build an eighth National Security Cutter?
    Answer. Response was not received at the time of publication.
    Question 30. The fiscal year 2014 request proposes to cut the size 
of the Coast Guard's workforce by 931 positions. This includes a 
reduction of 850 service members and 81 civilians. While I understand 
that most of these reductions represent a decline in positions 
associated with decommissioning assets and the closings and or 
consolidation of facilities, headquarters, and the Coast Guard Academy, 
I have concerns that Coast Guard may be losing years of investment in 
training, service, and institutional knowledge. How will Coast Guard 
ensure that personnel capabilities remain intact if their workforce is 
reduced by 931 positions?
    Answer. Response was not received at the time of publication.
    Question 31. Will this personnel reduction take place through 
attrition or other means? Please explain.
    Answer. Response was not received at the time of publication.
    Question 32. Madam Secretary, the Best Places to Work in the 
Federal Government survey breaks down numerous categories and ranks 
Federal agencies against like-sized Departments to determine where each 
agency stands. One such category is Senior Leaders. According to the 
survey, this ``measures the level of respect employees have for senior 
leaders, satisfaction with the amount of information provided by 
management, and perceptions about senior leaders' honesty, integrity, 
and ability to motivate employees.'' When compared against other large 
agencies, the Department only scored 41.4 out of 100 and ranked last at 
number 19 out of 19. This indicates that any attempt to improve morale 
and performance must start with changes from the top down.
    As the head of the Department, how do you plan on addressing this, 
either real or perceived, problem with senior leaders at DHS?
    Answer. Response was not received at the time of publication.
    Question 33. Madam Secretary, this year, DHS is required to submit 
its second Quadrennial Homeland Security Review (QHSR) to Congress. 
Presumably, plans are already underway in preparation for the 
submission. To what extent, if any, did the Department's leadership 
coordinate with the QHSR team to ensure that the current budget 
reflects the priorities that will be set forth in the QHSR?
    Answer. Response was not received at the time of publication.
    Question 34. Madam Secretary, in August, the U.S. Coast Guard will 
be the first component to move to DHS headquarters at St. Elizabeths. 
If the Headquarters Consolidation project had remained on schedule it 
would be much further along. The total project completion date is now 
estimated at 2021, and even that is fluid. Funding delays have added an 
estimated $500 million to the cost, which has now ballooned to $3.9 
billion. The fiscal year 2014 budget request for St. Elizabeths is 
$92.7 million. How will the current request, along with GSA's funding, 
position DHS to stay on its current schedule and move forward with this 
important endeavor?
    Answer. Response was not received at the time of publication.
    Question 35. Please explain how the headquarters consolidation 
project will aid DHS in fulfilling its mission.
    Answer. Response was not received at the time of publication.
    Question 36. If DHS does not receive the fiscal year 2014 request, 
what impact will that have on the project?
    Answer. Response was not received at the time of publication.
    Question 37. Madam Secretary, the budget includes a request for 
$54.2 million to fully complete the consolidation of DHS's 24 data 
centers to two enterprise-wide locations, led by the Office of the 
Chief Information Officer. What is the current status of the 
consolidation effort and when do you expect its completion, based on 
the current request?
    Answer. Response was not received at the time of publication.
    Question 38. According to the CFO, DHS the consolidation of 10 of 
the 24 data centers has resulted in a savings of 14%, which is equal to 
$17.4 million in savings annually. Once the project is closed out--
which this request aims to do--how much do you estimate saving on an 
annual basis?
    Answer. Response was not received at the time of publication.
    Question 39. Madam Secretary, DHS is estimating that it will save 
$1.3 billion in fiscal year 2014 from management-related areas. 
Although I applaud this effort, how will this effort, combined with 
sequester-related cuts, impact operations?
    Answer. Response was not received at the time of publication.
    Question 40. Madam Secretary, for far too long DHS has relied on an 
extraordinary number of contractors to fulfill it homeland security 
missions. This has resulted in a lack of institutional knowledge at 
DHS, in addition to waste and abuse resulting from a lack of proper 
contracting oversight. DHS recently began implementing the Balancing 
Workforce Strategy (BWS), which will be used to ``right-size'' the 
number of Federal employees and contractors at DHS and reduce DHS' 
overreliance on outside contractors. The budget contains a request for 
funding and personnel to staff this effort. How will the Department use 
the requested funds and personnel to implement the BWS program?
    Answer. Response was not received at the time of publication.
    Question 41. It would be extremely counterproductive for the 
Department to use contractors to determine whether it is over-relying 
on contractors. Does the Department plan to staff this effort with 
Federal employees, and to what extent, if any, will contractors be used 
in the BWS effort?
    Answer. Response was not received at the time of publication.
    Question 42a. Madam Secretary, in early March the Department's 
Chief Procurement Officer sent a notice to the Department's contractors 
advising that sequestration may result in both planned and existing 
procurements being cancelled, reduced in scope, terminated, or 
partially terminated.
    Did the Department have to take this step?
    Answer. Response was not received at the time of publication.
    Question 42b. If so, how many contracts were cancelled and at what 
dollar amount?
    Answer. Response was not received at the time of publication.
    Question 43. What steps, if any, were taken to ensure that small 
and minority-owned businesses were not disproportionately harmed?
    Answer. Response was not received at the time of publication.
    Question 44. The fiscal year 2012 Congressional Justification 
states that Civil Rights and Civil Liberties will begin training 
efforts for Countering Violent Extremism. Please give us an update on 
this effort.
    Answer. Response was not received at the time of publication.
    Question 45. In an effort to address its acquisition workforce 
needs, the Department's fiscal year 2012 budget request included $24.2 
million for an acquisition workforce initiative. However, the House 
Committee on Appropriations declined to provide funding for the 
initiative, stating that the information it received from DHS was 
insufficient to enable the committee to understand the basis for the 
proposed increase. The fiscal year 2014 budget, however, includes a 
decrease of $14.16 million from the fiscal year 2012 base due to 
reductions that include scaled back of in-residence course offerings 
and acquisition workforce programs. Given the need expressed in the 
last budget and the Department-wide benefit that would be result in an 
increased acquisition workforce, this appears to be a step in the wrong 
direction. Why did DHS take this course?
    Answer. Response was not received at the time of publication.
    Question 46. What resources does the Department of Homeland 
Security have to train State and locals to detect and prevent the 
detonation of improvised explosive devices (IED)? What resources have 
you sent to communities through your grants programs to work with 
preparedness in the event these bombs are detonated?
    Answer. Response was not received at the time of publication.
    Question 47. Has any of that funding been reduced?
    Answer. Response was not received at the time of publication.
    Question 48. Defending our homeland relies on effective information 
sharing between various intelligence agencies and also from our 
international partners. Since 9/11 how has information sharing improved 
amongst the intelligence community and where is there significant room 
for improvement?
    Answer. Response was not received at the time of publication.
    Question 49. How can DHS improve intelligence sharing with foreign 
countries in order to ensure that terrorists are not permitted to board 
a flight to the United States?
    Answer. Response was not received at the time of publication.
    Question 50. How effective has the United States been in ensuring 
that foreign countries share vital intelligence and implement crucial 
security measures at their ports and borders?
    Answer. Response was not received at the time of publication.
    Question 51a. In an interview with CNN, President Obama stated that 
``the biggest concern we have right now is not the launching of a major 
terrorist operation, although that risk is always there, the risk that 
we're especially concerned over right now is the lone-wolf terrorist, 
somebody with a single weapon being able to carry out wide-scale 
massacres of the sort that we saw in Norway recently.'' Do you agree 
with the President?
    Answer. Response was not received at the time of publication.
    Question 51b. Is there anything DHS is doing to prevent these types 
of lone-wolf attacks?
    Answer. Response was not received at the time of publication.
    Question 52. We have seen a rise of domestic terrorism incidents 
throughout the country, marked most recently by the events during the 
Boston Marathon. Earlier this year, several public servants throughout 
the country have been targeted and killed by people that are presumed 
to be affiliated with white supremacy. What is DHS doing to help State 
and local officials identify and prevent domestic terrorism?
    Answer. Response was not received at the time of publication.
    Question 53. This week there have been incidents of letters 
containing suspicious powders, including ricin, addressed to a United 
States Senator and the President of the United States. We know that the 
FBI will be taking the lead on the investigation involving these 
letters. However, I believe that DHS has a role in preventing attacks 
such as these. Please tell us how DHS is involved in the prevention of 
biological attacks. Additionally, if any of these programs are 
receiving budget cuts, please let us know.
    Answer. Response was not received at the time of publication.
    Question 54. Last Congress, this committee held hearings on weapons 
of mass destruction, which include attacks from biological agents. One 
of our witnesses, a former WMD Commissioner, testified that the United 
States still lacks preparedness for an attack such as these. The 
Commissioner cited that State and local authorities were not equipped 
to handle preparedness or response to an attack. Madam Secretary, given 
the cuts to State and local preparedness from the Department of 
Homeland Security grants program, do you think that jurisdictions can 
ever be adequately prepared from an attack from a biological agent or 
other weapon of mass destruction?
    Answer. Response was not received at the time of publication.
    Question 55. There have been conflicting reports about the 
explosive devices that were found at the scene in Boston. Could you 
explain in detail what you know about the devices so far?
    Answer. Response was not received at the time of publication.
    Question 56. DHS has a bomb detection capability. Has DHS been 
involved in trying to preserve shrapnel for the investigatory process?
    Answer. Response was not received at the time of publication.
    Question 57a. It has been widely reported that DHS' Intelligence 
and Analysis circulated a bulletin back in 2004 warning local law 
enforcement that pressure cookers could be used to develop an 
improvised explosive device (IED). Could you provide more background on 
that document?
    Answer. Response was not received at the time of publication.
    Question 57b. To whom are these disseminated?
    Answer. Response was not received at the time of publication.
    Question 57c. Have officials found these helpful?
    Answer. Response was not received at the time of publication.
    Question 57d. As we face budget cuts, do releases such as these 
face danger of being reduced?
    Answer. Response was not received at the time of publication.
    Question 58. Recent increases in apprehensions in other areas along 
the Southwest Border, specifically south Texas, indicate that area may 
benefit from additional technology. What is being done to send 
technology and other assets to this increasingly active area of the 
border?
    Answer. Response was not received at the time of publication.
    Question 59. In 2012, this subcommittee and both House and Senate 
Appropriations Committees rejected the National Preparedness Grant 
Program (NPGP) proposal for fiscal year 2013, because the proposed 
program had not been authorized by Congress, lacked sufficient details 
regarding its implementation, and lacked sufficient stakeholder 
participation in its development.
    Please inform us of the Department/FEMA's stakeholder outreach 
methods regarding the current fiscal year 2014 NPGP proposal.
    Answer. Response was not received at the time of publication.
    Question 60. Which stakeholder organizations were involved in this 
process?
    Answer. Response was not received at the time of publication.
    Question 61. The goods, services, and jobs from each seaport are 
relied upon by an average of 15 States across the country. By 
eliminating the Port Security Grant Program (PSGP) at the Federal level 
and giving the particular State in which a seaport happens to reside 
the sole discretion, based on its own State-created THIRA, on how 
funding for its security is to be allocated, how can we be certain that 
the other States' reliance on that port is not unduly harmed?
    Answer. Response was not received at the time of publication.
    Question 62. Currently, the Coast Guard Captains of the Port play a 
key role in prioritizing projects submitted for funding under Port 
Security Grant Program (PSGP).
    What role will they play in the proposed National Preparedness 
Grant Program (NPGP) program?
    Answer. Response was not received at the time of publication.
    Question 63. Unlike the other Homeland Security Grant Programs, the 
Port Security Grant Program (PSGP) funds commercial entities, marine 
terminal operators, to support the Federally-mandated MTSA and the SAFE 
Port Acts. Are the State Administrative Agencies' (SAA) prepared to 
deal with these issues?
    Answer. Response was not received at the time of publication.
    Question 64. In the past, funding for State and local grants 
programs have been cut considerably in addition to funding cuts for 
port security grants. Is this program going to be funded at an 
accumulated level that is as low as funding has been for these programs 
in the past, and if so, how do you expect ports to compete with other 
entities vying for grants in an environment with such little funding to 
go around?
    Answer. Response was not received at the time of publication.
    Question 65. The ``Implementing Recommendations of the 9/11 
Commission Act'' established a segregated public transportation 
security assistance grant program now known as the Transit Security 
Grant Program (TSGP). As you know, under TSGP eligible transit agencies 
can directly apply for and receive funding from DHS and under the NPGP 
proposal transit agencies are not eligible applicants and must include 
their funding requests ``along with'' State Administrative Agency (SAA) 
funding applications. Do SAA's have the final say on whether or not a 
transit agency's individual application is included ``along with'' a 
State's larger funding application?
    Answer. Response was not received at the time of publication.
    Question 66. Do you believe that at present, there is NOT 
sufficient interaction between transit agencies and local and State 
agencies re: planning, etc.?
    Answer. Response was not received at the time of publication.
    Question 67. Do you believe that transit agencies are best able to 
determine and prioritize their own security needs?
    Answer. Response was not received at the time of publication.
    Question 68. DHS has struggled to compete with the private sector 
and other Federal agencies in attracting a skilled cyber workforce. 
What effect do you anticipate the reduction of cyber vacancies and 
budget cuts in general having on DHS's ability to attract and retain 
qualified candidates to work within DHS's cyber workforce?
    Answer. Response was not received at the time of publication.
    Question 69. Madam Secretary, the President's budget requests $17.4 
million dollars to purchase commercial cyber threat information. I 
think the average citizen would wonder why the mighty Federal 
Government, with all of its access to intelligence, would need to be 
purchasing commercial cybersecurity products. Can you explain to us why 
this is necessary?
    Answer. Response was not received at the time of publication.
    Question 70a. The budget requests $197 million dollars for 
EINSTEIN-3A, which will leverage commercial internet service providers 
to more quickly extend intrusion prevention coverage to Federal 
Government agencies. Can you give us an update of how many of our 
Federal agencies are currently covered by EINSTEIN-2, the previous 
iteration, and how many are currently covered by EINSTEIN-3?
    Answer. Response was not received at the time of publication.
    Question 70b. What is the path forward to full coverage of the 
Federal Government?
    Answer. Response was not received at the time of publication.
    Question 71. The President's budget requests $168 million for the 
continuous diagnostics program, which is DHS's operations to implement 
Federal Information Security Management Act (FISMA) compliance across 
the Federal Government. This funding will enable DHS to develop a suite 
of programs that will be deployed at Federal agencies to provide DHS 
with an almost real-time capability to monitor what safeguards are in 
place to protect the .gov. The budget request is light on 
implementation details, however, and a workable time line. As of now, 
what is the time line for implementing this program?
    Answer. Response was not received at the time of publication.
    Question 72a. Both the recent Executive Order, and current and 
future legislation, are expected to increase DHS' cyber information 
sharing with State, local, international, and private-sector partners. 
How does the budget request reflect the Executive Order's new 
initiatives with respect to DHS, including the greatly expanded 
Enhanced Cybersecurity Services program and the development of the 
Cybersecurity Framework?
    Answer. Response was not received at the time of publication.
    Question 72b. Does DHS have the resources it needs to fulfill its 
new responsibilities?
    Answer. Response was not received at the time of publication.
    Question 73. In late December 2011, a news outlet obtained a leaked 
copy of an internal memo evaluating the Chemical Facility Anti-
Terrorism Standards (CFATS) program. When we finally saw it here at the 
committee, we found it to be a frank assessment of the program's 
shortfalls and helped our understanding of why there has not been more 
progress in this program. The memo identified a number of human 
resources, technical, and organizational challenges that have impeded 
the program. The process of approving site security plans has been 
taking longer than anyone would have expected, and GAO in its recent 
report suggests that it could take another 7-9 years to complete. That 
GAO report, and another from the DHS Office of Inspector General, 
brings to light even more disturbing issues involving questions about 
the risk analysis processes involved in the program, and other sober 
conditions that point to problems with the capability of the program to 
achieve any of its goals and core mission. Do you anticipate the CFATS 
program to be fully implemented in fiscal year 2014? Specifically, when 
do you anticipate CFATS moving into its compliance phase?
    Answer. Response was not received at the time of publication.
    Question 74. At this time, what are your expectations for this 
important program?
    Answer. Response was not received at the time of publication.
    Question 75. Do you anticipate needing more resources for the 
inspector workforce to conduct compliance in fiscal year 2014?
    Answer. Response was not received at the time of publication.
    Question 76a. The fiscal year 2014 budget reflects a funding cut in 
the on-line reporting system (CSAT) used to submit CFATS information. 
Does this account reflect the development of the ammonium nitrate 
sales, registration and verification process, and field enforcement?
    Answer. Response was not received at the time of publication.
    Question 76b. If so, what is the allocation to each process?
    Answer. Response was not received at the time of publication.
    Question 76c. Is DHS proceeding under the assumption that the sales 
registration and verification process will proceed as stated in the 
ammonium nitrate rule that will be published by the end of this year or 
has another process been contemplated?
    Answer. Response was not received at the time of publication.
    Question 77. It is well documented that ammonium nitrate has been 
exploited by terrorists to create improvised explosive devices to 
deadly effect. This committee has worked diligently, over the years on 
legislation authorizing the program and has actively tracked the 
progress of this rulemaking, and the Department published a Notice of 
Proposed Rulemaking on August 3, 2011. I know that during the comment 
period you heard from a lot of people--particularly in the 
agricultural, explosives, and mining sectors--about some potential 
unintended consequences and harmful impacts of aspects of the proposed 
rule.
    Can you give us an update on the status today?
    Answer. Response was not received at the time of publication.
    Question 78. When do you expect to finalize the rule?
    Answer. Response was not received at the time of publication.
    Question 79. The same division that oversees the Chemical Facility 
Anti-Terrorism Standards Act is responsible for this program. Can you 
tell us how you intend to ensure that this division issues and 
implements a final rule, given CFATS' other current distractions and 
shortcomings?
    Answer. Response was not received at the time of publication.
    Question 80. The President's fiscal year 2013 request contained no 
funding at all for the construction of the National Bio and Agro-
Defense Facility (NBAF) to be built in Kansas. This year, the 
administration is requesting full funding for construction of NBAF in 1 
year, $714 million. Given the condition and continued deterioration of 
the Plum Island laboratory, and the need to have a Level 4 agricultural 
laboratory in the United States even more necessary, please explain 
your reasoning for requesting full construction monies in 1 budgetary 
year?
    Answer. Response was not received at the time of publication.
    Question 81. How do you intend to proceed on NBAF construction, and 
what are your time lines for completion?
    Answer. Response was not received at the time of publication.
    Question 82. Madam Secretary, there are some discussions about the 
advisability of merging the BioWatch responsibilities of the Office of 
Health Affairs with DNDO to form what would essentially be a Weapons of 
Mass Destruction division or directorate within DHS. The idea is based 
on combining the technological R&D and acquisition needs of advanced 
sensor technologies for CBRN--chemical, biological, radiological, and 
nuclear detection--into one concerted program. I personally think we 
need to examine this policy question with a meaningful and deliberate 
hearing process. What are your preliminary thoughts on such a merger 
involving the Office of Health Affairs BioWatch program and DNDO?
    Answer. Response was not received at the time of publication.
      Question From Honorable Loretta Sanchez for Janet Napolitano
    Question. At the hearing, we discussed the new production path for 
Coast Guard's fast response cutter. Please submit the new production 
plan to the committee for our review.
    Answer. Response was not received at the time of publication.
    Questions From Honorable Sheila Jackson Lee for Janet Napolitano
    Question 1. At the hearing, we discussed the Department's role in 
the response to the chemical facility explosion in West, Texas on April 
17, 2013. What resources was the Department able to deploy to the area?
    Answer. Response was not received at the time of publication.
    Question 2. We also discussed the public outcry regarding 
Transportation Security Administration's (TSA) decision earlier this 
year to allow certain knives and sports equipment in the passenger 
cabin of airplanes. You noted that you would work with the TSA 
administrator to improve stakeholder outreach in advance of changes in 
TSA's prohibited items list. How will you ensure that relevant 
stakeholders are consulted and involved in decisions regarding changes 
to the prohibited items list and other security policies?
    Answer. Response was not received at the time of publication.
     Questions From Honorable Yvette D. Clarke for Janet Napolitano
    Question 1a. As we discussed at the hearing, although I am 
supportive of the enhancements to the DHS cybersecurity mission for 
core programs, such as EINSTEIN, I have been concerned that DHS appears 
to be placing a lower priority on key ``defense-in-depth'' strategies 
such as public outreach, education, and workforce development. You 
indicated a willingness to work with me to ensure that proper resources 
are allocated to public outreach, workforce development, and education. 
Given the relative low cost of these endeavors, how do you justify 
these cuts?
    Answer. Response was not received at the time of publication.
    Question 1b. Is there no way to slightly decrease funding for the 
top-priority programs to fully fund education?
    Answer. Response was not received at the time of publication.
    Question 2. The President's budget requests more than $27 million 
for the creation of the Office of Cyber and Infrastructure Analysis to 
synthesize the analytic efforts of the Office of Infrastructure 
Protection and the Office of Cybersecurity and Communications. Can you 
talk about why you need this new office and how soon you think the 
Office will be fully operational?
    Answer. Response was not received at the time of publication.
       Question From Honorable Brian Higgins for Janet Napolitano
    Question. I expressed my concern regarding an item in the fiscal 
year 2014 budget request which would ``study the feasibility and cost 
related to imposing a crossing fee on pedestrians and passenger 
vehicles along the northern and southwestern borders.'' Such an 
increase could devastate commerce along the Northern Border, and 
particularly in the Buffalo-Niagara region which is already struggling 
to rebuild its economy. Please provide any and all materials associated 
with this proposal.
    Answer. Response was not received at the time of publication.
        Question From Honorable Ron Barber for Janet Napolitano
    Question. At the hearing, we discussed the effect of sequestration 
and the fiscal year 2013 spending bill on Border Patrol Agents. There 
remains significant uncertainty among the Border Patrol Agents in my 
district regarding how their employment and compensation will be 
impacted. When will the Department give Border Patrol Agents concrete 
information about how sequestration and the fiscal year 2013 spending 
bill will affect their employment, overtime, and income?
    Answer. Response was not received at the time of publication.
   Questions From Honorable Donald M. Payne, Jr. for Janet Napolitano
    Question 1. As we all saw following the Boston Marathon attack, the 
efforts of first responders and State and local authorities were 
integral in saving lives and stabilizing the area. The last 
appropriations for Homeland Security significantly cut grants to State 
and local governments, transportation security, as well as other 
Department areas. Further cuts are now imposed due to sequestration.
    Are you concerned that the sequester and cuts to grants to State 
and locals inhibit our ability to detect and deter possible threats to 
the homeland?
    Answer. Response was not received at the time of publication.
    Question 2a. What resources does DHS have to train State and locals 
to detect and prevent the detonation of improvised explosive devices 
(IED)?
    Answer. Response was not received at the time of publication.
    Question 2b. What resources have you sent to communities through 
your grants programs to work with preparedness in the event these bombs 
are detonated?
    Answer. Response was not received at the time of publication.
    Question 2c. And has any of that funding been reduced?
    Answer. Response was not received at the time of publication.
    Question 3. We now have almost a decade of spending money in the 
homeland security arena. I have heard from many in my district that 
having the tools and resources is not the problem, but the necessary 
manpower and training is the problem.
    Since you have been Secretary, what have you learned about what 
spending works and what does not work?
    Answer. Response was not received at the time of publication.
    Question 4. As you continue through the sequester, what areas of 
homeland security funding have been most successful, and what programs 
can be cut without damaging our homeland security?
    Answer. Response was not received at the time of publication.
    Question 5a. Secretary Napolitano, Newark Liberty International 
Airport is one of the main engines for economic growth in my District 
and in the entire region. In fact, I was just at the airport touring 
the Customs and Border Patrol's inspection facility less than 2 weeks 
ago, learning more about the work they do. The Customs officers do a 
remarkable job, but they have a tough job, especially as a result of 
budget constraints. Considering those problems, I was puzzled when I 
learned that our Government is establishing a preclearance facility in 
Abu Dhabi. Although I do wish to facilitate tourism and trade in my 
district, I nevertheless have concerns regarding whether this is the 
best use of our resources considering the relatively low volume of 
travel from Abu Dhabi. Could you please explain how deploying our 
already-limited CBP officers to Abu Dhabi makes sense considering the 
present budget constraints being imposed on CBP. Should we be concerned 
about a foreign government or entity paying for our security 
operations?
    Answer. Response was not received at the time of publication.
    Question 5b. What risks are associated with this arrangement? This 
matter is of great importance to me and my constituents. I have some 
reservations about the plan considering the speed at which it is moving 
and the lack of information so far. I look forward to learning more 
about it in the weeks and months ahead.
    Answer. Response was not received at the time of publication.
    Question 6. My district sits directly across the river from New 
York City and includes an airport, a sea port, rail lines, bus lines, 
and chemical plants. As such, my district relies heavily on several of 
the Department of Homeland Security's individual grants like UASI, the 
Port Grant Program, and the Transit Security Grant Program. Therefore, 
I am particularly concerned about DHS's proposal to consolidate 16 
grant programs into a single National Preparedness Grant Program 
(NPGP).
    In the past, funding for State and local grants programs have been 
cut considerably, so I am also concerned about a further reduction in 
the funds available. How do you expect ports and transit that rely on 
their specific grant program to compete with other entities vying for 
grants in an environment with such little funding to go around?
    Answer. Response was not received at the time of publication.
    Question 7. According to data provided by TSA, the cost of using 
contract screeners for passenger and baggage screening at domestic 
commercial airports is consistently higher than if the screening was 
conducted by the Federal workforce. In some airports the cost is close 
to even 40 or 50 percent more to use contract screeners. At what point, 
in these tight budgetary times, is the cost of using contract screeners 
deemed unfavorable to the cost efficiency of conducting overall 
screening operations?
    Answer. Response was not received at the time of publication.
    Question 8a. The administration's fiscal year 2014 budget proposes 
a reduction in funding for VIPR teams that monitor and detect potential 
terrorist threats across surface and mass transportation hubs. In light 
of the events occurring in Boston is this wise?
    Answer. Response was not received at the time of publication.
    Question 8b. And if there is a reduction in the number of VIPR 
teams, will there be training to the front-line employees of public 
transit agencies, rail carriers, and intercity bus carriers?
    Answer. Response was not received at the time of publication.
    Question 9. At the hearing, we discussed the impact of grant 
funding reductions on State-wide Interoperability Coordinators (SWIC), 
noting that States have lost SWICs as Federal grant funding has become 
unavailable. As we make significant investments in First Net, I am 
concerned that interoperability capabilities we have developed over the 
last decade and the capabilities we hope to achieve with First Net will 
be undermined by the fact that States are losing their SWICs. What 
steps is the Department taking to ensure that States without SWICs will 
continue to maintain State-wide Communications Interoperability Plans?
    Answer. Response was not received at the time of publication.
    Question 10. What resources and guidance will the Department 
provide to States without SWICs who will be forced to designate another 
individual--who will likely have primary responsibilities outside of 
interoperable communications policy--to coordinate the State's 
communications with FirstNet?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Beto O'Rourke for Janet Napolitano
    Question 1a. At the hearing, we discussed my concerns about CBP 
staffing levels. I noted that the administration's proposed budget 
requests funding for 25,252 CBP officers, which includes an increase of 
1,600 CBPOs funded by appropriations and up to 1,877 CBPOs funded by a 
proposed increase to customs and immigration user fees. Adding CBP 
officers is necessary to enhance security, facilitate legitimate trade 
and travel, and reduce wait times at our ports of entry. Is this 
proposed increase sufficient to fully meet the staffing needs 
identified by CBP's fiscal year 2013 Report to Congress on Resource 
Optimization at Ports of Entry?
    Answer. Response was not received at the time of publication.
    Question 1b. How would these officers be utilized? Please explain.
    Answer. Response was not received at the time of publication.
    Question 2. I also noted that Members of this committee have 
repeatedly requested a copy of CBP's staffing model, including staffing 
information for each port, but that request has never been honored by 
the Department. At the hearing, you agreed to provide a staffing model 
to the committee. We anxiously await the transmission of that model.
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
